<html>
<title> - DANGEROUS DUST: IS OSHA DOING ENOUGH TO PROTECT WORKERS?</title>
<body><pre>[Senate Hearing 110-963]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-963
 
        DANGEROUS DUST: IS OSHA DOING ENOUGH TO PROTECT WORKERS?

=======================================================================


                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON EMPLOYMENT AND WORKPLACE SAFETY

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

  EXAMINING THE OCCUPATIONAL SAFETY AND HEALTH ADMINISTRATION (OSHA), 
  FOCUSING ON PROTECTING WORKERS FROM DANGEROUS DUST AT THE WORKPLACE

                               __________

                             JULY 29, 2008

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                                 senate



                  U.S. GOVERNMENT PRINTING OFFICE
43-922                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming
TOM HARKIN, Iowa                     JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
JEFF BINGAMAN, New Mexico            RICHARD BURR, North Carolina
PATTY MURRAY, Washington             JOHNNY ISAKSON, Georgia
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     ORRIN G. HATCH, Utah
BARACK OBAMA, Illinois               PAT ROBERTS, Kansas
BERNARD SANDERS (I), Vermont         WAYNE ALLARD, Colorado
SHERROD BROWN, Ohio                  TOM COBURN, M.D., Oklahoma

           J. Michael Myers, Staff Director and Chief Counsel

                 Ilyse Schuman, Minority Staff Director

                                 ______

            Subcommittee on Employment and Workplace Safety

                   PATTY MURRAY, Washington, Chairman

CHRISTOPHER J. DODD, Connecticut     JOHNNY ISAKSON, Georgia
TOM HARKIN, Iowa                     RICHARD BURR, North Carolina
BARBARA MIKULSKI, Maryland           LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     PAT ROBERTS, Kansas
BARACK OBAMA, Illinois               WAYNE ALLARD, Colorado
SHERROD BROWN, Ohio                  TOM COBURN, M.D., Oklahoma
EDWARD M. KENNEDY, Massachusetts     MICHAEL B. ENZI, Wyoming (ex 
(ex officio)                         officio)

                   William C. Kamela, Staff Director

                  Glee Smith, Minority Staff Director

                                  (ii)



                            C O N T E N T S

                               __________

                               STATEMENTS

                         TUESDAY, JULY 29, 2008

                                                                   Page
Murray, Hon. Patty, Chairman, Subcommittee on Employment and 
  Workplace Safety, opening statement............................     1
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia, 
  opening statement..............................................     3
Chambliss, Hon. Saxby, a U.S. Senator from the State of Georgia, 
  statement......................................................     4
Foulke, Edwin G., Jr., Assistant Secretary of Labor for 
  Occupational Safety and Health, Occupational Safety and Health 
  Administration (OSHA), Washington, DC..........................     4
    Prepared statement...........................................     6
Bresland, John S., Chairman, CEO of U.S. Chemical Safety and 
  Hazard Investigation Board, Washington, DC.....................    10
    Prepared statement...........................................    11
Spencer, Amy, Senior Chemical Engineer, National Fire Protection 
  Association, Quincy, MA........................................    38
    Prepared statement...........................................    40
Prugh, Richard W., Senior Process Safety Specialist, Chilworth 
  Technology, Inc., Plainsboro, NJ...............................    42
    Prepared statement...........................................    44
Graham, Graham H.,Vice President for Operations, Imperial Sugar 
  Company, Sugarland, TX.........................................    48
    Prepared statement...........................................    50

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Senator Harkin...............................................    61
    Senator Clinton..............................................    62
    Senator Obama................................................    63
    American Society of Safety Engineers (ASSE)..................    64
    William J. Hargraves, OSHA inspector, retired................    66
    Imperial Sugar Company.......................................    68

                                 (iii)



        DANGEROUS DUST: IS OSHA DOING ENOUGH TO PROTECT WORKERS?

                              ----------                              


                         TUESDAY, JULY 29, 2008

                                       U.S. Senate,
           Subcommittee on Employment and Workplace Safety,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:00 a.m. in 
room SD-430, Dirksen Senate Office Building, Hon. Patty Murray, 
chairman of the subcommittee, presiding.
    Present: Senators Murray, Brown, and Isakson.
    Also Present: Senator Chambliss.

                  Opening Statement of Senator Murray

    Senator Murray. This subcommittee will come to order.
    Before we begin, I want to recognize my Ranking Member, 
Senator Isakson, and extend a welcome to our colleague from 
Georgia, Senator Chambliss, who is going to be here shortly and 
will be participating in this hearing today as well.
    Just 6\1/2\ months ago, a dangerous buildup of dust fueled 
the catastrophic explosion at an Imperial Sugar refinery in 
Port Wentworth, GA. Thirteen people were killed. Forty were 
injured, some sustaining life-threatening injuries. Three of 
those burn victims are still in the hospital today.
    This horrific accident brought to the Nation's attention 
the danger that dust poses in industries from sugar refining to 
pharmaceutical manufacturing to textiles. The Imperial Sugar 
disaster was one of the worst industrial accidents in recent 
history. Tragically, the cause, like other such explosions, was 
preventable.
    Yet despite the hazard it poses, the Occupational Safety 
and Health Administration still does not have regulations 
governing dust, and some workers are still not aware of how 
dangerous it can be. In 2006, the U.S. Chemical Safety and 
Hazard Investigation Board, or CSB, completed a study on 
combustible dust and made five safety recommendations to OSHA.
    Most importantly, the CSB called for a regulatory standard 
for dust explosions in general industry, and it suggested that 
while developing a new standard, OSHA should improve training 
for its inspectors and do more to educate workers and their 
employers about dust hazards.
    Since that time, 82 new dust explosions have occurred, but 
only one recommendation appears to have been implemented by 
OSHA. Its National Emphasis Program started in 2007. The 
program was reissued March 11, 2008, to provide policies and 
procedures for inspecting workplaces which produce dust that is 
likely to cause fires or explosions.
    We don't yet know the program's impact on worker safety, 
but we are particularly troubled that even though OSHA was 
specifically warned that its existing dust standards were 
inadequate and even though it was given guidance by the CSB on 
preventive steps to avoid future strategies, OSHA has failed to 
respond proactively.
    I believe that each one of us here today shares the same 
goal--to ensure that every worker returns home safely to his or 
her family at the end of the day. That is why OSHA was created, 
to enforce workplace safety laws and regulations and to protect 
workers from injury, illness, and death on the job.
    My colleagues and I are very concerned that OSHA has been 
dangerously ineffective in helping us to reach that goal. While 
OSHA last week cited Imperial Sugar a total of $8.8 million for 
violations at the Port Wentworth plant and a sister plant in 
Gramercy, LA, those penalties come far too late for the 13 
workers who died or for the workers who may be permanently 
damaged by that explosion.
    Without a specific dust-related standard, OSHA's ability to 
levy specific citations or penalties is limited. Today, at this 
hearing, we are going to hear about steps that can be taken to 
regulate and prevent the dangerous buildup of dust so that we 
can prevent future disasters.
    I want to thank all of our witnesses and our guests for 
being here today. This morning, we are going to hear from Edwin 
Foulke, Jr., Assistant Secretary of Labor for OSHA; John 
Bresland, Chairman and CEO of the U.S. Chemical Safety and 
Hazard Investigation Board; Amy Spencer, a senior chemical 
engineer at the National Fire Protection Association in Quincy, 
MA; Richard Prugh, a senior process safety specialist at 
Chilworth Technology in Plainsboro, NJ; and Graham Graham, Vice 
President for Operations at the Imperial Sugar Company in 
Sugarland, TX.
    Mr. Graham will testify on his own behalf about the 
conditions he witnessed at the Port Wentworth facility. I ask 
that Mr. Foulke and Mr. Bresland, who are on the first panel, 
stay so you can listen to our second panel of witnesses in case 
we have additional questions for either of you.
    We know that standards for combustible dust can work. OSHA 
responded in 1987 to a series of grain dust explosions by 
issuing a grain dust standard that has, according to OSHA's own 
figures, decreased the number of such explosions and fires by 
60 percent. The grain industry helped sponsor the research 
leading to the standard, as well as the launch of a safety 
education program. Industry leaders tell us it has dramatically 
improved the grain and feed industry's safety record.
    Today, we want to send a message to OSHA and to all 
industries in which dust buildup is a hazard. One worker's 
death or injury is unacceptable if it is preventable. I hope 
this hearing will leave us with a good idea of what should be 
done and how Congress can help ensure that OSHA does its job to 
protect all workers in the country.
    With that, I will turn to my Ranking Member, Senator 
Isakson, and I want to thank him for working with us as we put 
this hearing together. I know it is extremely important to you 
and to your colleague Senator Chambliss, who has joined us 
today.
    Senator Isakson.

                  Opening Statement of Senator Isakson

    Senator Isakson. Well, thank you very much, Chairman 
Murray.
    It is always a pleasure to work with you, whether it is on 
mine safety, asbestos, or combustible dust. It has always been 
a privilege to work with you, and I appreciate your willingness 
to hold this hearing today. It is very important to Senator 
Chambliss and myself in particular because the lives that were 
lost were Georgians and the facility is in our State.
    On Thursday, February 7, 2008, a massive explosion occurred 
at the Imperial Sugar refinery in a Savannah, GA, suburb called 
Port Wentworth. As a result of the explosion, 13 workers died, 
15 went to the burn center, and 3 remain there today, 2 in very 
critical condition.
    Days after the disaster, Senator Chambliss and I traveled 
to Port Wentworth and witnessed firsthand the absolute 
devastation and tragedy of the explosion. We met with the 
grieving families, all of them, at a gymnasium and assured them 
that we would work hard to understand fully the cause of the 
disaster so that we can prevent it and, hopefully, have it 
never happen again.
    At that time, Senator Enzi, Senator Kennedy, Senator 
Murray, Senator Chambliss, and myself sent a letter to 
Secretary Chao at the Department of Labor and to the then-
interim executive of the Chemical Safety Board, urging them to 
begin a comprehensive and thorough investigation of the 
explosion. On Friday, OSHA released its findings, which have 
been referred to by Senator Murray.
    OSHA investigators concluded that Imperial egregiously and 
willfully violated safety and health standards. OSHA officials 
believe the employer in this case was aware of the hazard and 
did little to abate the problem. The agency has charged 
Imperial Sugar with violations of both existing standards and 
the general duty clause, the section of that act that obligates 
employers to maintain a safe workplace free from recognized 
hazards.
    These are gravely serious charges that I do not take 
lightly, nor should anybody take lightly. The company has 
declined our invitation to testify today, but has responded in 
writing to OSHA's charges. I would ask unanimous consent that 
that response be entered in the record.
    Senator Murray. Without objection.
    [The information referred to can be found in Additional 
Material.]
    Senator Isakson. I welcome our witnesses today. I thank 
them very much for their hard work, and I look forward to their 
testimony.
    Thank you, Madam Chairman.
    Senator Murray. Thank you, Senator Isakson.
    Senator Chambliss.

                     Statement Of Senator Chambliss

    Senator Chambliss. Chairman Murray, thank you for giving me 
the opportunity, as someone who is not a member of this 
committee, to participate in this hearing that is so critically 
important to not just our State, but to other facilities around 
the country.
    I thank you for your leadership on this issue. You and 
Senator Isakson have been great champions for workers, and the 
way you have conducted yourselves not just on this 
investigation, but previous ones going back to the Sago mine 
issue.
    Thanks also to Senator Kennedy and Senator Enzi for their 
leadership, and I really appreciate the opportunity to be here 
today to look into the matter surrounding the tragedy that 
occurred at Port Wentworth and look forward to working with you 
and my colleague Senator Isakson in developing the types of 
policies that will ensure that we are doing everything possible 
to not allow something like this to happen again.
    Thank you for letting me participate.
    Senator Murray. Thank you very much.
    With that, we will turn to our first two witnesses for 
their opening statements, and we will begin with Mr. Foulke.

STATEMENT OF EDWIN G. FOULKE, JR., ASSISTANT SECRETARY OF LABOR 
  FOR OCCUPATIONAL SAFETY AND HEALTH, OCCUPATIONAL SAFETY AND 
          HEALTH ADMINISTRATION (OSHA), WASHINGTON, DC

    Mr. Foulke. Thank you. Madam Chairwoman, Senator Isakson, 
Senator Chambliss, thank you for the opportunity to appear here 
today to discuss the results of OSHA's investigation of the 
Imperial Sugar explosion and our ongoing efforts to protect 
employees from combustible dust hazards.
    Before I begin my testimony, I would like to express, on 
behalf of everyone at OSHA, our deepest personal condolences to 
the families of those who were killed or injured in the 
explosion at the Imperial Sugar refinery. We at OSHA firmly 
believe that no employee should have to risk serious injury or 
death to earn a living. All of the employees at OSHA work 
tirelessly every day to ensure that every employee returns home 
safely to their loved ones.
    Over the past 5\1/2\ months, OSHA has conducted a thorough 
investigation of the Imperial Sugar refinery explosion. After 
careful review and analysis of the evidence and the inspection 
of the two facilities, OSHA determined that, No. 1, the senior 
management of Imperial Sugar was aware of the combustible dust 
hazards at their facilities; No. 2, that they did not take the 
necessary steps to abate these hazards; and No. 3, because they 
did not control or eliminate the combustible dust hazards, the 
conditions existed to support the explosion that occurred on 
February 7.
    Even after the February 7 explosion at Port Wentworth, 
where 13 people were killed and more than 40 injured, Imperial 
Sugar failed to ensure that their other facility in Gramercy, 
LA, would be free of combustible dust hazards. I personally 
sent a letter to the CEO of Imperial Sugar on March 7, urging 
him to take the appropriate steps to comply with OSHA safety 
and health standards.
    Yet, on March 14, 2008, 5 weeks after the Port Wentworth 
explosion, the OSHA compliance officers sent to inspect the 
Gramercy facility discovered potential ignition sources along 
with massive quantities of combustible dust. Such complete 
disregard for the safety and health of their employees resulted 
in OSHA issuing the third-largest proposed penalty in the 
agency's history against Imperial Sugar.
    Specifically, the Port Wentworth investigation resulted in 
proposed penalties of more than $5 million, with citations 
alleging 61 egregious willful violations and 51 serious 
violations. As a result of the other inspection at Gramercy, 
OSHA issued an additional 47 egregious willful and 42 serious 
violations and the proposed penalty of approximately $3.7 
million. Combined, OSHA cited 218 citations of 60 different 
standards for a total proposed penalty against Imperial Sugar 
of more than $8.7 million.
    I know the subcommittee is very interested in the details 
of this case, but I would respectfully remind you that since 
Imperial Sugar has contested these citations, the matter is now 
in litigation. In addition, OSHA procedures call for a review 
of all willful fatality cases for potential referral to 
Department of Justice. As a result, I am not at liberty to 
discuss the underlying evidence of our investigation.
    OSHA already has effective standards that address 
combustible dust hazards, including standards covering general 
requirements for the prevention of accumulation of combustible 
dust, electrical safety in hazardous locations, ventilation, 
and hazard communication. The agency continues to inspect 
facilities with a high probability of combustible dust 
explosion through its National Emphasis Program, having 
conducted more than 300 inspections. OSHA will also have 
inspected all sugar refineries by the end of the calendar year.
    In addition, OSHA is addressing combustible dust hazards 
through education, outreach, and by proposing to amend existing 
standards to clarify employers' responsibilities concerning 
combustible dust. OSHA actions include:

    1. The distribution of our 2005 Safety and Health 
Information Bulletin entitled ``Combustible Dust in Industry: 
Preventing and Mitigating the Effects of Fire and Explosion'' 
to 30,000 workplaces;
    2. The release of a hazard alert to inform employers and 
employees how to identify and abate combustible dust;
    3. The release of a poster to visually communicate hazard 
control measures;
    4. The development of a dedicated and comprehensive Web 
page to educate stakeholders;
    5. The development of guidance on hazard communication 
requirements as well as addressing any potential deficiencies 
through NEP inspection;
    6. The modification of language in the housekeeping 
provision to clarify employer requirements to prevent the 
accumulation of combustible dust; and
    7. The continuation of advanced combustible dust training 
for compliance officers.

    Madam Chairwoman, Imperial Sugar is a tragic example of 
what happens when employers fail to uphold their obligations to 
protect their employees as required by the Occupational Safety 
and Health Act. The OSH Act places the responsibility for 
providing a safe and healthy workplace on employers. OSHA will 
always provide assistance to those employers who want to meet 
their legal and, I believe, their moral responsibilities.
    However, in extreme cases, such as Imperial Sugar, OSHA 
will use the appropriate penalties allowed by law when the 
evidence suggests that there is plain indifference or reckless 
disregard for the employees' safety.
    Thank you, Madam Chairman, for inviting me here today, and 
I would be happy to answer any questions that you have.
    [The prepared statement of Mr. Foulke follows:]
               Prepared Statement of Edwin G. Foulke, Jr.
    Madam Chairwoman, Ranking Member Isakson, and members of the 
committee, thank you for the opportunity to appear today to discuss the 
results of the Occupational Safety and Health Administration's (OSHA's) 
investigation of the Imperial Sugar explosion, OSHA's continued 
enforcement activities under our National Emphasis Program for 
combustible dust, and our ongoing efforts to protect the safety and 
health of the Nation's working men and women who are exposed to 
combustible dust hazards. The catastrophic accident at the Imperial 
Sugar refinery in Port Wentworth, GA, which occurred on February 7, and 
killed 13 and injured approximately 40 more employees, highlights the 
seriousness of the issue.
    All of us at OSHA continue to be deeply saddened by the tragic 
consequences of the Port Wentworth explosion. What makes this event 
particularly troublesome to us is our belief that these consequences 
could so easily have been minimized, if not prevented. Last week, OSHA 
officials met with the victims' families to inform them of the findings 
of our investigation, including the determination that Imperial Sugar's 
failure to comply with existing OSHA standards directly contributed to 
the explosion. Had Imperial Sugar complied with OSHA safety standards 
and taken reasonable steps to mitigate a well-known hazard in this 
industry, the tragedy could have been prevented.
    For a dust explosion to occur, five elements must come together. 
The first three are the ``fire triangle'' of fuel, heat, and oxygen. 
The fuel, in this case, is combustible dust, finely divided particles 
of a combustible substance that can burn rapidly--for example, sawdust 
created when wood is processed or, of particular concern here, sugar 
dust created through the production or transport of granulated or 
powdered sugar. If the dust particles are dispersed in sufficient 
quantity and concentration, ignition can cause rapid combustion known 
as a deflagration. If the event is confined by an enclosure such as a 
building, room, vessel, or process equipment, the resulting pressure 
rise may cause an explosion. These five factors (fuel, heat, oxygen, 
dispersion, and confinement) are known as the elements of the ``Dust 
Explosion Pentagon.'' If even one element of the pentagon is missing, 
an explosion will not occur.
    Due to poor housekeeping practices, an initial explosion may 
dislodge into the air the dust that is accumulated on the floors, 
beams, and other areas of a workplace. This dispersed dust, if ignited, 
may cause one or more secondary explosions. These secondary dust 
explosions can often be far more destructive than the primary explosion 
because of the larger and more diffuse dust clouds created by the 
successive explosions. In past accidents, many fatalities and serious 
injuries were caused by secondary explosions.
    Through the course of our investigation, we discovered large 
quantities of combustible dust throughout the Port Wentworth facility, 
which we determined was primarily the result of poor housekeeping 
practices. Our accident investigation concluded that a spark, most 
likely caused by a metal bucket striking or hitting the inside of a 
metal bucket elevator shaft, ignited some of this dust, causing the 
primary explosion. The initial explosion caused the accumulated dust to 
become airborne. This created a series of secondary explosions through 
the silos, packaging house, and other parts of the facility. The chain 
reaction explosions were catastrophic with 13 employees losing their 
lives.
    OSHA responded immediately. The agency's field office in Savannah, 
GA dispatched two safety and health compliance officers and opened its 
investigation within 2 hours. Over the course of the investigation, 
OSHA sent 18 personnel under the supervision of senior staff to the 
site. This included one attorney from the Department of Labor's 
Solicitor's Office and an expert in explosion investigations from the 
National Office. OSHA retained an outside expert on combustible dust to 
provide additional technical assistance.
    On February 9, the Bureau of Alcohol, Tobacco, Firearms and 
Explosives (ATF) assumed command of the accident site and a team of 
investigators from the Chemical Safety Board (CSB) arrived as well. 
OSHA coordinated its efforts with the ATF, the local fire marshal, and 
the CSB to ensure the investigation was conducted in a safe and 
efficient manner. OSHA helped to establish a clear understanding of 
roles, responsibilities, and expectations among the various local and 
national agencies by negotiating an agreement with all parties, which 
helped to ensure that evidence at the site was preserved for the 
investigation. The coordination also ensured that OSHA compliance 
officers were able to conduct a thorough inspection.
    OSHA's response and investigation of the Imperial Sugar refinery 
explosion was successful for two primary reasons. First, despite 
hazardous conditions caused by the fires and extreme heat that 
continued for days after the explosion, there were no injuries or 
fatalities during the emergency response and subsequent investigation. 
Second, the agency was able to gather evidence showing the existence of 
workplace hazards prior to the explosion, many of which were either 
involved in the incident, or posed risks of further explosions at the 
worksite. As a result of its inspection of Port Wentworth, OSHA issued 
citations alleging 69 willful and 51 serious violations at that 
facility.
    In the course of our investigation, we found that the management of 
Imperial Sugar was aware that there were hazards caused by combustible 
dust at its facilities, and knew that it had not been effectively 
managing dust accumulations for a number of years. Imperial Sugar 
demonstrated indifference to the serious problem by not implementing 
corrective measures to remove accumulations of sugar dust from the 
operating areas and not controlling potential ignition sources. 
Evidence gathered at the site also disclosed dust collection system 
inadequacies. Inadequate dust collection systems can contribute to the 
accumulation of dust and create or aggravate a combustible dust hazard.
    The fatalities and injuries at the Port Wentworth sugar refinery 
probably could have been prevented, had Imperial Sugar complied with 
existing OSHA standards on housekeeping and other OSHA requirements. 
This finding is consistent with the results of other combustible dust 
accident investigations, in which we have found that if employers had 
complied with applicable standards, they would have mitigated these 
hazards and prevented the explosions. Imperial Sugar was aware that its 
facilities had combustible dust hazards. It failed, however, to take 
the necessary steps to abate these hazards. Because Imperial did not 
control and eliminate the combustible dust hazards, the conditions 
existed to support the catastrophic explosion that occurred on February 
7. This evidence, plus the numerous violations documented during 
inspections of the Port Wentworth and Gramercy facilities led me to 
authorize the maximum penalties permitted by law through issuance of 
instance-by-instance citations. OSHA issues an instance-by-instance 
citation only after a thorough and careful analysis of the evidence 
shows that an employer's willful violations of OSHA requirements were 
committed in an especially egregious manner.
    Imperial Sugar's conduct clearly met those criteria, and the Port 
Wentworth investigation resulted in proposed penalties of more than $5 
million in citations alleging 69 willful citations, 61 of which were 
instance-by-instance violations of OSHA standards directly related to 
reducing the risk of combustible dust explosions; that is, the failure 
to clean up combustible dust and the use of electrical equipment and 
gasoline and other fuel powered trucks that were not safe to use in 
combustible dust areas. OSHA also issued citations alleging 51 serious 
violations.
    On March 7, as the investigation into the accident unfolded, I sent 
a letter to Mr. John Sheptor, CEO of Imperial Sugar, reminding him of 
the seriousness of the combustible dust hazard and urging him to ensure 
that Imperial Sugar take appropriate corrective actions to address any 
possible combustible dust hazards at its other refinery in Gramercy, 
LA. On March 14, approximately 5 weeks after the Port Wentworth 
explosion and 1 week after I sent that letter, OSHA initiated a 
separate inspection at the Gramercy refinery. On the first day of the 
on-site inspection, OSHA's compliance officers discovered massive 
quantities of combustible dust in the powder mill that also contained 
potential ignition sources. When Imperial Sugar did not take immediate 
action to remedy this situation, OSHA posted an imminent danger notice 
that resulted in a temporary shut-down of the powder mill room.
    As a result of the Gramercy inspection, OSHA issued citations 
alleging 49 willful (47 instance-by-instance) and 42 serious 
violations, and proposed penalties of more than $3.7 million. The cases 
against both Imperial Sugar refinery sites resulted in a combined total 
proposed penalty of more than $8.7 million, the third highest proposed 
penalty in the agency's history. The violations cited at Port Wentworth 
and Gramercy include violations of more than 60 OSHA standards. These 
include standards requiring machine guarding, fall protection, adequate 
exit routes, safe man lifts, and protection from exposure to lead 
paint, reflecting the breadth of the safety and health problems at the 
Port Wentworth sugar refinery.
    In October 2007, approximately 5 months before the Imperial Sugar 
accident, OSHA initiated a comprehensive National Emphasis Program 
(NEP) on combustible dust. This NEP includes a strong enforcement 
component focused on existing OSHA standards and statutory 
requirements, as well as education and outreach components.
    The NEP is based on OSHA's expertise and experience in identifying 
and mitigating combustible dust hazards, as well as on a regional 
Special Emphasis Program on combustible dust implemented in 2004. It 
focuses on workplaces where combustible dust hazards are likely to be 
found and lists the different types of materials that can generate 
combustible dust. Industries covered by the NEP include agriculture, 
food processing (including sugar), chemicals, textiles, forest 
products, metal processing, tire and rubber manufacturing, paper 
products, pharmaceuticals, recycling operations and coal handling and 
processing facilities. These industries deal with a wide range of 
combustible dusts with differing properties, including metal dusts such 
as aluminum and magnesium, wood dust, coal and carbon dust, plastic 
dusts, biosolids, certain textile materials and organic dusts such as 
paper, soap, dried blood and sugar.
    The NEP focuses on enforcement of OSHA standards that address 
combustible dust. In particular, our inspectors look for violations of 
existing standards on dust accumulations and sources of ignition, which 
are basic ingredients of a combustible dust explosion. The existing 
standards being targeted by the NEP include:

    <bullet> 1910.22 Housekeeping
    <bullet> 1910.307 Electrical
    <bullet> 1910.94 Ventilation
    <bullet> 1910.119 Process Safety Management
    <bullet> 1910.176 Housekeeping in storage areas
    <bullet> 1910-156-157 Fire Protection
    <bullet> 1910.272 Grain Handling
    <bullet> 1910.269 Housekeeping at Coal-Handling Operations
    <bullet> 1910.132 Personal Protective Equipment (PPE)
    <bullet> 1910.178 Powered Industrial Trucks
    <bullet> 1910.252 Welding, Cutting, and Brazing
    <bullet> 1910.145 Warning Signs
    <bullet> 1910.1200 Hazard Communication
    <bullet> 1910.33-37 Means of Egress
    <bullet> 1910.263 Bakery Equipment
    <bullet> 1910. 265 Sawmills
    <bullet> 1928.21 Hazard Communication for Agriculture

    Among the most critical existing standards to reduce the risk of 
catastrophic combustible dust explosions are OSHA's Housekeeping (29 
CFR 1910.22) and Electrical (29 CFR 1910.307) standards. Housekeeping 
is vital because without the accumulation of significant amounts of 
combustible dust, catastrophic secondary explosions will not occur. 
Compliance with the electrical standards will ensure that electrical 
ignition sources are not present in environments where combustible dust 
may become airborne. Simply stated, if you eliminate the accumulation 
of dust as the fuel source, and control ignition sources, then you 
vastly reduce the combustible dust hazard.
    In March, OSHA expanded the Combustible Dust NEP to increase the 
number of planned inspections. As of early July, Federal OSHA and its 
State plan partners have opened 326 inspections under the NEP. 
Additionally, based on what we found at the Imperial Sugar facility, 
OSHA has determined that all sugar refineries (beet and sugarcane) in 
the Federal jurisdiction will be inspected under the Combustible Dust 
NEP. This requirement was outlined in a memorandum sent on June 6, 2008 
to all Regional Administrators and State Designees. State Plan Program 
participation was highly recommended as well.
    While the NEP enforcement activities help ensure compliance with 
OSHA's requirements at targeted sites with the greatest risk of 
exposure, the education and outreach efforts are also important so that 
even more employers and employees are aware of the hazards and how to 
abate them effectively. OSHA's Regional and Area offices are conducting 
outreach sessions to educate stakeholders on combustible dust hazards. 
OSHA has also reached out to the fire safety profession, as well as to 
our State plan and State consultation partners, and encouraged them to 
be proactive in their efforts related to combustible dust.
    In 2005, OSHA issued a Safety and Health Information Bulletin 
(SHIB) titled Combustible Dust in Industry: Preventing and Mitigating 
the Effects of Fire and Explosions. This comprehensive guidance 
highlights the hazards associated with combustible dusts; the work 
practices and engineering controls that reduce the potential for a dust 
explosion and that reduce the danger to employees if such an explosion 
should occur; and the training needed to protect employees from these 
hazards. Following the tragedy at Port Wentworth, OSHA proactively 
mailed this SHIB to 30,000 workplaces at high risk for combustible dust 
hazards.
    OSHA also disseminates other compliance assistance materials 
related to combustible dusts, including three different eTools that are 
available on the agency's Web site (www.osha.gov). These free eTools 
are ``stand-alone,'' interactive, Web-based training tools on various 
occupational safety and health topics. They are highly illustrated and 
utilize graphical menus. OSHA has eTools on woodworking, sawmills and 
shipbuilding, all of which have components that address combustible 
dust hazards. OSHA has prepared an 80-page publication, also available 
on the Web site, entitled Guide for Protecting Workers from Woodworking 
Hazards that has a section that also addresses dust hazards. Also, in 
1998, OSHA released a Hazard Information Bulletin dealing with dust 
explosion hazards in the textile industry.
    OSHA is providing other assistance to employers and employees to 
protect against combustible dust hazards. Specifically, OSHA developed 
a Web page dedicated to combustible dust hazards. The agency also 
produced a safety alert on combustible dust hazards as well as created 
a poster addressing how employers can abate combustible dust hazards.
    OSHA is committed to training its own staff on the important issue 
of combustible dust. During the last 3 years, OSHA has placed a greater 
emphasis on training its compliance officers on combustible dust 
hazards than at any other time in the agency's history. For example, 
more than 2,400 participants have completed OSHA Training Institute 
(OTI) courses that included training on combustible dust. Most 
recently, in December 2007, OTI developed a comprehensive 3\1/2\ day 
course on Combustible Dust Hazards and Controls. Since the inception of 
this course, more than 100 Federal and State OSHA personnel have 
successfully completed this training and more classes are scheduled. 
This course will continue to be offered in future years. OTI also 
conducted two refresher seminars on combustible dust for nearly 1,400 
Federal and State Plan personnel across the Nation. Course evaluation 
survey results revealed that the training sessions were successful with 
only 4 percent of the respondents providing negative feedback on this 
course. And, since 2000 almost 350 individuals have completed OTI's 
Process Safety Management courses, which also address combustible dust 
issues.
    OSHA is taking, and will continue to take, strong action to address 
combustible dust hazards. The agency's focused and effective 
enforcement of applicable regulatory and statutory requirements 
combined with education and outreach to employers and employees is 
helping to protect the safety and health of working men and women who 
may be exposed to combustible dust hazards.
    OSHA will be taking other steps as well. For example, we believe it 
will be useful to clarify how the OSHA Hazard Communication standard 
applies to combustible dust and the agency has begun work on 
appropriate guidance. In addition, OSHA is preparing to update its 
General Industry Housekeeping provision, 1910.22. OSHA intends to amend 
the Housekeeping requirement to state more explicitly what has always 
been true: that the standard applies to accumulations of dust that 
contribute to an explosion hazard. This clarification of language in 
the Housekeeping provision will eliminate any doubt that employers are 
obligated to prevent combustible dust from accumulating in their 
workplaces. The agency will consider other options, including the 
necessity of more comprehensive rulemaking, upon completion of the NEP 
inspections and evaluation of the data collected.
    Make no mistake, however, that the tragedy at Port Wentworth was 
the result of willful violations of existing standards and a blatant 
disregard for safety, and would not have been prevented by the 
existence of another standard.
    In the nearly 40 years of OSHA's existence, the agency has found 
that most employers make a good faith effort to comply with our safety 
and health standards. Most employers take their responsibilities under 
the OSH Act--which clearly places primary responsibility for workplace 
health and safety on employers--seriously. Imperial Sugar was a clear 
exception to this. The management of the company was well aware of the 
hazard of combustible dust, yet they did not take the necessary steps 
to abate the hazard and protect their employees. When employers take 
their responsibility to comply with OSHA standards seriously, they 
ensure that their workers are protected from hazards in the workplace. 
However, when an employer does not follow the basic requirements of the 
OSH Act or existing OSHA safety and health standards, the results can 
be tragic. I call on all employers--especially those who know their 
workplaces could produce combustible dust--to take the necessary steps 
to ensure that the tragedy at Imperial Sugar not be repeated.
    Thank you Madam Chairwoman. I would be happy to answer any 
questions.

    Senator Murray. Thank you very much.
    Mr. Bresland.

 STATEMENT OF JOHN S. BRESLAND, CHAIRMAN, CEO OF U.S. CHEMICAL 
     SAFETY AND HAZARD INVESTIGATION BOARD, WASHINGTON, DC

    Mr. Bresland. Thank you, Chairman Murray, Senator Isakson, 
Senator Chambliss, and Senator Brown. Thank you for inviting me 
to testify about the CSB's investigation of the Imperial Sugar 
explosion.
    I have visited the Imperial Sugar refinery and witnessed 
firsthand the devastation there. The destruction was the most 
severe of any chemical accident I have seen in my 6 years with 
the Chemical Safety Board. Our hearts go out to the victims and 
to their families. This is a photograph of the refinery taken 
after the explosion.
    Madam Chairwoman, this accident was preventable. 
Combustible dust is an insidious workplace hazard when it 
accumulates on surfaces, especially elevated surfaces. A wide 
range of common combustible materials can explode in finely 
powdered form, including wood, coal, flour, sugar, metals, 
plastics, and many chemicals and pharmaceuticals.
    At Imperial Sugar, a catastrophic explosion resulted from 
massive accumulations of combustible dust on surfaces 
throughout the packaging plant. These are some photographs 
taken of the area in the packaging plant. My written testimony 
details what we have learned to date about this accident, but 
let me summarize a few key points.
    The photographs on the easel were taken in September and 
October 2006 at different locations inside the sugar packaging 
building at Imperial's Savannah refinery. They confirm the 
existence of substantial dust accumulations on various ducts, 
motors, switch boxes, and processing equipment. These 
accumulations, ranging in depth from an inch or two up to 
several feet, far exceed the NFPA recommended limit of \1/32\ 
of an inch.
    Witnesses told the CSB that large accumulations of dust 
were present until the day of the explosion. According to an 
employee near the powder, milled sugar accumulated on the floor 
to a mid-leg height. We were told to that airborne sugar in 
this room made it difficult for workers to see each other. We 
obtained documents indicating that certain parts of Imperial's 
milling process were releasing tens of thousands of pounds of 
sugar per month into the work area.
    Based on our evidence, Imperial did not have a written dust 
control program or a program for using safe dust removal 
methods, and the company lacked a formal training program to 
educate its workers about combustible dust hazards. I believe 
these findings are further evidence of the need for a 
comprehensive regulatory standard for combustible dust.
    Since the CSB was established in 1998, three of the four 
deadliest accidents that we have investigated have been 
combustible dust explosions. In November 2006, as you 
mentioned, the CSB completed a thorough study on combustible 
dust. The board called for a comprehensive OSHA regulatory 
standard to prevent dust explosions in general industry, 
improved training of OSHA inspectors to recognize dust hazards, 
and improvements to material safety data sheets to better 
communicate dust hazards to workers.
    The CSB based its recommendations in part on the success of 
OSHA's 1987 grain dust standard, which has cut deaths and 
injuries from grain dust explosions and fires by 60 percent. 
This standard requires worker training, rigorous housekeeping, 
and limits grain dust accumulations to \1/8\ of an inch.
    The NFPA has produced highly respected consensus standards 
about how best to prevent and mitigate combustible dust 
explosions. OSHA has recognized the importance of NFPA 
standards, and it references them numerous times in the 
National Emphasis Program for dust, a program which the CSB 
supports.
    However, without a comprehensive standard for combustible 
dust, it is difficult for businesses to know which specific 
NFPA provisions or other requirements they may be subjected to. 
A company that experiences a major dust explosion can expect to 
receive a fine from OSHA, as Imperial has. But absent a 
standard, thousands of other companies that may be at risk do 
not benefit from clear instructions about what kinds of dust 
are the most hazardous and what training and controls should be 
put in place.
    After witnessing the terrible human and physical toll from 
the Imperial explosion, I believe the urgency of a new 
combustible dust standard is greater than ever. A new standard, 
combined with enforcement and education, will save workers' 
lives.
    Thank you for the opportunity to testify today.
    [The prepared statement of Mr. Bresland follows:]
                 Prepared Statement of John S. Bresland
    Thank you, Chairman Murray, Senator Isakson, and distinguished 
members of the committee. I am John S. Bresland, Chairman of the U.S. 
Chemical Safety Board (CSB).
    The CSB is an independent Federal agency that investigates and 
determines the causes of major chemical accidents, conducts studies, 
and develops safety recommendations and outreach materials to prevent 
future accidents.
    My testimony today is on my own behalf, and not necessarily for the 
Board as a whole.
    I commend you for convening today's hearing on the issue of 
combustible dust hazards and the explosion at Imperial Sugar on 
February 7, 2008.
    Like Senator Isakson, Senator Chambliss, and Secretary Foulke, I 
traveled to Port Wentworth and witnessed first-hand the tremendous 
devastation at the Imperial Sugar refinery (Figure 1).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

              dust explosions affect many u.s. industries
    Combustible dust can be a catastrophic explosion hazard at American 
workplaces. Since the CSB was established in 1998, three out of the 
four deadliest accidents we have investigated were determined to be 
combustible dust explosions.
    Madam Chairman, such accidents--and the tremendous suffering they 
cause--do not need to happen.
    In addition to the 13 workers who died from the explosion and fire 
at Imperial, six workers were killed in a polyethylene dust explosion 
at West Pharmaceutical Services in Kinston, NC, and seven were killed 
in a resin dust explosion at CTA Acoustics in Corbin, KY. Both the 
latter facilities--representing two major employers in two small 
American towns--were devastated and had to be demolished.
    The CSB determined that both the West and CTA explosions could have 
been prevented if the companies had followed National Fire Protection 
Association (NFPA) recommendations for controlling dust hazards. 
However, neither company adequately implemented these standards. 
Although State OSHA personnel had inspected both plants, the dust 
hazards had never been identified or cited during those inspections.
    In November 2006, the CSB completed a comprehensive study on the 
issue of combustible dust. We found that combustible dust explosions 
have been a recurrent cause of disasters at U.S. industrial facilities. 
Our study identified 281 dust fires and explosions that occurred at 
U.S. businesses between 1980 and 2005--not including primary grain 
handling or underground coal dust explosions. These fires and 
explosions resulted in 119 deaths and 718 injuries.
    Dust explosions afflict many industries, including food products, 
plastics, automotive parts, drugs, chemicals, and electric utilities. A 
wide range of common combustible materials can explode in finely 
powdered form, including coal, wood, flour, sugar, and many chemicals, 
plastics, and metals. Many of these basic materials and chemicals are 
essential to commerce, and they can be handled safely with appropriate 
precautions. Sophisticated chemical and pharmaceutical companies have 
handled similar combustible powders safely for decades.
    Even a material that is difficult to ignite in bulk form--like a 
block of solid wood or metal--can become a powerful explosive fuel when 
ground into a fine powder, dispersed in air, and exposed to an ignition 
source. Exactly such conditions can occur in factories where fine 
combustible dust has accumulated on horizontal surfaces--particularly 
on elevated surfaces that are difficult to reach and not frequently 
cleaned or even thought about.
    Some minor event, such as a small fire, an unsafe cleaning 
operation, or a dust explosion inside equipment (called a primary dust 
explosion) may be all it takes to suddenly disperse the accumulated 
dust. This creates a dense, explosive atmosphere inside the confines of 
a plant, and if an ignition source is present, the stage is set for 
disaster. The suddenly dislodged dust can fuel a powerful ``secondary'' 
dust explosion that cascades rapidly through even a large factory. It 
is these secondary dust explosions that are generally responsible for 
multi-fatality accidents and huge property losses.
               82 new dust explosions since january 2006
    When my CSB colleague William Wright appeared before the House 
Education and Labor Committee in March 2008, he testified that in the 2 
years since the CSB compiled the data for the combustible dust study, 
media reports indicated the occurrence of approximately 67 additional 
dust fires and explosions.
    Today, just 4 months later, that number has already grown to a 
total of 82. Dust explosions and fires that are significant enough to 
be reported in the media are now occurring at the rate of almost one a 
week at American businesses.
    The CSB investigation found that good engineering and safety 
practices to prevent dust explosions have existed for decades. Current 
good practices are contained in National Fire Protection Association 
(NFPA) standards, such as NFPA 654, NFPA 484, NFPA 61, and NFPA 499.
    Some State and local governments have adopted some or all of these 
NFPA standards as part of their fire codes, but many have not. Our 
study also found that enforcement of these codes at industrial 
facilities is, at best, uneven.
    Code enforcement agencies heavily emphasize the inspection of high 
occupancy establishments such as hotels, schools, and nursing homes--
not industrial facilities. These agencies often lack the training or 
staffing to inspect industrial sites or enforce technical standards for 
combustible dust. Because hundreds of different State and local 
jurisdictions are involved in code enforcement across the country, 
there is no straightforward way to improve this system.
csb recommended a new, comprehensive osha standard for combustible dust
    In November 2006 the CSB study on combustible dust made five 
specific safety recommendations to OSHA. The Board called for a 
comprehensive regulatory standard for dust explosions in general 
industry, improved training of OSHA inspectors to recognize dust 
hazards, and better communication of dust hazards to workers using 
Material Safety Data Sheets (MSDSs). The CSB also asked OSHA to alert 
the United Nations Economic Commission for Europe of the need to amend 
the Globally Harmonized System to address combustible dust hazards.
    The CSB recommended that, while a new standard was being developed, 
OSHA establish a national emphasis program on combustible dust hazards 
to better enforce existing standards--which OSHA began in 2007 and is 
continuing to implement.
    A year and 3 months after the completion of the CSB dust study, the 
Imperial disaster occurred, and it caused even more death and 
destruction than any of the previous dust explosions we had studied. In 
fact, the 13 fatalities from the Imperial Sugar explosion place this 
accident among the very worst industrial disasters of any kind in the 
United States over the past two decades.
               dust explosions cause severe burn injuries
    In addition to the deaths and property damage, combustible dust 
explosions frequently cause massive burn injuries that forever scar 
even those who survive. The West and CTA dust explosions injured a 
total of 75 people, including some who were left severely disabled and 
disfigured.
    At Imperial Sugar, there were 101 employees and contractors present 
on the evening of February 7, 2008. The explosion and fire left eight 
dead at the scene, and burned another five so severely that they later 
died in the hospital. In addition, a total of 39 people were injured, 
including 23 who were burned. Of these 23 burn victims, 15 had serious 
and life-threatening injuries requiring hospitalization at the Joseph 
M. Still Burn Center in Augusta, more than 100 miles from Port 
Wentworth. Today, more than 5 months later, three burn victims remain 
hospitalized in the Still Burn Center. As requested by the committee, 
additional information on the number and severity of the injuries is 
included in Table 1.

  Table 1. Information on Fatal/Nonfatal Injuries From the Explosion and Fire at the Imperial Sugar Facility in
                                                 Port Wentworth
----------------------------------------------------------------------------------------------------------------
                                                       Location at Time
             Victim                    Employer           of Incident      Status/Condition    Nature of Injury
----------------------------------------------------------------------------------------------------------------
1...............................  Imperial Sugar....  Unknown...........  Burn center--       Thermal burns (45
                                                                           critical.           percent)
2...............................  Stokes Contracting  Unknown...........  Burn center--       Thermal burns (85
                                                                           critical.           percent)
3...............................  Imperial Sugar....  2nd floor south     Burn center--good.  Thermal burns (45
                                                       packaging.                              percent)
4...............................  Imperial Sugar....  1st floor south     Deceased at burn    Thermal burns (60
                                                       packaging.          center.             percent)
5...............................  Imperial Sugar....  1st floor south     Deceased at burn    Thermal burns (90
                                                       packaging.          center.             percent)
6...............................  Imperial Sugar....  2nd floor south     Deceased at burn    Thermal burns (85
                                                       packaging.          center.             percent)
7...............................  Imperial Sugar....  3rd floor south     Deceased at burn    Thermal burns (20
                                                       packaging.          center.             percent)
8...............................  Kerby Contracting.  Palletizing.......  Deceased at burn    Thermal burns (85
                                                                           center.             percent)
9...............................  Imperial Sugar....  2nd floor Bosch...  Deceased at         Thermal burns
                                                                           refinery.
10..............................  Imperial Sugar....  2nd floor Bosch...  Deceased at         Thermal burns
                                                                           refinery.
11..............................  Imperial Sugar....  2nd floor Bosch...  Deceased at         Thermal burns
                                                                           refinery.
12..............................  Imperial Sugar....  2nd floor break     Deceased at         Thermal burns
                                                       room.               refinery.
13..............................  Imperial Sugar....  2nd floor break     Deceased at         Thermal burns
                                                       room.               refinery.
14..............................  Imperial Sugar....  3rd floor south     Deceased at         Thermal burns
                                                       packaging.          refinery.
15..............................  Imperial Sugar....  4th floor south     Deceased at         Thermal burns
                                                       packaging.          refinery.
16..............................  Stokes Contracting  4th floor south     Deceased at         Thermal burns
                                                       packaging.          refinery.
17..............................  Imperial Sugar....  1st floor south     Released from burn  Thermal burns (40
                                                       packaging.          center.             percent)
18..............................  Imperial Sugar....  1st floor south     Released from burn  Thermal burns (20
                                                       packaging.          center.             percent)
19..............................  Imperial Sugar....  2nd floor south     Released from burn  Thermal burns (25
                                                       packaging.          center.             percent)
20..............................  Imperial Sugar....  2nd floor south     Released from burn  Thermal burns (51
                                                       packaging.          center.             percent)
21..............................  Imperial Sugar....  2nd floor south     Released from burn  Thermal burns (24
                                                       packaging.          center.             percent)
22..............................  Imperial Sugar....  3rd floor south     Released from burn  Thermal burns
                                                       packaging.          center.             (19.5 percent)
23..............................  Imperial Sugar....  3rd floor south     Released from burn  Thermal burns (24
                                                       packaging.          center.             percent)
24..............................  Imperial Sugar....  3rd floor south     Released from burn  Thermal burns (20
                                                       packaging.          center.             percent)
25..............................  Imperial Sugar....  3rd floor south     Released from burn  Thermal burns (12
                                                       packaging.          center.             percent)
26..............................  Imperial Sugar....  3rd floor south     Released from burn  Thermal burns (18
                                                       packaging.          center.             percent)
27..............................  Imperial Sugar....  3rd floor south     Released from burn  Thermal burns (12
                                                       packaging.          center.             percent)
28..............................  Imperial Sugar....  Electrical and      Released from burn  Thermal burns (1
                                                       instrumentation     center.             percent),
                                                       shop.                                   Fracture,
                                                                                               Laceration
29..............................  Imperial Sugar....  2nd floor break     Treated/released..  Fracture
                                                       room.
30..............................  Stokes Contracting  2nd floor lab.....  Treated/released..  Laceration,
                                                                                               Contusions
31..............................  Imperial Sugar....  2nd floor lab.....  Treated/released..  Contusions, Smoke
                                                                                               inhalation
32..............................  Imperial Sugar....  2nd floor lab.....  Treated/released..  Contusions
33..............................  Imperial Sugar....  2nd floor south     Treated/released..  Thermal burns,
                                                       packaging.                              Contusions, Smoke
                                                                                               inhalation
34..............................  Imperial Sugar....  3rd floor south     Treated/released..  Contusions, Smoke
                                                       packaging.                              inhalation
35..............................  Imperial Sugar....  4th floor south     Treated/released..  Thermal burns
                                                       packaging.
36..............................  Imperial Sugar....  Bulk sugar........  Treated/released..  Contusions
37..............................  Imperial Sugar....  Electrical and      Treated/released..  Contusions
                                                       instrumentation
                                                       shop.
38..............................  Kerby Contracting.  Handstack--manual   Treated/released..  Thermal burns,
                                                       pallet loading.                         Hearing loss
39..............................  Kerby Contracting.  Handstack--manual   Treated/released..  Contusions,
                                                       pallet loading.                         Hearing loss
40..............................  Imperial Sugar....  Liquid sugar......  Treated/released..  Contusions
41..............................  Imperial Sugar....  Palletizing.......  Treated/released..  Contusions
42..............................  Imperial Sugar....  Palletizing.......  Treated/released..  Thermal burns
43..............................  Imperial Sugar....  Palletizing.......  Treated/released..  Hearing loss
44..............................  Imperial Sugar....  Palletizing.......  Treated/released..  Contusions
45..............................  Imperial Sugar....  Palletizing.......  Treated/released..  Thermal burns
46..............................  Imperial Sugar....  Raw sugar.........  Treated/released..  Contusions
47..............................  Imperial Sugar....  Unknown...........  Treated/released..  Contusions
48..............................  Imperial Sugar....  White sugar stand.  Treated/released..  Thermal burns,
                                                                                               Contusions
49..............................  Imperial Sugar....  White sugar stand.  Treated/released..  Contusions
----------------------------------------------------------------------------------------------------------------

    csb's preliminary findings about the explosion at imperial sugar
    The catastrophic explosion at Imperial Sugar in February resulted 
from massive accumulations of combustible sugar dust throughout the 
packaging plant at the refinery.
    The CSB investigation to determine the causes of the accident at 
Imperial Sugar is ongoing. Our investigative team arrived in Savannah 
on February 8 and conducted work at the site almost continuously 
through June, and some field work still remains to be completed.
    We have conducted detailed interviews with about 130 witnesses, 
including operators, managers, engineering staff, maintenance and 
cleaning contractors, and top executives. We have collected thousands 
of photographs and documents.
    Let me briefly summarize our conclusions to this point, emphasizing 
that all information is preliminary and we continue to investigate.
    The Imperial Sugar facility can trace its origins back to 1916. 
This was a large plant with hundreds of employees. Most of the 
employees we interviewed had worked at the site for the past 10 to 30 
years. On the day of the explosion, it was the second largest sugar 
refinery in the United States.
    Raw sugar arrived by ship and was stored in a warehouse. In the 
refinery section of the facility, the raw sugar was dissolved in water 
and purified by filtration and crystallization. The purified sugar 
crystals were then stored in three huge silos, which were surrounded by 
a large, four-story packaging plant. Within this plant, which was 
several hundred feet long, workers operated machinery that not only 
bagged and boxed sugar but also pulverized it in hammer mills to make 
powdered sugar.
    Like most catastrophic dust explosions, what happened at Imperial 
was a multi-stage event. At 7:15 p.m. on the evening of February 7, 
there was a primary explosion in the packaging plant, followed 3 to 5 
seconds later by a much larger secondary dust explosion. The explosion 
blew through the roof of the building and rose high into sky; the 
moment of the blast was captured in images from a surveillance camera 
almost 2 miles from the refinery (Figure 2).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    There were about a hundred employees at the facility that evening. 
As the secondary explosion occurred, witnesses inside the packaging 
plant saw a fireball rolling overhead. Some were engulfed in fire and 
flaming debris; others were burned by a sudden burst of scorching hot 
air.
    Thereafter, a large fire ensued and grew, fueled by sugar and 
combustible packaging materials. At least one victim became trapped and 
could not be rescued. He died in the advancing fire. Although the 
building had a sprinkler system, its water piping was immediately 
disabled by the explosion.
    Had the accident occurred a few hours earlier during the day shift, 
about 300 people would have been present at the plant, and the number 
of deaths and injuries could have been far higher.
    The nature of the primary explosion has not been conclusively 
determined. We do know that an explosion likely occurred underneath the 
sugar silos. Beneath the silos, there was a long, steel-enclosed sugar 
conveyor system, which carried granulated sugar from the silos to the 
packaging plant. This sugar could include fine combustible particles 
generated in processing and handling.
    The explosion under the silos was strong enough to blow some of the 
steel enclosure panels of the conveyor system into the packaging 
building. To date, the immediate area of this explosion has remained 
largely inaccessible to investigators, and other possible primary 
explosions have not been ruled out.
       accumulated sugar in packaging plant fueled the explosion
    Inside the four-story packaging building, the secondary dust 
explosion was fueled by widespread accumulations of combustible sugar 
dust. It was this secondary dust explosion that caused the major loss 
of life at Imperial. Secondary dust explosions like this do not occur 
if dust has been prevented from accumulating on surfaces.
    National Fire Protection Association guidance documents, such as 
NFPA 654, indicate that accumulations of combustible dust of \1/32\ of 
an inch--covering just 5 percent) of the available surface area--should 
be considered hazardous due to the possibility of a secondary dust 
explosion.
    Multiple witnesses told CSB investigators of large accumulations of 
sugar at many locations throughout the packaging plant. Accumulations 
of dust were longstanding and were present until the day of the 
explosion, according to these witnesses. Near the powder mills, 
powdered sugar accumulated on the floor to a ``mid-leg'' height, 
according to a worker there. Airborne sugar in this room made it 
difficult for workers to see each other, we were told. On elevated 
surfaces, witnesses described seeing thick build-ups of sugar of around 
an inch.
    pre-explosion photographs from 2006 show conditions inside plant
    The CSB obtained pre-explosion photographs taken at the Imperial 
facility by a third-party in September and October 2006. These 
photographs, which show different locations inside the packaging 
building, confirm the existence of substantial dust accumulations on 
various walls, pipes, ducts, motors, switch boxes, and pieces of 
processing equipment. The pictures show an inch or even more of 
accumulated sugar on elevated surfaces. On several production floors, 
the photographs show a foot or more of accumulated sugar (Figure 3).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    A July 2007 Imperial Sugar incident investigation report of a 
worker's skin injury stated that ``Powder sugar [sic] was piled up on 
the floor below the mill approximately 18 inches high. When he stepped 
into the sugar it came up to around his knee.'' This internal report 
included photographs showing the accumulations of sugar, and stated 
that ``The sugar on the floor in the Powder Mill Room is and has been a 
constant problem.'' Internal Imperial e-mail correspondence from 
December 2007 reported: ``We clean up around 15,000 lbs weekly out of 
the mill room.'' And an internal Spill Control Team report dated 
December 5, 2007, describes conditions in the Powder Mill Room as 
follows: ``The 2 lb elevator in back of the room blows powder 
everywhere . . . Approximate losses in November = 34,000 lbs.''
    After being shown the 2006 photographs, Imperial Sugar 
representatives asserted that the facility was clean immediately before 
the February 2008 explosion. However, the levels of sugar accumulation 
shown in the 2006 photographs are consistent with the July 2007 
incident report as well as levels Imperial operators and contractors 
told the CSB existed at the time of the 2008 dust explosion. In 
addition, we are not aware of any significant change in Imperial's 
housekeeping or maintenance practices which would account for a 
dramatic decrease in the amount of sugar accumulating on surfaces due 
to ongoing releases from operating equipment.
        imperial lacked formal dust training, cleaning programs
    Imperial Sugar reported that its personnel conducted a weekly 
cleaning of the plant to collect and reprocess spilled sugar. In part, 
this cleaning was necessary to prevent employees from slipping and 
injuring themselves on accumulated sugar. However, Imperial Sugar did 
not have a written cleaning procedure or checklist and therefore could 
not assure the thoroughness of this program. Various witnesses told the 
CSB that the cleaning focused on accessible working surfaces and not on 
elevated surfaces. Interviewees also said the cleaning sometimes did 
not occur due to production needs. In addition, machines were commonly 
blown off with air, which contributed to the spread of sugar onto other 
horizontal and elevated surfaces.
    Accumulations of dust on elevated surfaces are particularly 
hazardous, since they usually consist of the finest, most explosive 
material, are difficult to clean, and are prone to be dislodged into 
the atmosphere in the event of a fire or a primary explosion.
    We asked Imperial Sugar for all policies and procedures related to 
dust control, records of weekly cleaning activities, and documentation 
of training on dust hazards, but the company was unable to produce any 
documents that were responsive to these requests. Based on the 
available evidence, Imperial did not have a written dust control 
program, a specific target level for the maximum dust accumulation, or 
a program for using safe dust cleaning methods, and the company did not 
impose combustible dust safety requirements on cleaning contractors. 
And the company produced no documentary evidence of any formal training 
program for educating its workers about combustible dust hazards.
    Much of the electrical equipment in the sugar packaging plant was 
not dust-tight and therefore was not appropriate for use in plant areas 
where combustible dust could form an explosive atmosphere. Only a small 
portion of the building--the powder mill motor control room--was 
enclosed to prevent dust intrusion.
    Finally, the packaging building on the south side of the silos was 
more than a half-century old, and the equipment did not incorporate 
effective design features to prevent the spread and accumulation of 
sugar dust. The building walls were of masonry construction and lacked 
provisions to safely vent the forces of an explosion. The 2008 dust 
explosion caused massive structural damage to the packaging building, 
which increased the human toll from the accident, as concrete floors 
heaved, brick walls blew out or collapsed, and windows flew hundreds of 
feet.
       operators not informed of the risks from combustible dust
    Among operations-level personnel, we found no significant awareness 
or training about the hazards of catastrophic dust explosions. In 
interviews, some management-level personnel described varying but 
limited levels of familiarity with dust explosion hazards. Although we 
have found no indication that this particular facility had previously 
experienced a major explosion, 10 days prior to the February 7 disaster 
there was a small explosion inside a dust collector on the roof of the 
packaging building.
    Employees reported another near-miss incident when a small fire 
erupted in the packaging building a few weeks before the February 
explosion. Accumulated sugar near a packaging machine was apparently 
ignited by an overheated motor or conveyor bearing.
    nfpa recommendations likely would have prevented major explosion
    Madam Chairman, the standards developed by the National Fire 
Protection Association (NFPA) represent the consensus of industry's own 
experts about how best to prevent and mitigate combustible dust 
explosions. However, Imperial Sugar did not have a program to follow 
relevant NFPA recommendations for preventing dust explosions--including 
NFPA 61, NFPA 654, and NFPA 499.
    The principal standard, NFPA 654, was first developed between 1943 
and 1945, and has since been updated and improved a number of times. 
NFPA 654 describes a number of important safety practices and 
principles, which if diligently followed, would have made the 
catastrophic dust explosion at Imperial unlikely to occur. For example, 
NFPA 654 recommends that dust-producing activities such as powder 
milling be isolated from other operations--and that barriers be 
installed to prevent the migration and accumulation of dust.
    Equipment should be designed and maintained to minimize the release 
of dust. New construction should be designed to facilitate cleaning, by 
minimizing horizontal surfaces where dust can collect and, wherever 
feasible, sealing areas that are inaccessible to cleaning. The standard 
also calls for regular cleaning--including overhead ducts, pipes, and 
beams--using safe cleaning methods such as vacuuming with appropriate 
equipment. Housekeeping should be comprehensive to control hazardous 
dust accumulations wherever they might occur, not just on walking and 
working surfaces.
    The NFPA suggests immediate cleaning and removal of any dust 
accumulation over \1/32\ of an inch, about the thickness of a 
paperclip. More than \1/32\ " of dust covering 5 percent) of the room 
area is enough to create an explosive atmosphere if the dust becomes 
suddenly dispersed.
    The NFPA standard calls for designing process equipment to ensure 
that dust explosions inside the equipment vent to safe locations away 
from personnel, and not into work areas where life-threatening 
secondary explosions could occur. It also calls for controlling 
activities and equipment that may cause ignition and requires that 
electrical equipment be suitable for dust-containing atmospheres. And 
buildings should be designed to be evacuated quickly in an emergency.
    Finally, the NFPA standard calls for a basic safety management 
system at facilities that handle combustible powders. This system is 
similar to what thousands of oil and chemical facilities already follow 
under the OSHA Process Safety Management (PSM) standard. The NFPA 
recommends that facilities with dust explosion hazards develop worker 
training, hazard analysis, and change management programs, and conduct 
regular inspections and maintenance.
    Most of the fatalities and serious injuries from industrial dust 
explosions occur due to secondary explosions, which result from dust 
accumulations in work areas. These explosions--including the one at 
Imperial Sugar--can be prevented by adherence to the principles 
contained in the NFPA standards. Our investigation to date reveals 
numerous areas where Imperial was unfamiliar with and did not implement 
NFPA recommendations.
    OSHA has recognized the importance of NFPA's dust standards and 
they are referenced numerous times in the National Emphasis Program 
that OSHA began last year and re-issued earlier this year. We support 
the NEP, and I commend Secretary Foulke for its establishment. The 
creation of an NEP would appear to satisfy one of the CSB's safety 
recommendations from 2006.
  imperial disaster emphasizes need for a comprehensive osha standard
    A comprehensive OSHA dust standard is necessary to get businesses, 
government inspectors, and insurers to identify dust hazards and take 
appropriate actions to control them. Existing standards do not clearly 
identify what kinds of dust are hazardous and only address limited 
aspects of how to control those hazards.
    OSHA's existing Walking-Working Surfaces standard (29 CFR 
1910.22)--sometimes loosely referred to as ``the housekeeping 
standard''--requires that ``all places of employment be kept clean and 
orderly and in a sanitary condition.'' Its primary purpose is to 
protect individual workers from slips, trips, and falls from water, 
debris, or sharp objects. It does not specifically address fire or 
explosion hazards, does not mention combustible dust, and does not 
impose any specific enforceable limitations, engineering controls, 
procedures, cleaning methods, or training requirements.
    There are also limitations in seeking to apply existing NFPA 
standards, as written, under the OSHA general duty clause. NFPA 654 
does not include specific lists or criteria for what combustible 
powders are covered (although two related standards, NFPA 61 and NFPA 
499, clearly identify sugar dust as an explosion hazard). NFPA 654 also 
contains a number of general provisions that may be subject to 
differing interpretations. For example, the standard says that 
decisions about applying safety recommendations retroactively to 
existing buildings must be made on a case-by-case basis to achieve an 
``acceptable degree of protection''--a term that is difficult to 
define.
    Instead of the present patchwork of miscellaneous Federal, State, 
and local requirements, the Chemical Safety Board has recommended that 
OSHA develop a single, comprehensive, uniform standard--based on the 
sound, consensus-based technical principles and practices that are 
embodied in NFPA standards. Ambiguities in the NFPA standards need to 
be resolved in clear, enforceable regulations developed by a thorough, 
public rulemaking process.
    The House of Representatives took a similar approach in H.R. 5522, 
the Worker Protection Against Combustible Dust Explosions and Fires Act 
of 2008, which mandates an OSHA standard that is based on NFPA 
standards, but considers input from all parties.
    osha grain dust standard has cut explosion deaths by 60 percent
    Advocates of a new OSHA standard are encouraged by the success of 
the OSHA grain dust standard, 29 CFR 1910.272. In the 1970s and 1980s, 
the U.S. experienced a series of grain dust explosions that caused a 
number of deaths. OSHA responded in 1987 by issuing a comprehensive 
grain dust standard. This standard requires preventive maintenance, 
worker training, safe operating procedures, emergency planning, and 
formal dust-cleaning programs. In particular, grain-handling facilities 
(but not other industries) must adopt written cleaning schedules, 
identify priority housekeeping areas where combustible dusts are most 
likely to be present, immediately remove any dust accumulations over an 
eighth of an inch, and avoid using compressed air for cleaning.
    According to OSHA's own review in 2003, this standard has cut 
deaths and injuries from grain dust explosions and fires by 60 percent. 
And as noted in the CSB study, the grain industry itself now credits 
the standard with helping to make the design of grain handling 
facilities safer.
    Developing a new combustible dust standard will be a complex 
undertaking, and OSHA will face technical challenges along the way. A 
realistic timetable will need to be developed. But the time to start 
this important work is now. We should not await another tragedy on the 
scale of what we just witnessed in February before starting the 
rulemaking process.
    In November 2006, when the combustible dust study and 
recommendations were before the Chemical Safety Board for approval, I 
had reservations about recommending a new OSHA dust standard for 
general industry. At that time, I hoped that the terrible dust 
explosions in 2003 would prove to be an anomaly, and that heightened 
awareness and vigilance by industry would make a new Federal regulation 
unnecessary.
   new osha standard, education, and enforcement will prevent future 
                                 deaths
    Although I continue to believe that education and awareness are 
very important components, the tragic circumstances of the Imperial 
Sugar explosion have now convinced me that a comprehensive Federal 
standard should be enacted to help prevent future disasters.
    Of course, a standard by itself will not prevent all accidents. 
Therefore, we need a new standard, an emphasis program, and an 
awareness campaign to tackle this problem. Without all three elements--
strong regulations, education, and enforcement--workers will continue 
to be put at risk.
    A combustible dust standard will save workers' lives. It will save 
many others from devastating burn injuries.
    After witnessing the terrible human and physical toll from the 
Imperial explosion, I believe the time for further debate should draw 
to a close. It is time for all interested parties--industry, labor, and 
government--to move forward toward a standard that will protect 
workers, businesses, and communities well into the future.
    Thank you for the opportunity to testify today.

    Senator Murray. Thank you very much to both of you.
    Before we move to questions, Senator Brown joined us a few 
minutes late and wanted to give a quick opening statement 
before we go to the questions.
    Senator Brown. Not necessary. I will wait for the 
questions.
    Senator Murray. OK, very good.
    Senator Brown. Thank you, Madam Chair.
    Senator Murray. All right. Thank you very much to both of 
you for being here and for your testimony. Let me ask this 
question to both of you.
    I understand now that OSHA has issued citations proposing 
penalties of over $8.7 million in safety violations to Imperial 
Sugar, which I understand is the third-largest fine in the 
history of the agency. Those citations covered 118 instances of 
willful violations, a category in which OSHA can count each 
instance a violation occurs, because it is measured against a 
specific standard.
    For many other citations, OSHA used a more general duty 
clause that allows it to cite unsafe practices not specifically 
addressed in the regulations. I would like to ask both of you 
if any critical hazards or life-threatening dangers were not 
included in the citations because they could not be 
specifically named.
    Mr. Foulke, I would like to ask you first.
    Mr. Foulke. Not that I am aware of, Madam Chairman.
    Senator Murray. Mr. Bresland, do you have any comment on 
that?
    Mr. Bresland. Well, I think a general or a more specific 
standard for combustible dust control would be somewhat similar 
to the grain standard, and certainly one thing that would need 
to be done would be an assessment of the hazards of the 
particular dust.
    There are tests that can be done on dusts that are 
relatively easy and straightforward and relatively inexpensive. 
They cost maybe $1,200, $1,500 to do. Once you have done that 
test, you, the employer, would have an idea of the relative 
danger of the dusts that you are dealing with.
    Now keep in mind that not all dusts are explosive. I think 
there is a general impression out there or a general lack of 
awareness of the hazards of combustible dusts. If these tests 
were carried out, people would have an awareness of what the 
hazards are, and then an appropriate accident prevention 
program would be put in place.
    Senator Murray. Well, I guess my question is, if we did 
have a specific standard for combustible dust, would the 
results of this investigation have been different? Would the 
situation with the penalties have changed any?
    Mr. Foulke. I don't believe so, Madam Chairwoman. If you 
would look at what we cited at Imperial Sugar, as I mentioned 
in my testimony, 60 specific OSHA standards were cited against 
Imperial Sugar. They were violations of 60 separate standards 
that are already on the books. There were only a few, only 7 
general duty clause violations that were cited at Port 
Wentworth.
    Once again, what that shows--and this is the important 
thing to recognize--is that Congress, when it initiated the 
act, understood that there would be situations where you would 
not be able to cover everything. They specifically put the 
general duty clause in there, which allows us at OSHA to be 
able to cite employers for other safety and health hazards.
    It shows that the Imperial Sugar inspection and the 
citations demonstrate clearly that the system works, that we 
are citing employers, where we don't have a standard, under 
5(a)(1). Yet we still have an additional 60 separate standards 
that were cited. To tell you the truth, here we have where the 
employer just violated 60 specific standards. I think if you 
had a combustible dust standard, there would have been 61 
standards that would have been violated.
    Senator Murray. Well, you have said that OSHA has 17 
different standards that relate to combustible dust. Many of 
those standards that you point to don't even mention the word 
``dust,'' and none of those standards were designed 
specifically to prevent dust explosion. The housekeeping 
standard only applies to places where people are working, 
passageways, storage rooms, and doesn't apply to many of the 
places where dust can accumulate, like sealed areas or perhaps 
suspended ceilings.
    Wouldn't a single comprehensive standard be more effective 
in getting employers, first of all, to understand the hazard 
posed by accumulated dust?
    Mr. Foulke. Well, we have not ruled out looking at doing a 
standard, Madam Chairwoman. What we are looking at--and we have 
our National Emphasis Program, and what this is providing us 
with is the information. We are going out and examining a whole 
series of companies that have the potential for combustible 
dust. We are also looking at the types of substances that are 
involved, the types of industries that are involved, the types 
of processes that are involved. This is the information that we 
need.
    The post that I have here, this is the post that OSHA has 
put out with respect to combustible dust. Their list, some of 
the substances they are dealing with, all this list is the 
substances. With the grain standard, you were dealing with one 
substance. As you can see from this list, we are dealing with a 
lot of different substances to deal with a combustible dust 
standard.
    Senator Murray. Did you inspect Port Wentworth or Gramercy 
facilities prior to this February 7th explosion? Did any 
inspectors?
    Mr. Foulke. Yes.
    Senator Murray. It was? What kind of citations were issued 
at that time?
    Mr. Foulke. Well, the Port Wentworth inspection was 
conducted in 2000 under a complaint inspection, and the 
difference between----
    Senator Murray. Was there a citation at that time?
    Mr. Foulke. There was no citation because this inspector 
investigated where the complaint was. On complaint inspections, 
we are, under law, focused on a specific area that we need to 
look at. Obviously, there were no other safety and health 
hazards that were observed, but the complaint that was issued 
or the complaint that we received and the inspection that 
followed determined that there was no evidence of a violation 
based on the complaint.
    Senator Murray. I am looking at these photos here. You 
didn't see anything like that? Or the supervisor or the 
inspector didn't see anything like this?
    Mr. Foulke. I am not sure exactly where the inspection was 
held. If it was a complaint inspection, it may have been held 
in a different area where--like in the warehouse or something. 
I am not sure of that.
    Senator Murray. Well, my time is up, but I want to ask you, 
in your testimony, you say that the existence of a specific 
combustible dust standard would not have prevented the Imperial 
Sugar explosion because Imperial Sugar had a blatant disregard 
for safety. Yet now we have Imperial Sugar using the absence of 
a dust standard as the key to their appeal of OSHA citations, 
saying it is evidence that OSHA didn't know about the hazard of 
dust and didn't put the industry on notice.
    Aren't you kind of inviting that kind of defense by failing 
to issue a specific dust standard?
    Mr. Foulke. Well, I know that Imperial Sugar has contested 
the citations. I don't know what their specific--what their 
defenses are going to be. But, I will say this very clearly. We 
had the things in place. There was clearly knowledge about 
combustible dust.
    We put out a Safety and Health Information Bulletin on 
combustible dust in 2005. We had started a special emphasis 
program in our Region 3 in Philadelphia on combustible dust. We 
started our National Emphasis Program. That was actually 
started before this inspection went on, and I believe the 
evidence shows that Imperial Sugar was aware that we were doing 
the inspection.
    We have--once again, too--you have always got to remember, 
the act passed by Congress puts the responsibility of having a 
safe work site on the employer. It does not say, ``OSHA, you 
are now the corporate safety and health director for every 
company in the United States.'' It requires the employers to 
maintain a safe workplace. That is their responsibility under 
the act.
    Now some people like to pass the buck, to be quite frank. 
When they want to try to put the blame, shift the blame away 
from them and put it on somebody else. The act puts the 
responsibility on the employer. We have been providing them 
plenty of--we had our SHIB. We put out our hazard alert. We had 
the poster. We have our Web page out there that they can go on 
and get all of this information.
    For any employer in the United States to say that they 
don't understand that there is--they don't know anything about 
combustible dust hazards, especially in the sugar industry, is 
just not right. It is not true.
    Senator Murray. Senator Isakson.
    Senator Isakson. Thank you, Senator Murray.
    Mr. Foulke, what triggers an OSHA compliance inspection?
    Mr. Foulke. Senator, it can be a number of different 
things.
    Senator Isakson. Tell me what they are.
    Mr. Foulke. Well, one is obviously, in this particular case 
involving Imperial Sugar, when you have a fatality or the 
multiple hospitalization of three or more employees, then we do 
an automatic inspection. We also do inspections for complaints 
where an employee or a former employee or someone files a 
complaint with OSHA, citing a complaint about safety and health 
hazards. Then we will inspect those.
    The third one is where we have program inspections, and we 
have a set group of targeting things, do our site-specific 
targeting on our National Emphasis Programs and local emphasis 
programs.
    Senator Isakson. And your statement that by the end of this 
year, all refineries will be inspected as a program you put in 
place?
    Mr. Foulke. Sugar.
    Senator Isakson. Sugar refineries.
    Mr. Foulke. Yes. Yes, we put that in place the beginning of 
this year, and we intend to inspect all the sugar refineries 
through our National Emphasis Program by the end of this year.
    Senator Isakson. Mr. Bresland, would you give me--explain 
to me the difference between combustion and explosive? 
Combustible and explosive?
    Mr. Bresland. That is--you mean in terms of combustible 
dust?
    Senator Isakson. I mean just the two terms. One is an 
explosion. The other is combustible. Is there a difference in 
the two?
    Mr. Bresland. Combustible is a term that is normally used 
with flammable liquid or combustible liquid, such as diesel, 
for example. It is something that can catch fire, and it is 
defined by the flash point of the particular liquid. An 
explosion is something that causes an overpressure and results 
in the sort of damage that you saw at the Port Wentworth 
refinery.
    Senator Isakson. Wasn't there an explosion in Baltimore, 
MD, in November 2007?
    Mr. Bresland. There was an explosion at the Domino Sugar 
factory in 2007.
    Senator Isakson. Did you do an investigation of that?
    Mr. Bresland. No, we didn't. No.
    Senator Isakson. Sugar dust was the----
    Mr. Bresland. From what I read in the press reports, and 
they were in the press yesterday, there were fines levied on 
Domino Sugar by the Maryland OSHA. I believe, as I recall, it 
was $4,000.
    Senator Isakson. The reason I am asking that question is in 
the testimony of Mr. Foulke, on page 4, it says,

          ``In the course of our investigation, we found the 
        management of Imperial Sugar was aware that there were 
        hazards caused by combustible dust at its facilities 
        and knew that it had not been effectively managing dust 
        accumulation for a number of years.''

    Combustible is different from explosive. Throughout all the 
reading I have done, everybody is parsing those two words. I am 
just trying to get to the point of this specific reference.
    Mr. Bresland. I think I understand your confusion, but I 
think in the sense that we are talking about today, I would say 
that combustible dusts and explosive dusts are somewhat 
interchangeable as a term.
    Senator Isakson. Does it take combustion to have an 
explosion?
    Mr. Bresland. Yes, it does. Yes. If I can use as an 
example, just to describe how this works, if you take a piece, 
a block of wood and try to set fire to it, it is not going to 
catch fire. If you take wood kindling and put a match to it, it 
probably will catch fire, but relatively with some difficulty. 
If you take dust, very finely divided wood dust and under the 
right circumstances, it will explode.
    You can go from a piece of wood, which is relatively 
innocuous, to the same wood as a very finely divided material, 
let us say confined inside a room like this, at a sufficient 
concentration, it would explode.
    Senator Isakson. I think Senator Chambliss and I come from 
the pine tree capital of the United States, and we are very 
familiar with sawdust explosions and combustion. That is a 
great example.
    It just seems to me like, in all of this, I keep reading 
about how we didn't know whether something would explode or 
whether it was combustible or whether it was flammable or not. 
When we had all these 281 explosions in 30 years of dust 
explosions that it seems like everybody ought to know that 
organic dust is explosive.
    Different properties have different intensities, I would 
think. It seems to me like that is just almost common 
knowledge. To that end, are the National Fire Protection 
Association regs, by nature, are they adopted as a part of OSHA 
standard?
    Mr. Bresland. Are you asking----
    Senator Isakson. I am asking Mr. Foulke. I am sorry.
    Mr. Foulke. Oh, I am sorry.
    Senator Isakson. The National Fire Protection Association 
standards?
    Mr. Foulke. Sir, some of our standards are--have consensus 
standards that are incorporated by reference.
    Senator Isakson. Are their standards as it relates to dust 
a part of OSHA standards, either by incorporation?
    Mr. Foulke. We have not incorporated the National Fire 
Protection code standards specifically.
    Senator Isakson. In that combustible dust posting that you 
have, does it reference the National Fire Protection 
Association standards?
    Mr. Foulke. We do reference the National Fire Protection 
code standards in a number of things, including on our Web 
site, where our combustible dust Web site outlines what 
standards are applicable, but also what reference materials are 
available.
    Senator Isakson. Thank you, Madam Chairman.
    Senator Murray. Senator Brown.
    Senator Brown. Thank you, Madam Chair.
    Mr. Bresland, thank you for your independence and your 
courage. Thank you.
    Mr. Foulke, OSHA's own response to earlier combustible dust 
crises in the grain industry, as Mr. Bresland pointed out, 
demonstrates a dust-specific standard works. During the Reagan 
administration, in 1987, after a series of deadly grain dust 
explosions, OSHA issued the standard that you both mentioned on 
combustible grain dust that applies mainly to grain elevators, 
feed and flour mills, and certain soybean processing plants.
    The standard has been extremely successful in reducing 
grain dust explosions from 1987 to 2003. Over 16 years, those 
explosions decreased by 43 percent, and related injuries and 
fatalities dropped by some 60 percent.
    I understand the Bush administration's view that voluntary 
standards are the way to go. For whatever ideological reasons, 
they have come to that conclusion. Why has OSHA been so slow on 
the dust in sugar and metal and wood and pharmaceutical 
manufacturing?
    Mr. Foulke. Well, I don't think we have been slow. I think 
one of the things--clearly, our position is we are looking at 
whether the data would show us that we need to do some type of 
rulemaking. We are looking at that. First of all, I think if 
you see the Imperial Sugar, the citations there show that we 
have a lot of standards that are applicable to combustible dust 
hazards, and clearly, we cited Imperial Sugar for that.
    The grain standard, I can't deny that it hasn't been 
successful, but you have to also recognize the grain standard 
does not just deal with explosives. It also deals with 
engulfments, and that is one thing--that is part of where the 
reduction in fatalities has occurred. Also if you look prior to 
the enactment of the grain standard, which took 8 years to 
enact, there was already a steady decline in the number of 
explosions and the number of fatalities.
    Once again, and it kind of was what you pointed out there 
in your question, grain standard deals with one element, grain. 
A comprehensive combustible dust standard would have to deal 
with all those specific items and also dealing with specific 
industries and specific processes. This is not--this is a 
complicated standard.
    I know there has been the discussion that we should go and 
adopt the National Fire Protection code as our--as a basis. If 
you want to look at the National Fire Protection code, it has 
five different combustible dust standards. It is not one. These 
are the five here.
    Each one of these also references, mandatory references--
like 654 is probably the main, general combustible dust 
standard. It references 40 others. If you take all the 
mandatory references in the National Fire Protection code, 
combustible dust standards, this is what you get right here.
    In developing a comprehensive standard, first of all, even 
the National Fire Protection Code has not set a specific one 
standard, nor do they have a specific standard for dust. Each 
one of these has its own different discussion of dust. Plus, it 
incorporates all these other items. In developing a standard, 
we are going to have to see how all this integrates together 
and how it impacts on our standard.
    Senator Brown. Yes, I would like to accept your answer, but 
it has been 16 years that we have seen the grain standard. I 
have heard the differences, and I accept those, mostly. It has 
been 2 years since the Chemical Safety Board issued the study 
that identified hundreds of combustible dust incidents over the 
past three decades that resulted in more than 100 worker 
deaths. They found no rules exist to control the risk of dust 
explosion. They recommended that OSHA move on it.
    I heard your comments that it is ultimately the employer 
who is responsible. What that says to workers in this country 
is you are on your own because the Government is not on your 
side. We are just hoping employers do it. We believe that 
employers should have a voluntary standard. I mean, that has 
really been the message out of OSHA for the last half dozen 
years or so.
    It sort of begs the issue that the worker is on his own in 
this. I look at what has happened in Marion, OH, in my State, 
and the popcorn workers at a company in Marion. The danger is 
called ``popcorn lung'' from diacetyl exposure.
    There was a petition for a standard to regulate diacetyl. 
OSHA denied it. It was supported by 42 of the country's leading 
occupational safety and health scientists and experts. I mean, 
we have just seen too much of this from OSHA. Listen to people 
like Mr. Bresland and listen to the representatives of these 
workers, whether they are union or nonunion, listen to people 
on this committee that OSHA needs to get more serious about 
siding with the worker, not doing the company's bidding so 
often.
    Mr. Foulke. Well, I have to disagree with your premise, 
though, that, first of all, there is no such thing as a 
voluntary standard. OSHA has on the books numerous safety and 
health standards that cover a whole variety of things.
    I think you can look at the fact that looking at the 
Imperial Sugar citations, this clearly demonstrates $8.7 
million in penalties, 61 different specific standards, on-the-
book standards cited, 218 different violations. It wouldn't 
have mattered if we had another combustible dust standard. This 
accident would have happened. I personally believe that they 
would not have complied with a combustible dust standard.
    The other question you brought up about diacetyl. First of 
all, I will mention we are working on a diacetyl standard. 
Second, we did deny the emergency temporary standard for 
diacetyl, and the reason was that there are two--the courts 
require two criteria for an emergency temporary standard. There 
has to be a grave danger, and you have to be able to show that 
there is a necessity for the emergency standard.
    Through our history, we have issued nine emergency 
temporary standards. Of those, six were challenged in court, 
and five were vacated by the court. The last time we issued an 
emergency temporary standard was in 1983 for asbestos, and that 
was vacated by the court. The burden on an emergency temporary 
standard is extremely high for us.
    Senator Brown. I can expect that OSHA, by what date, will 
come up with a diacetyl standard for the popcorn workers?
    Mr. Foulke. We are working on that. We have moved forward. 
We are in the process of the--we have briefed the SBRFA panel. 
We are getting ready to do the SBRFA panel. We are moving 
forward with it. Once the SBRFA panel is completed, then we 
will have a notice of proposed rulemaking.
    Senator Brown. That is roughly--timetable? When would that 
be, roughly?
    Mr. Foulke. I would suspect sometime the end of next year 
maybe.
    Senator Brown. End of 2009?
    Mr. Foulke. Right.
    Senator Brown. Thank you.
    Senator Murray. Senator Chambliss.
    Senator Chambliss. Thank you, Madam Chairman.
    Gentlemen, thank you for your service on this. Obviously, 
from the testimony of both of you, combustible dust exists in 
any number of manufacturing facilities, a lot of which are 
listed on your chart here, Mr. Foulke. Is it the position of 
OSHA, as well as the Chemical Safety Board, that you seek to 
eliminate dust in these manufacturing operations, or should 
manufacturers seek to control their operations with that dust?
    Mr. Bresland. Let me respond to that. I think everybody 
should be aware that in the pharmaceutical industry and in the 
chemical industry in particular, dust and particulates are part 
of the process. When you buy a pharmaceutical tablet, it is 
originally a dust, and it possibly could have been a 
combustible dust. Those industries deal with combustible dusts 
on a day-to-day basis, and they deal with them safely.
    The sort of issue that we are talking about in our program 
and our reports are the dust that you see here, that if this 
was a pharmaceutical company, you wouldn't be throwing dust all 
over the place. Because sugar is relatively low value, I guess 
they consider that you clean it up, put it back in the process, 
recycle it, it is OK.
    The issue is that under certain--in many industries, 
combustible dust has been dealt with and sometimes quite 
dangerous combustible dust has been dealt with in a very 
appropriate way with the appropriate training of the employees, 
the appropriate equipment to either prevent or mitigate the 
dust explosions. Let me just refer to something that Mr. Foulke 
said.
    I agree with him on the issue of who is responsible for 
making sure that facilities are run in a safe manner. I worked 
in industry for 35 years. It is the industry company who has a 
basic responsibility. However, for industry to run safely, they 
do need some guidance. They need guidance in the way of 
regulations.
    From my perspective, having worked in the chemical 
industry, a good starting point for a combustible dust program 
would be something similar to the one that OSHA has for 
chemicals and refineries, the process safety regulation. It 
wouldn't take exactly the same thing, but you could--that would 
be a good starting point for them, where you have operator 
training and mechanical integrity programs, making sure the 
place is kept appropriate, doing process hazard analysis to 
determine if you have a particularly dangerous dust.
    Senator Chambliss. Mr. Foulke, anything you want to 
comment, on that?
    Mr. Foulke. Well, you know, it is clear and our position 
has always been and the act clearly states it is the employer's 
responsibility. 5(a)(1) of the act says an employer is 
responsible to provide a safe and healthy workplace for its 
employees as free from safety and health hazards that can cause 
death or serious injuries.
    I mean, the act--you can't make it any clearer than that. 
And then to say that we provide a lot of information and 
guidance. That is part of what our responsibility is to provide 
guidance to employers to be able to have a safe and healthy 
workplace. That is why we put out the SHIB in 2005 dealing with 
combustible dust. It is numerous pages, but it outlines all the 
items that are responsible--it outlines all the different 
processes.
    It talks about accumulation of dust. It talks about 
ignition sources. It talks about those type of things that you 
have to do to be able to eliminate----
    Senator Chambliss. I hear what you are saying. Let me move 
on because my time is going to run out. You just mentioned 
really what I want to get to. There is no way to operate a 
sugar manufacturing facility like Port Wentworth or, for that 
matter, Gramercy, which I have never seen, without some dust 
being in the air. Chemical, pharmaceutical plants, I assume, is 
the same.
    In addition to having the dust, there has got to be some 
control over what ignites that dust. What did you find here 
from a fault standpoint relative to creating the spark that 
ignited this dust?
    Mr. Foulke. Yes, we found a number of instances, 42 per-
instance citations were on 44 pieces of spark-producing, 
nondust proof electrical equipment in combustible dust areas. 
Our electrical standard, 1910.307 specifically states and talks 
about having dust-proof, spark-proof equipment in combustible 
dust areas.
    Clearly, here if you are able to eliminate the ignition 
source, there is basically a couple of things you can do to 
eliminate all combustible dust hazards. You eliminate the 
combustible dust, and that comes under a housekeeping standard. 
Also if you eliminate the ignition sources, which our 
electrical equipment standard covers, then you have eliminated 
the potential for an explosion.
    Senator Chambliss. Thank you.
    Senator Murray. Mr. Bresland, I wanted you to respond to 
Mr. Foulke's statements about the adequacy of the current OSHA 
standards and need for a single dust standard. Do you believe 
that we need a single dust standard?
    Mr. Bresland. Yes, I do. Especially if you compare the 
current OSHA housekeeping standard, which is--I have it 
somewhere in here. This is the totality of OSHA's regulations 
for general industry. If you look at the housekeeping standard 
in there, it is one paragraph in that whole book. If you look 
at the grain dust standard, there is more detail in the grain 
dust standard--things like emergency action plans, training for 
employees, hot work permits, appropriate safe entry activities.
    Certainly, one major one is a requirement for a written 
program for housekeeping. If there had been a written program 
for housekeeping in Port Wentworth, I don't think you would be 
seeing the sort of photographs that you see here today.
    Senator Murray. What about the training issue? Mr. Foulke, 
are OSHA inspectors trained specifically on dust standards 
today?
    Mr. Foulke. Yes, Madam Chairwoman. We have a program--the 
training program that we have on combustible dust, all of our 
new COSHOs have received initial training, basic training on 
combustible dust as part of their overall initial training as 
they begin their work with OSHA.
    Then there are additional courses that are taken that deal 
more specifically with combustible dust, such as our hazard 
communication standard, the electrical standard training 
course. Then, of course, we have now a 3\1/2\ day course 
specifically on combustible dust training.
    We have a broad scope of training for all our compliance 
officers.
    Senator Murray. Required? Is the training required?
    Mr. Foulke. The initial training, certain of the training 
is required, yes.
    Senator Murray. There was a recent 60 Minutes show, where a 
former OSHA inspector said he was never trained on dust 
standards and didn't recognize these hazards during 
investigations. Were you aware of his comments on that?
    Mr. Foulke. I saw the show, yes.
    Senator Murray. And?
    Mr. Foulke. Well, it kind of surprised me because I would 
say--of course, he was a retired compliance officer. I know 
that for at least the last decade, we have been--the initial 
training for compliance officers has included a segment dealing 
with combustible dust.
    Senator Murray. For how long back, I am sorry?
    Mr. Foulke. At least a decade.
    Senator Murray. OK, and so how many are trained today?
    Mr. Foulke. Well, all of our COSHOs have initial training 
as part of their--we have also done refresher training for 
1,400 COSHOs and employees both of the Federal OSHA and State 
plans OSHA. We did refresher training on that. We also----
    Senator Murray. Do you have a plan-specific in place to 
have everyone trained?
    Mr. Foulke. On?
    Senator Murray. On the----
    Mr. Foulke. They do receive some training on combustible 
dust. With respect--are you saying that we are going to have 
training on the 3\1/2\ day course just on combustible dust?
    Senator Murray. Yes, specifically, are all of our OSHA 
inspectors going to be trained at a specific point so that we 
don't see this in the future?
    Mr. Foulke. I don't know what you mean by ``see this in the 
future.'' I think we had our compliance officers go in on 
Imperial Sugar and they were able to cite them, and we are very 
familiar with all the combustible dust hazards and all the 
things associated with combustible dust. What we are doing is, 
we are moving forward to make sure that at least one person----
--
    Senator Murray. Are you telling us that all of the OSHA 
inspectors that you have today are properly trained to deal 
with combustible dust?
    Mr. Foulke. All of our COSHOs, I believe, have had training 
on--initial training on combustible dust. Some of them have had 
additional training, more extensive training on combustible 
dust, including the 3\1/2\ day training course.
    Senator Murray. Let's go back to the proposed standard, 
which is what this committee is trying to look at, and the 
housekeeping standard that you cite doesn't apply to many 
places in these facilities. Are your OSHA people being trained 
to look beyond just the housekeeping standards, or do we need 
another standard so that we get the training in place to make 
sure inspectors know what they have to be looking for?
    Mr. Foulke. Well, the standard normally, any OSHA standard 
normally does not cover training of the COSHOs. What it does is 
training of employees of employers.
    Senator Murray. If there is a standard?
    Mr. Foulke. What we would do is we would train them on 
that. Right now, we already have training that they have 
received, all the new COSHOs coming onboard and that have been 
onboard for the last decade have received, as part of their 
initial training, training on combustible dust.
    We have had more extensive training. For those that have 
been trained on process safety management, there is a component 
of combustible dust training in there. We have had 350 people 
trained since 2000. On hazardous materials, there is a section 
on that. Three hundred forty-one have been trained since 2000.
    Chemical process safety also has a component of combustible 
dust, and we have had 331 employees trained. Since December 
2007, the 2\1/2\ day course, we have trained over 101 COSHOs on 
that combustible----
    Senator Murray. OK, Mr. Bresland, if we had a specific 
standard for combustible dust, would we have better training, 
and would we have more focus at OSHA on that training? Is that 
what I understood you were saying?
    Mr. Bresland. Yes, if there was a specific standard for 
combustible dust and if it was similar to either the process 
safety management standard--and it doesn't have to be as 
detailed as that--or if it was similar to the grain standard. 
There would be a requirement in there for training of employers 
and employees on the hazards of combustible dust.
    Senator Brown. Madam Chair, could I ask a question related 
to that?
    Senator Murray. Let me just follow up with Mr. Foulke, and 
then I am happy to give you a quick moment.
    My understanding is that you did testify to the House 
Education and Labor Committee, Mr. Foulke, that you were 
considering proposing a comprehensive combustible dust 
standard. Are you?
    Mr. Foulke. Yes, ma'am. We have not ruled out a combustible 
dust standard. What we are doing is we are taking the 
information that we get from our National Emphasis Program. 
Anytime we do a standard, we normally go out and do research 
into those industries and those facilities that we would be 
regulating as part of that standard.
    Part of our National Emphasis Program on dealing with 
combustible dust, we are getting to go out and identify those 
facilities that have all these types of different combustible 
dust--
    Senator Murray. Well, to answer my question, are we going 
to see a comprehensive dust standard from OSHA?
    Mr. Foulke. We are going to consider--what we are looking 
at, when we get the information back from the NEP. The NEP has 
not been completed. Two thirds of the inspections that we had 
done for combustible dust under the NEP have not been 
completed. They have been opened, and they have been 
investigated, but we haven't completed them.
    Once we get the data from these inspections and are able to 
determine it--we are not losing any ground here because if we 
had to go and do a rulemaking, we would have to go out to these 
different facilities to determine how a standard would impact 
it and how to write the standard. The NEP is actually helping 
us get ahead if we do go forward with a standard.
    Senator Murray. Did you have really quick question?
    Senator Brown. If the Chair would yield for a second, I 
want to follow up on that.
    The report from Mr. Bresland from 2006 has provided 
obviously a good deal of information for what might be a 
proposed rule on a dust standard, Mr. Foulke. If diacetyl--I 
don't know how long you have been working on that--wouldn't 
come out, wouldn't be published even until late 2009, what 
would you expect, if you had answered yes to Chairwoman 
Murray's question? We will pursue a standard, how long would 
you expect that would take you to do?
    Mr. Foulke. It would be hard for me to speculate. I would 
say that the--I point out that the grain standard took 8 years 
to complete.
    Senator Murray. Senator Isakson.
    Senator Isakson. How many standards have you had vacated by 
judicial order? Because you referred earlier----
    Mr. Foulke. Oh, I was talking about the emergency temporary 
standards.
    Senator Isakson. OK.
    Mr. Foulke. Where we put in emergency temporary standard, 
which would require us under--this is a provision that is in 
the act that allows us, when we find a grave hazard----
    Senator Isakson. I understand what it is. How many of those 
were vacated? You made a reference to it in your opening.
    Mr. Foulke. Of the nine that we have done, six were 
contested. Five were vacated, were thrown out by the courts.
    Senator Isakson. Five out of six?
    Mr. Foulke. Five out of six that were contested.
    Senator Isakson. OK. Mr. Bresland, I commend your report. 
It has seven pages of explanations of acronyms. I so much 
appreciate your including those. The problem is I have to keep 
going back and forth to remember which one I am reading.
    In one site, you made finding No. 7, your finding, you say, 
41 percent of the 140 combustible powder MSDSs the CSB surveyed 
did not warn users about explosive hazards, and only 7 percent 
referenced appropriate NFPA dust standards to prevent dust 
explosions. And then MSDS is defined as ``material safety data 
sheets.'' Who produces those?
    Mr. Bresland. They are produced by the company that is 
either manufacturing or selling the chemical involved.
    Senator Isakson. It would be an MSDS of Imperial's with 
regard to sugar dust?
    Mr. Bresland. Theoretically, there should be a material 
safety data sheet for sugar and for sugar dust and--
    Senator Isakson. And it is proprietary to the refiner?
    Mr. Bresland. No. No, it is a public document.
    Senator Isakson. It is a public document?
    Mr. Bresland. Yes.
    Senator Isakson. Who is responsible for making it public 
and developing it?
    Mr. Bresland. It is developed by the company based on 
research and looking at the particular properties, either the 
hazardous properties or the dangerous properties of the 
chemical involved. Most of them are available on the Internet. 
If you want an MSDS, you can click on----
    Senator Isakson. It is general information then that 
somebody in that particular business that might deal with that 
particular property should seek out and find for themselves? It 
is not a part of a regulatory rule or anything like that?
    Mr. Bresland. There is a regulatory requirement, and I 
don't have a lot of detailed information on that, that an MSDS 
should be prepared, has to be prepared before it goes into 
commerce.
    Senator Isakson. You said in your testimony that \1/32\ of 
an inch was a generally accepted standard for accumulation of 
dust. Is that correct?
    Mr. Bresland. Correct, yes.
    Senator Isakson. Do you know how deep the dust is in that 
particular series of pictures?
    Mr. Bresland. Oh, in the bottom right, it looks like it is 
several feet deep.
    Senator Isakson. Several feet deep?
    Mr. Bresland. Yes. We didn't take these photographs. These 
were taken by either someone from Imperial or someone doing an 
audit.
    Senator Isakson. And \1/32\ is an accepted standard?
    Mr. Bresland. \1/32\ is the National Fire Protection 
Association standard for 5 percent of a covered surface.
    Senator Isakson. If I were a company, I would insure my 
plant, and the insurance company would have a risk management 
officer, I am sure. Do you know how much, and I really wish I 
had thought of this, of having somebody from the insurance 
industry testify, because they can be the big losers in these 
things, so to speak, because they are assuming a lot of the 
risk up to the amount of--
    Do you know if they do periodic inspections on dust 
accumulation?
    Mr. Bresland. I don't know, and that is something that we 
will be looking into as our investigation continues, looking 
into what--assuming that insurance inspectors came into that 
facility, did they look at this and make a recommendation or a 
judgment as to the hazards of having as much accumulated sugar 
dust lying around the facility? I would hope they would look at 
that and say that is not acceptable.
    Senator Isakson. Well, my experience is that many of your 
findings and your investigations end up being a part of risk 
management calculations by insurers anyway. Isn't that correct?
    Mr. Bresland. Our investigations are read by a wide variety 
of people around the world, and certainly, they are read 
carefully by insurance companies.
    Senator Isakson. Which goes back, I guess, Mr. Foulke, to 
the incorporation of the general duty clause of the original 
Occupational Safety and Health Administration Act?
    Mr. Foulke. That is correct. Yes, Senator. What you have 
here is the act was intended, once again, to put the 
responsibility on the employers to provide a safe work site. 
The only way you can provide a safe work site is to identify 
the hazards that are in your work site.
    To me, I think a reasonable person, if I am in business, a 
reasonable person would try to figure out what hazards you have 
in your business if you are supposed to be running a business 
in this particular industry. The insurance companies do--to 
answer your other question about the insurance companies, the 
answer is, yes, they do go out and look into these facilities. 
They do provide audits for all industries.
    Senator Isakson. Last, I have a question that you won't be 
able to answer, but if you would get me an answer to this, Mr. 
Foulke, I would appreciate it. I would like to know how many 
times in the last 10 years OSHA has received a compliant by an 
employee against an employer for accumulation of dust?
    Mr. Foulke. I don't have that information, but I am sure--
--
    Senator Isakson. I know, but would you get that for me? I 
would be interested in knowing how many times that has 
happened.
    Mr. Foulke. Yes.
    Senator Isakson. Thank you. Thank you, Madam Chairman.
    Senator Murray. Senator Chambliss.
    Senator Chambliss. Thank you, Madam Chairman.
    Mr. Foulke, I want to go back to the igniting of this dust 
issue because in my reading of your report, talking to your 
folks, there apparently is a conclusion that the most likely 
source of the igniting of the dust in this case came out of 
the, I guess, collision we will say of a bucket that is used to 
hold sugar, processed sugar that is one of any number of 
buckets that goes along a conveyor belt, and that that bucket 
came into contact with another metal object.
    You know, that is a process that without knowing exactly 
how long it has been in operation at this particular facility 
or other facilities that are similar, it has been there for 
decades. Is there anything in your regulations that addresses 
the ignition side of it from that standpoint of equipment like 
that that is operated?
    Mr. Foulke. Well, we do have, like I said, our electrical 
standard requires dust-proof, explosive-proof equipment.
    Senator Chambliss. Well, I understand from an electrical 
standpoint, but I am talking about metal-on-metal type 
ignition.
    Mr. Foulke. Right. Well, no, what you would be doing here 
really is just preventive maintenance or maintenance of the 
equipment, the proper maintenance of the equipment. There would 
be a requirement--manufacturing requirement to have equipment 
properly maintained so that you wouldn't have this occurring.
    The other thing in this particular case, most likely, this 
explosion or this initial explosion is what triggered the 
massive explosions that caused the secondary explosions. 
Usually in combustible dust, these situations, it is the 
secondary explosions that cause all the--or most of the damage 
and the loss of life.
    If the company had been following the housekeeping 
requirements on accumulation of dust, if they had eliminated 
that, clearly the secondary explosions would not have occurred, 
and we would not have had the devastation nor the loss of life 
that we had.
    Senator Chambliss. Yes. And that goes to my second question 
I was going to get to. It looks to me like, from what Senator 
Isakson and I were told the other day and what you just talked 
about, this secondary explosion, if there had been a mechanism 
in place that was sucking that dust out through some exhaust 
fan or whatever, you wouldn't have had the concentration of 
dust throughout the plant subject to being ignited. Is that a 
fair statement?
    Mr. Foulke. If it had been removed? If they would have had 
a dust collection system that brought the dust outside the 
plant, and we did cite them under--for not having a proper dust 
collection system and also venting out to the outside, if the 
venting had occurred outside.
    Those are the things. If you had pushed the dust outside, 
then obviously you can't have the explosion. Because one of 
the--in combustible dust explosions, you have basically a 
pentagon. You have to have oxygen. You have to have ignition 
source. You have to have combustible dust. The two things, the 
other things you have to have is confinement. If you have this 
being vented out and if you have vents venting out, you can't 
have the accumulation. If you are venting all the dust out, 
then you can't have the dust cloud to assemble.
    Clearly, we have one of the pictures here, and I can't see 
which one it is here, but where it shows that, clearly, you 
have a dust--in the operation at the Gramercy plant, you have a 
dust cloud there at the time we were doing the inspection. I 
think it ties into Mr. Bresland's discussion and his testimony 
about it was so hard that you couldn't even see. Well, you can 
see from the picture that it was difficult--you can see that 
there is a haze of sugar dust in the air.
    Senator Chambliss. You made the statement that a safe work 
site burden is on the employer, and I agree with that. I think 
that is an accurate statement and where the burden should be 
obviously.
    In your testimony on page 4, you say,

          ``Imperial Sugar was aware that there were hazards 
        caused by combustible dust at its facilities and knew 
        that it had not been effectively managing dust 
        accumulations for a number of years.''

What are the factual--what facts do you base that statement on?
    Mr. Foulke. Well, Senator, I am sorry. I really cannot--
because the case is under litigation, I am limited as to what I 
can discuss about the facts of the case that may impact on how 
we do it. I think the pictures speak for themselves in that, 
and I think you can see, this accumulation of dust did not 
occur overnight.
    Senator Chambliss. Well, the pictures here that show a pile 
of sugar in several different areas, that is not the problem as 
compared to the dust that is in the air. Is that a fair 
statement?
    Mr. Bresland, let me address that to you since those are--
--
    Mr. Bresland. What I would worry about when I see the 
photographs where you are seeing maybe a foot or two of dust, 
as Mr. Foulke said, these dust explosions typically take place 
in two parts. The first part is some sort of a minor or 
relatively minor explosion in the facility, and it may have 
been caused by a spark. That minor explosion causes the dust 
that you see here, the buildup, it causes that to roof up. If 
it was inside this room, it would turn into a floating dust, 
and I probably wouldn't be able to see you because it would be 
so strong.
    Senator Chambliss. It would be just like a gust of wind 
coming through----
    Mr. Bresland. It would blow it up.
    Senator Chambliss [continuing]. And blows it up?
    Mr. Bresland. It would blow it up. Then the secondary 
explosion, which is caused by another ignition source, that is 
the one that causes the most damage. You take this material 
here that looks fairly innocuous lying there, and it can lie 
there as an innocuous material for years. Then when this one-
of-a-kind explosion, small explosion takes place, it causes 
this to be distributed inside--especially inside a confined 
space, and then the secondary explosion takes place.
    Senator Chambliss. Then if you had an exhaust system that 
we just talked about that really was doing its job, if you did 
have this kind of accumulation that we see in these photographs 
there, that exhaust system might, in fact, even contribute to 
dust in the air. Is that a fair statement?
    Mr. Bresland. Not necessarily. What I worry about when I 
see dust like this, this isn't cleaned up by an exhaust system. 
It is cleaned up by----
    Senator Chambliss. I understand that, but it is more 
indication that you shouldn't have this.
    Mr. Bresland. Oh, no, absolutely not.
    Senator Chambliss. If you have got an exhaust system that 
is working, it is going to pull up some of that sugar into the 
air.
    Mr. Bresland. I agree. I agree.
    Senator Chambliss. Thank you.
    Senator Murray. Thank you very much.
    Mr. Bresland, I just want to ask you really quickly, in 
your written testimony, you said that you were previously 
unsupportive of a Federal combustible dust standard and you now 
are. Can you share with us why you have changed your mind?
    Mr. Bresland. Back when the committee voted on this, back 
in November 2006, my concern was that having read the report 
and having been to the scene of at least two major dust 
explosions, that there was an issue out there that required a 
speedy response from OSHA. By a speedy response, I mean a very 
strong education program to get out there and tell the world 
you really need to do something about this.
    My concern about the regulatory side of it was a regulation 
could take, as in the case of the grain standard, 8 years. I 
wanted something that was going to happen immediately and 
quickly so that people would become aware.
    Senator Murray. OK.
    Mr. Bresland. Having seen, having gone to Imperial Sugar 
and gone to Port Wentworth and having seen that and also having 
heard of the terrible effect that it is having not only 
obviously on the people who were killed, but the people who 
were grievously injured and grievously burned, my current 
thinking in this is that a standard that we can get as quickly 
as possible would be the appropriate way to go.
    Senator Murray. I appreciate that.
    Mr. Foulke, I have one more question for you on a different 
subject while you are before our committee before we turn to 
our next panel, unless my colleagues have any other questions.
    I wanted to ask you about a disturbing issue that came to 
our attention last week when the Washington Post ran an article 
that the Department of Labor submitted a proposed regulation 
entitled ``Requirements for DOL Agencies' Assessment of 
Occupational Health Risks'' to OMB for review. That really 
concerns me and the members of this HELP Committee, who have 
been waiting now for DOL and OSHA to submit proposed rules to 
protect workers from well-known hazards, sometimes in the case 
of years.
    Two examples that quickly come to mind is the crane and 
derricks standard that has now been languishing for more than 4 
years after a consensus standard was developed. We recently 
wrote a letter to Secretary Chao about that. Of course, the 
combustible dust standard that we are looking at now.
    It was surprising to many of us that the Department of 
Labor now has a priority to pass a standard that wasn't even on 
the department's Spring 2007 priority list of 38 potential 
workplace safety regulations and one that could potentially 
make it even harder to protect employees. I wanted to ask you 
why the Department of Labor considers this standard that we are 
hearing about now more important than the 38 other potential 
regulations that we have been waiting for?
    Mr. Foulke. Well, Madam Chairwoman, I would say this with 
respect to your comment about--we are moving quickly on all our 
standards. We are pushing all of them. You mentioned about the 
cranes and derricks standard languishing. It hasn't languished. 
It is just an extremely extensive standard. The committee that 
worked on it, the negotiating and rulemaking committee that 
worked on cranes and derricks just drafted the text. We had to 
go----
    Senator Murray. OK. Now we are hearing about another 
regulation that is going to jump ahead of all the work on other 
regulations. Did your department consult with any of OSHA's 
career scientific staff during the development of this 
standard? Has that been in the works? Have we been hearing 
about it?
    Mr. Foulke. Well, we have been--with respect to the risk 
assessment, rulemaking, we have been involved in providing 
comments to the text. As I understand it, the purpose of the 
rulemaking is to establish policies and procedures for the 
department's agencies to follow when conducting risk 
assessments.
    Senator Murray. You are telling us at this hearing that in 
order to do crane and derrick standards or combustible dust 
standards, you have to go out in the field. You have to do all 
this extensive work. Was that done with this new standard that 
is being pushed through OMB now?
    Mr. Foulke. This is an internal rulemaking. It deals with 
the department's policies and procedures. It is not--this could 
have been done as a guidance document.
    Senator Murray. It will have, as I understand it, severe 
impact on worker safety should it move forward. You haven't 
gone out in the field to ask questions about it?
    Mr. Foulke. I would disagree. The thing is, I am unable to 
comment because it is under current review by the OMB. I can't 
comment on the specifics of it.
    Senator Murray. But your department sent it to OMB, I 
understand?
    Mr. Foulke. The Department of Labor sent it, yes.
    Senator Murray. Department of Labor sent it to them. OK.
    Senator Isakson and Senator Chambliss, do either of you 
have any additional questions?
    Senator Isakson.
    Senator Isakson. Just one question. Mr. Bresland, there are 
approximately 125 different items on this list up here, 
everything from zinc and magnesium to sugar and wood dust. Are 
the properties similar enough to where a single standard could 
apply to all of them, or would you have to have a standard for 
each of them?
    Mr. Bresland. I think the properties that we are talking 
about, the properties of explosivity are similar enough and the 
testing is similar enough that a test or maybe one or two 
different tests could be used to determine the relative dangers 
of these materials, such as the minimum ignition energy or the 
particle size or another property called KST.
    Senator Isakson. I----
    Mr. Bresland. Excuse me, Senator. I think this question 
might be better addressed to one of the people on the next 
panel who is an expert on the issue.
    Senator Isakson. I am going to do that. One other question, 
who does those tests now?
    Mr. Bresland. There are companies that are specialized.
    Senator Isakson. Who initiates them to get those companies 
to do them?
    Mr. Bresland. It would have to be initialized by the 
manufacturer.
    Senator Isakson. Would you think if we did a standard that 
we would need to initiate those tests first to determine those 
properties?
    Mr. Bresland. That would be part of the standard, where you 
would require--I don't know that you would require, but there 
would be something in the standard that would say you have to 
find out if this material is dangerous or not. You would take a 
sample and send it off to the company. Then if it is dangerous, 
you would take the appropriate preventive actions.
    Senator Isakson. In that example, when you say you would 
have to do a test to determine the properties, you are talking 
about the company?
    Mr. Bresland. Correct, yes.
    Senator Isakson. The burden goes back on the company to 
hire the test to determine the volatility of the dust?
    Mr. Bresland. That is typical of industry, certainly the 
chemical and refining industry.
    If I may make just one quick comment on a question you had 
originally on material safety data sheets? I am not sure if my 
answer was completely accurate. We need to follow up on the 
issue of material safety data sheets for sugar, which is a 
product that is regulated by the FDA, and we will get back to 
you on that.
    Senator Isakson. Please, I would appreciate it. Thank you, 
Madam Chairman.
    Senator Murray. Senator Chambliss, do you have any 
additional questions? OK.
    We thank both of you for your testimony. Again, if you 
could please stay in case we do have additional questions after 
listening to the testimony of the second panel.
    If the second panel could please come forward to present 
your testimony?
    Thank you very much to all of our next panelists. Is Amy 
Spencer here? Yes, there you are. OK. We are going to begin 
with Amy Spencer, then turn to Richard Prugh, and then to 
Graham Graham for his testimony.
    Ms. Spencer, as soon as you are seated.
    Go ahead. You can begin.

 STATEMENT OF AMY SPENCER, SENIOR CHEMICAL ENGINEER, NATIONAL 
            FIRE PROTECTION ASSOCIATION, QUINCY, MA

    Ms. Spencer. Good morning, Chair Murray, Ranking Member 
Isakson, Senator Chambliss, Senator Brown. I appreciate the 
opportunity to speak with you about combustible dust and what 
NFPA can do to help workers.
    I am Amy Beasley Spencer, a senior chemical engineer 
representing the National Fire Protection Association (NFPA), 
and I have been with the association for 12 years. I serve as 
the staff liaison to several NFPA technical committees 
responsible for dust documents.
    The title of this hearing is ``Dangerous Dust: Is OSHA 
Doing Enough to Protect Workers?'' Without slighting the many 
successes of OSHA, when answering the question with respect to 
combustible dust, the answer is no. NFPA believes OSHA must 
develop regulations to address and mitigate dust hazards by 
incorporating by reference the relevant NFPA codes and 
standards.
    OSHA, like NFPA, has a record of saving lives. However, we 
cannot allow past successes to breed complacency, especially 
when mounting evidence suggests there is more that can be done, 
more lives that can be saved. Lives that would inevitably and 
predictably be lost during preventable dust explosions such as 
the 13 lives lost at Imperial Sugar.
    The NFPA standards that could have prevented those 
explosions were never made mandatory nationwide. OSHA doesn't 
have to reinvent the wheel. The tools exist in NFPA documents 
to prevent these tragedies. We wouldn't need the 8 years that 
Assistant Secretary Foulke testified about this morning with 
the grain standard to come to fruition if the NFPA codes and 
standards were adopted.
    Today, I will start by providing a brief background of NFPA 
and a description of the relevant codes and standards. NFPA is 
an international membership organization that develops 
voluntary consensus codes and standards that are adopted by 
State and local jurisdictions throughout the United States and 
internationally. The NFPA consensus process and the periodic 
revisions of all documents ensure state-of-the-art practices 
and safeguards are included.
    NFPA has more than 250 committees made up of about 4,000 
experts who represent diverse interests such as enforcers, 
users, consumers, manufacturers, designers, research, 
insurance, and labor. They develop nearly 300 codes and 
standards. The NFPA documents are updated on a 3- to 5-year 
basis through a consensus process involving a balance of 
stakeholders. In fact, one of the NFPA dust committees has 
technical committee members from both the Department of Labor 
and the Chemical Safety Board, CSB.
    Many NFPA codes and standards appear as mandatory 
references cited throughout Federal agency regulations, 
including OSHA. NFPA's principal dust document, NFPA 654, 
covers the fundamentals of protecting dust hazard processes and 
is also often referenced in other dust documents.
    We also have commodity-specific documents covering coal, 
sulfur, combustible metals, wood dust facilities, and 
agricultural dust. I won't bore you with the long names and the 
numerical designations. NFPA provides comprehensive coverage of 
dust hazards in seven dust-related documents originating as 
early as 1923. Assistant Secretary Foulke pointed to the large 
stack of documents on the side. If you adopt NFPA documents, 
you are also adopting all those.
    I took a quick look at the 40 that were referenced. Some 
were mom and apple pie, and I would be happy to address what 
those are, like the National Electrical Code, sprinkler 
standards, exiting standards that you are going to be doing 
anyway. I would love to discuss that later.
    The NFPA documents were highlighted in the recently passed 
Worker Protection Against Combustible Dust Explosions and Fires 
Act, H.R. 5522, as well as the CSB recommendations and 
industrial peer-reviewed journals. OSHA highlights these same 
documents in their National Emphasis Program and their Safety 
and Health Information Bulletin. All our desk documents address 
the hazards of combustible dust in three simple steps.
    First, hazard recognition. You have to know that you have 
the hazard. Second, an evaluation, which includes examining the 
processes and equipment. And last, hazard control.
    In conclusion, OSHA cites statistics that show that there 
are fewer injuries and deaths in the workplace. People often 
think of these statistics as if they are just part of the 
natural evolution of society. Not true.
    The declining number of accidents is the result of decades 
of hard work by dedicated technical experts, the enforcement 
community, first responders, safety advocates, and many others, 
including legislators such as you. Preventing those tragedies 
is the reason that NFPA exists, and that purpose is what brings 
to this hearing today. Let us not ignore the combustible dust 
problem by assuming OSHA has it covered already or attempt to 
reinvent the wheel by having OSHA write new regulations when 
the information already exists in NFPA documents.
    The challenge for us all is to effectively disseminate the 
information, provide sufficient training and enforcement. 
Moreover, I believe the best method to accomplish this safety 
goal is for OSHA to develop a regulation to address and 
mitigate dust hazards by incorporating by reference NFPA codes 
and standards.
    NFPA is committed to assist where appropriate in these 
activities. For all these reasons, we respectfully urge the 
Senate to take any action to ensure that OSHA mandates 
combustible dust safety through the use of NFPA codes and 
standards.
    Thank you for your attention and the opportunity to 
testify.
    [The prepared statement of Ms. Spencer follows:]
               Prepared Statement of Amy Beasley Spencer
    Good morning. Chairman Murray, Ranking Member Isakson and committee 
members, I appreciate the opportunity to speak to you about combustible 
dusts.
    I am Amy Beasley Spencer, a Senior Chemical Engineer representing 
the National Fire Protection Association (NFPA) and have worked at the 
Association for 12 years. I serve as the Staff Liaison to several NFPA 
Technical Committees responsible for combustible dust documents.
    The title of this hearing is ``Dangerous Dust: Is OSHA Doing Enough 
to Protect Workers?'' Without slighting the many successes of OSHA, 
when answering the question with respect to combustible dusts, the 
answer is ``no''. NFPA believes OSHA must develop regulations to 
address and mitigate dust hazards by incorporating by reference the 
relevant NFPA codes and standards.
    OSHA, like NFPA, has a record of saving lives; however, we cannot 
allow past successes to breed complacency, especially when mounting 
evidence suggests there is more that can be done. More lives can be 
saved. Lives that would inevitably and predictably be lost during 
preventable dust explosions such as the 13 lives lost at Imperial 
Sugar. The NFPA standards that could have prevented those explosions 
were never made mandatory nationwide. OSHA doesn't have to reinvent the 
wheel--the tools exist in NFPA documents to prevent these tragedies.
    Today I will provide a brief background of NFPA, a description of 
the relevant codes and standards that address dust hazard processes, 
and conclude with discussion on how I believe these documents could 
provide a safe and effective strategy for identifying and controlling 
processes that store, handle or use combustible dusts or other 
combustible particulate solids.
    NFPA is an international membership organization that develops 
voluntary consensus codes and standards that are adopted by State and 
local jurisdictions throughout the United States and the rest of the 
world. The NFPA consensus process and the periodic revisions of all 
documents ensure state-of-the-art practices and safeguards are 
included.
    NFPA has more than 250 committees made up of about 4,000 experts, 
who represent diverse interests (such as enforcers, users, consumers, 
manufacturers, designers, researchers, insurance and labor) and they 
develop nearly 300 codes and standards. These NFPA documents are 
updated on a 3-5 year basis through a consensus process involving a 
balance of stakeholders. In fact, one of the NFPA dust committees has 
technical members from both the Department of Labor and the Chemical 
Safety Board (CSB).
    Many NFPA codes and standards appear as mandatory references cited 
throughout Federal agency regulations, including OSHA. NFPA codes and 
standards provide a broad-based and comprehensive set of requirements 
applicable to many hazards, including combustible dusts.
    NFPA's principal dust document NFPA 654, Standard for the 
Prevention of Fires and Explosions from the Manufacturing, Processing, 
and Handling of Combustible Particulate Solids covers the fundamentals 
of protecting dust hazard processes, and its handling and conveying 
requirements are often referenced in other dust documents. We also have 
commodity-specific dust documents covering coal, sulfur, combustible 
metals, wood dust facilities and agricultural dust. I don't want to 
bore you with the long names and numerical designations, but NFPA 
provides comprehensive coverage of dust hazards in 7 dust-related 
documents originating as early as 1923.
    The NFPA documents were highlighted in the recently passed Worker 
Protection Against Combustible Dust Explosion and Fires Act (H.R. 
5522), as well as the CSB recommendations and industrial peer-reviewed 
journals. OSHA highlights these same documents in their National 
Emphasis Program and their Safety and Health Information Bulletin. All 
our dust documents address the hazards of combustible dusts in three 
simple steps--hazard identification (starting with knowing you have a 
hazard), hazard evaluation (examining the processes and equipment), and 
lastly, hazard control.
    In conclusion, OSHA cites statistics that show that there are fewer 
injuries and deaths in the workplace. People often think of these 
statistics as if they are just part of the natural evolution of 
society. Not true. The declining number of accidents is the result of 
decades of hard work by dedicated technical experts, the enforcement 
community, first responders, safety advocates and many others, 
including legislators such as you. Preventing those tragedies is the 
reason that NFPA exists, and that purpose is what brings us to this 
hearing today. Let's not ignore the combustible dust problem by 
assuming ``OSHA has it covered already'' or attempt to reinvent the 
wheel by having OSHA write new regulations when the information already 
exists in NFPA documents.
    The challenge for us all is to effectively disseminate the 
information, to provide sufficient training and ensure consistent 
enforcement. Moreover, I believe the best method to accomplish this 
safety goal is for OSHA to develop a mandatory standard to address and 
mitigate dust hazards by incorporating by reference the relevant NFPA 
codes and standards. NFPA is committed to assist where appropriate in 
these activities and for all these reasons, we respectfully urge the 
Senate to take any action to ensure that OSHA mandates combustible dust 
safety through the use of NFPA codes and standards.
    Thank you for your attention and the opportunity to testify.

    Senator Murray. Thank you very much.
    Mr. Prugh.

         STATEMENT OF RICHARD W. PRUGH, SENIOR PROCESS

         SAFETY SPECIALIST, CHILWORTH TECHNOLOGY, INC.,

                         PLAINSBORO, NJ

    Mr. Prugh. Good morning. I should preface my remarks with 
the following statement. Chilworth is recognized around the 
world as a leading expert in combustible dust testing and 
consulting, and we have been working with Imperial on the 
rebuild of the plant in Port Wentworth, GA.
    I am testifying today as to my general expertise on the 
issue of combustible dust and not as Imperial's witness. And as 
such, I cannot answer specific questions pertaining to 
Imperial's particular situation before or after the February 7 
incident.
    Thank you for the opportunity to present some of the 
technical details that are involved in the control of dust 
explosions. The fire triangle shows the necessary components of 
a fire. Similarly, the explosion pentagon shows the necessary 
components of a combustible dust explosion.
    The concentration of fuel in the oxidant is very important. 
For example, the lower flammable limit, the so-called lean 
limit for gasoline is about 1 percent in the air. The upper 
flammable limit, the rich limit is about 6 percent. If the 
concentration is not between these limits, the mixture will not 
burn.
    There is also a lower limit for combustible dust, and it is 
termed the minimal explosible concentration. For example, the 
lower limit for many dusts corresponds to about 2 pounds of 
very fine dust suspended in a 10 foot by 12 foot by 8 foot 
room, like a small bedroom. There is a rule of thumb for 
explosible dust concentrations. If you can see the thumb at the 
end of your outstretched arm, the concentration of dust is too 
low to propagate combustion. That is too low to cause an 
explosion or a flash fire.
    All materials that are combustible can explode under the 
right set of conditions. Concentrations above the minimum 
explosible concentration occur in many items or process 
equipment and are dust collectors when the collected dusts are 
shaken or blown back from the filters. Very high concentration 
of dust within rooms or buildings can occur when accumulations 
of dust are dispersed from mechanical shock, a blast of air, 
dumping bags of powder, and vigorous sweeping.
    Dense dust clouds also can occur when accumulations of dust 
at high elevations in rooms or buildings are disturbed by a 
primary explosion, and ignition of the descending and suspended 
dust cloud can result in a damaging secondary explosion.
    High elevation accumulations of dust can result from the 
use of compressed air for cleaning equipment and services. This 
results in lofting of very small particles to upper elevations, 
where they may settle onto horizontal surfaces. Such 
accumulations are a secondary explosion waiting to happen.
    If the energy of an ignition source is not sufficient, 
propagating combustion cannot be initiated. For many 
combustible dusts, the minimum ignition energy is very low, 
such that the electrostatic energy on the human body can cause 
propagating combustion. Other ignition sources are electrical 
arcs, flames, hot surfaces, and the electrostatic energy on 
ungrounded equipment.
    If the combustible mixture of dust and air is confined, the 
resulting hot combustion gases can generate very high 
pressures. Such pressures can rupture equipment, destroy walls 
and ceilings of rooms and buildings, and threaten personnel. 
The oxidant, the oxygen in the air, can be forced out of 
process equipment by an inert gas. An inert powder or mist can 
quench or suppress the combustion.
    The process equipment can be constructed to contain the 
maximum pressure that could be developed by a dust air 
explosion. Local exhaust ventilation can be provided at 
equipment openings where dust is generated or released. The 
explosion can be vented to minimize the pressure generated by 
the combustion gases.
    When combustion of a small, dense dust cloud occurs in an 
unconfined space, the result can be a flash fire. Persons 
inside the flash fire are at risk of serious injury, 
particularly if they are wearing combustible clothing. Thus, 
persons who handle dusty, combustible powder should be wearing 
flame-resistant clothing.
    At the present time, there exists several legislated and 
guidance documents that could serve as models for Federal rules 
for dust hazard controls. The general duty clause is often used 
by OSHA when there is no specific standard that applies to a 
recognized hazard in the workplace.
    OSHA frequently cites housekeeping standards, but these 
standards do not address the need for preventing and removing 
accumulations of dust on elevated surfaces or address many 
important ignition sources such as hot surfaces, static 
electricity, and open flames or wielding sparks.
    The problem--a very high percentage of dusts are 
combustible, including solid hydrocarbons such as polyethylene, 
carbohydrates such as grains, and many metals such as aluminum. 
Every combustible material will create an explosion with the 
right conditions. At present, all 50 States ``administer'' the 
International Building Code, which contains extensive 
requirements for explosion protection for combustible dust, but 
there is very modest enforcement of this code.
    The solution--companies that produce, process, or handle 
combustible dusts and powders need to determine the 
explosibility properties of their materials. These data should 
then be formally communicated within their organizations and to 
their customers. Plant operators should assess the hazards that 
are associated with processes that are operated in their 
plants.
    Existing today are the technology and knowledge, codes, 
standards and guidelines, and engineering expertise that are 
needed to protect personnel and property from combustible dust 
explosions. An objective of the proposed Federal legislation 
should be to require plant operators to adopt and abide by the 
above guidance toward solution of the existing dust explosion 
problem.
    Thank you.
    [The prepared statement of Mr. Prugh follows:]
                 Prepared Statement of Richard W. Prugh
                              introduction
    Thank you for the opportunity to present some of the technical 
details that are involved in dust explosions and in methods for 
preventing such incidents, with some discussion of existing hazard-
control rules and regulations.
    As stated in the ``Background'' to the National Emphasis Program of 
the Occupational Safety and Health Administration:

          ``Dust deflagration, and other fire and explosion hazards in 
        industries are covered by several OSHA standards and the 
        general duty clause. A chemical dust deflagration occurs when 
        the right concentration of finely divided chemical dust 
        suspended in air is exposed to a sufficient source of ignition 
        to cause ignition (combustion) of the dust. If the deflagration 
        is in a confined area, an explosion potential exists. These 
        materials can also cause other fires. Combustible dust is often 
        either organic or metal dust that is finely ground into very 
        small particles. The actual quantity of dust that may 
        accumulate in an affected area may vary, depending upon air 
        movement, particle size, or any number of other factors.'' 
        [Reference 1]

    Recent incidents have indicated that the hazards of combustible 
materials in dust form either:

    (1) have not been recognized by the persons that have a 
responsibility to protect employees, or
    (2) adequate precautions--in the form of engineering or 
administrative controls--to minimize the hazards have not been taken. 
Aside from exposures to toxic dusts, the most serious of worker 
exposures to dusts involves explosion and flash-fire of clouds of 
combustible dust.

    The most-basic premise in the control of dust-explosion hazards is 
that all materials that are combustible can explode, under ``the 
right'' set of conditions. Thus, it is essential that managers study 
processes that generate dust, to determine the properties of the 
materials involved, identify the conditions that could lead to dust 
explosions, and then take action to prevent such incidents.
                        the right concentration
    Like flammable gases and vapors, there is a lower limit to dust-
cloud concentrations that can result in propagating combustion, if a 
strong ignition source is present. The lower limit is termed the 
Minimum Explosible Concentration [MEC], as distinguished from the Lower 
Explosive Limit [LEL] for gases and vapors. Whereas LELs usually are 
expressed in terms of volume percent, the MECs are expressed in terms 
of grams per cubic meter of air.
    Mixtures of combustible dust and air at and above the Minimum 
Explosible Concentration are very dense. The ``rule of thumb'' for such 
mixtures is that the thumb cannot be seen at the end of an outstretched 
arm. Concentrations above the Minimum Explosible Concentration occur in 
some items of process equipment, such as mills and grinders, mixers and 
blenders, and screeners and sifters, and in dust collectors when the 
collected dusts are shaken or blown-back from the filters.
    However, it is very unlikely that such high concentrations would 
occur in rooms or buildings. Typically, such mixers occur only when 
accumulations of dust are disturbed or dispersed; as examples, by 
mechanical shock, a blast of air, dumping bags of powder, and vigorous 
sweeping. Dense dust clouds also can occur when accumulations of dust 
at high elevations in rooms or buildings are disturbed by a ``primary'' 
explosion, and ignition of the dense dust cloud can result in a 
damaging ``secondary'' explosion.
    High-elevation accumulations of dust can result from use of 
compressed air for cleaning equipment and surfaces. This type of 
cleaning results in ``classification'' of the dust, such that the 
larger particles descend to the floor and the very small particles may 
remain in suspension. Air currents can then loft the small particles to 
upper elevations, where they may settle onto horizontal surfaces, such 
as roof supports, ductwork, tall equipment, process piping, and cable 
trays.
    Unlike flammable gases and vapors, which have rather sharp Upper 
Explosive Limits, most dusts do not have an upper limit for explosible 
concentrations. Flammable gases and vapors at very high concentrations 
in air form a mixture that is ``too rich'' to allow propagating 
combustion. That is, the heat capacity of the ``extra'' gas or vapor 
absorbs the heat of combustion, and flame does not propagate. For high 
concentrations of combustible dust in air, however, the burning dust 
can consume most of the available oxygen in the mixture, but combustion 
may not completely stop. Thus, venting of an explosion from a ruptured 
process vessel or from a dust collector can result in a very large 
fireball, with the size of the fireball being several times the volume 
of the original container.
    There is an ``ideal'' concentration for each mixture of combustible 
dust and air, and ignition of this concentration yields the maximum 
explosion pressure, the fastest burning rate, and--typically--this 
mixture is easiest to ignite. For some dusts, this concentration can be 
calculated and is termed the ``stoichiometric'' concentration. For 
example, the stoichiometric concentration for sugar/sucrose is about 
245 grams per cubic meter; this corresponds to at least 20 million dust 
particles in every cubic foot of air and would be a very dense dust 
cloud.
    Prevention of dust clouds is attained by good design of equipment--
to provide containment of powders and dusts--and good housekeeping--
including prompt and careful removal of spilled powders and dusts.
                    a sufficient source of ignition
    If the energy of an ignition source is not sufficient, propagating 
combustion cannot occur. For many combustible dusts, the Minimum 
Ignition Energy is very low, such that the electrostatic energy on the 
human body can cause propagating combustion. It is more typical, 
however, that somewhat greater energies are required, such as the 
energy in an electrical arc, a flame, a hot surface, or the 
electrostatic energy on ungrounded equipment.
    Preventing ignition of possible dust clouds is attained by 
grounding and bonding of equipment, to prevent accumulation of 
electrostatic charges; installing electrical equipment that will 
prevent intrusion of dusts, with compliance to the National Electrical 
Code; ensuring absence of flames and high-energy arcs, with a ``hot 
work'' permit system; prohibiting smoking in potentially dusty areas; 
insulating or otherwise protecting hot surfaces; and good preventive-
maintenance and mechanical-
integrity programs, to prevent friction and impact-caused ignition 
sources.
                       confinement of combustion
    If the combustion of a mixture of dust and air is confined, the 
resulting hot combustion gases can generate very high pressures. 
Typically, the pressures resulting from dust/air explosions are near 
100 pounds per square inch. Such pressures can rupture equipment, 
destroy walls and ceilings of rooms, severely damage walls and roofs of 
buildings, and threaten personnel.
    Preventing confined combustion of dust/air mixtures can be 
accomplished by installing explosion vents on equipment that could 
contain explosible mixtures. The size of the required explosion vent 
depends primarily on the volume of the equipment--or room, or 
building--and the ability of the equipment--or room or building--to 
withstand internal pressure, and the speed of the combustion reaction.
          preventing explosive combustion of dust/air mixtures
    There are several methods for preventing damaging dust explosions, 
in addition to the explosion-venting described above.
    In one method, the oxidant (the oxygen in air) can be removed from 
processing equipment through the use of an inert gas (such as nitrogen 
or carbon dioxide) to purge the air from the equipment. For many dusts, 
reducing the oxygen concentration by about one-half prevents 
propagating combustion. However, the oxygen concentration must be 
reduced much further for some metal dusts (such as aluminum and 
magnesium).
    Another method utilizes an inert powder or mist to quench or 
suppress the combustion, such that the combustion pressure is limited 
to a few percent of the unsuppressed explosion pressure. Discharge of 
the suppressant can be triggered by flame detectors or the small 
pressure increase that signals the beginning of combustion.
    A third method involves constructing the process equipment to 
withstand the maximum pressure that could be developed by a dust/air 
explosion; thus, ``containing'' the explosion. This method is used 
infrequently, due to the cost of constructing equipment to withstand 
the high pressures attained by dust/air explosions.
    A fourth method involves ``combustible concentration reduction,'' 
by preventing the formation of large high-concentration dust clouds. 
This is accomplished by providing local exhaust ventilation at 
equipment openings where dust is generated or released, with the 
objective of reducing the concentration below one-quarter of the MEC. 
For flammable gases and vapors, floor-level exhaust ventilation and 
general area ventilation (with wall and roof fans) are very effective 
in diluting flammable vapors and preventing the formation of large 
explosible clouds; however, dilution ventilation is not very effective 
for dusts, since particles can settle on surfaces that are outside the 
areas that are swept by the entering and exiting air stream.
    Unfortunately, this fourth method--preventing the formation of 
small-particle dust clouds having high concentrations--cannot be used 
reliably within process equipment because of the variability of powder-
handling processes. For example, attrition and grinding of coarse 
powders during handling, mixing or blending, and conveying usually 
results in formation of more-hazardous small-particle dusts.
    However, use of this fourth method--combustible concentration 
reduction--is important in preventing secondary explosions within rooms 
and buildings. Frequent inspections of areas where combustible dust can 
accumulate, and frequent removal of accumulated dust--thus, ``good 
housekeeping''--can minimize the secondary-
explosion hazard.
                         unconfined combustion
    When combustion of a small dense dust cloud occurs in an unconfined 
space, the result can be a flash-fire, often without pressure effects. 
Although persons outside the flash-fire might not be seriously 
affected, persons inside the flash-fire are at risk of serious injury, 
particularly if they are wearing combustible clothing. Thus, persons 
who handle dusty and combustible powders--or are otherwise exposed to 
flash-fire hazards--should be wearing flame-resistant clothing.
   suggestions for prescriptive and/or performance-based legislation
    There are several existing ``models'' for control of combustible-
dust hazards, ranging from the ``simple and non-specific'' General Duty 
Clause, to the ``all-inclusive'' recent legislation of the State of 
Georgia.

1. General Duty Clause Section 5(a)(1) of the Occupational Safety and 
        Health Act of 1970
    ``Each employer shall furnish to each of his employees employment 
and a place of employment which is free from recognized hazards that 
are causing or are likely to cause death or serious physical harm to 
his employees.''
    The General Duty Clause is often used by OSHA when there is no 
specific standard that applies to a recognized hazard in the workplace. 
OSHA may also use the General Duty Clause when a standard exists, but 
it is clear that the hazards involved warrant additional precautions 
beyond what the current safety standards require [Reference 2].
    Other OSHA standards that can be referenced as a ``general duty'' 
in citations are 29 CFR 1910.22:

    ``(a) Housekeeping. All places of employment, passageways, 
storerooms, and service rooms shall be kept clean and orderly and in a 
sanitary condition.''

and 29 CFR 1910.176:

    ''(c) Housekeeping. Storage areas shall be kept free from 
accumulation of materials that constitute hazards from tripping, fire, 
explosion, or pest harborage.''

and 29 CFR 1910.307:

    ``(a) Scope. This section covers the requirements for electric 
equipment and wiring in locations which are classified depending on the 
properties of the flammable vapors, liquids or gases, or combustible 
dusts or fibers which may be present therein and the likelihood that a 
flammable or combustible concentration of quantity is present. 
Hazardous (classified) locations may be found in occupancies such as, 
but not limited to, the following: . . . agricultural or other 
facilities where excessive combustible dusts may be present, . . .''

    These ``general duty'' requirements provide very limited guidance 
to owners/operators who generate or handle combustible dusts. For 
example, the housekeeping standards do not address the need for 
preventing and removing accumulations of dusts on elevated surfaces, 
and the electrical standard does not address other types of ignition 
sources, such as hot surfaces and static electricity--outside or inside 
equipment--and open flames or welding sparks.
2. OSHA Process Safety Management Standard 29 CFR 1910.119
    ``Purpose. This section contains requirements for preventing or 
minimizing the consequences of catastrophic releases of toxic, 
reactive, flammable, or explosive chemicals. These releases may result 
in toxic, fire or explosion hazards.''
    ``Application. (1) This section applies to the following: . . . .''

    Combustible dusts are not included in the scope of this section, 
but at least six of the listed chemicals are solids at room temperature 
and could form explosible dusts. This standard provides good guidance 
concerning 14 aspects of process safety, and all could be applied to 
control of combustible-dust hazards.
3. OSHA Grain Handling Facilities Standard 29 CFR 1910.272
    ``Scope. This section contains requirements for the control of 
grain dust fires and explosions, and certain other safety hazards 
associated with grain handling facilities.''
    ``Application. Paragraphs (a) through (n) of this section apply to 
grain elevators, feed mills, flour mills, rice mills, dust palletizing 
plants, dry corn mills, soybean flaking operations, and the dry 
grinding operations of soy cake.''
    This standard is limited to control of hazards in grain operations, 
but could be modified to serve as guidance for control of combustible-
dust hazards, generally.
4. NFPA 654, ``Standard for the Prevention of Fire and Dust Explosions 
        From the Manufacturing, Processing, and Handling of Combustible 
        Particulate Solids''
    ``Scope. This standard shall apply to all phases of the 
manufacturing, processing, blending, pneumatic conveying, repackaging, 
and handling of combustible particulate solids or hybrid mixtures, 
regardless of concentration or particle size, where the materials 
present a fire or explosion hazard.'' [This standard excludes--but 
references--the following similar standards: NFPA 61 (Food Processing 
Facilities); NFPA 484 (Combustible Metals); NFPA 655 (Sulfur); and NFPA 
664 (Woodworking Facilities).]
    These standards contain both prescriptive and performance-based 
recommendations concerning the typical operations and equipment in 
dust-generating and dust-handling processes. Alternative approaches to 
hazard control are offered in ``performance-based design options'' of 
NFPA 654 and NFPA 664.
5. Factory Mutual Engineering Corp., Property Loss Prevention Data 
        Sheets 7-76, ``Prevention and Mitigation of Combustible Dust 
        Explosions and Fires'' (2000).
    ``Scope. This data sheet provides preventive measures to reduce the 
frequency of combustible dust explosions, and protection features to 
minimize damage from a combustible dust explosion.''
    This document references NFPA publications but provides much more 
prescriptive and quantitative guidance concerning dust-explosion 
prevention and mitigation.
6. Georgia Rules and Regulations of the Safety Fire Commissioner 
        Chapter 120-3-24-0.8
    ``Promulgation and Purpose: A primary purpose of these rules and 
regulations is to establish the State minimum fire safety standards and 
requirements for the prevention of loss of life and property from fire 
and explosions in facilities that have operations involving the 
manufacturing, processing, and/or handling combustible particulate 
solids including manufacturing processes that create combustible 
dust.''
    This document lists 76 NFPA Codes and Standards, but (perhaps 
inadvertently) omits NFPA 499, ``Recommended Practice for the 
Classification of Combustible Dusts and of Hazardous (Classified) 
Locations for Electrical Installations in Chemical Process Areas.'' New 
subsections have been added to several of the referenced Codes and 
Standards to change a recommended practice to ``Facilities . . . shall 
comply with this standard as a mandatory requirement.''
    Thus, at the present time, there exist several legislated and 
guidance documents that could serve as models for Federal rules for 
dust-hazard controls. The attached document illustrates how the Grain-
Dust standard could be modified for combustible dusts in general. 
However, it is likely that further modifications would be needed to 
cover the wide range of dusts that are encountered in U.S. industries, 
which include coal, pharmaceuticals, plastics, basic chemicals, 
explosives, and many other combustible materials, in addition to 
foodstuffs and grains.
      key points in the prevention of combustible-dust explosions
A. The Problem
    1. A very high percentage of dusts are combustible, including solid 
hydrocarbons (such as polyethylene and polystyrene), carbohydrates 
(such as sugar and grains), and many metals (such as magnesium and 
aluminum); exceptions are materials such as dirt and clay dust, sand, 
limestone and other carbonates, and most oxides.
    2. Every combustible material will create an explosion with the 
right conditions: particle size [fuel], dispersion in air, 
concentration in air [oxidant], ignition energy, and confinement [thus, 
the ``dust-explosion pentagon'' ].
    3. Existing today are: the technology and knowledge; codes, 
standards, and guidelines; and engineering expertise that are needed to 
prevent and mitigate combustible-dust explosions.
    4. Limited generic data are available concerning the properties of 
combustible dusts; data for the specific powders and dusts that are 
involved in the processes of owners/operators usually need to be 
developed, primarily through testing.
    5. At present, there apparently is very-modest enforcement of the 
consensus codes and standards that apply to combustible dusts, although 
all 50 States ``administer'' the International Building Code [http://
www.iccsafe.org/images/pmg/map-IBC.
jpg]. The IBC includes the requirements of the predecessor Uniform 
Building Code, the BOCA Building Code, and the Southern Building Code. 
As such, there are extensive requirements for explosion prevention and 
mitigation for combustible dusts. Similarly, 25 States have adopted the 
International Fire Code [IFC], and municipalities in an additional 16 
States have adopted parts or all of the IFC [http://www.iccsafe.org/
images/pmg/map-IFC.jpg], although there is limited specific guidance 
for control of dust-explosion hazards in the IFC.
    6. The National Fire Protection Association has published 
compilations of several of the Fire Codes, in NFPA 1 [Uniform Fire 
Code] and NFPA 5000 [Building Construction and Safety Code]. Relatively 
few States and municipalities have formally adopted these more-recent 
Codes.
B. The Solution
    1. Companies that produce, process, or handle dusts and powders 
need to generate data concerning the explosibility properties of their 
materials.
    2. The data that are obtained by these companies should be formally 
communicated within their organizations and to their customers via 
media such as Material Safety Data Sheets.
    3. Using the explosion-hazards data, owners/operators should assess 
the hazards that are associated with processes that are operating in 
their plant.
    4. Based on the dust-explosion hazards assessments, owners/
operators should implement preventive and explosion-mitigating measures 
that will protect personnel and property.
    5. An objective of the proposed Federal legislation should be to 
require owners/operators to adopt and abide by the above guidance 
toward solution of the existing dust-explosion ``problem.''
                                summary
    Combustible powders and dusts present significant hazards, but the 
risk of injury and/or property loss can be controlled by ``recognized 
and generally-accepted good engineering practices'', as expressed in 
existing Codes and Standards. The owners/operators of facilities that 
generate or handle such materials should be expected to recognize dust-
explosion and flash-fire hazards in their operations and minimize the 
risk of such incidents, for protection of their employees. Several 
models of prescriptive and performance-based methods for control of 
combustible-dust hazards are available and are in use in many 
industries; these models could serve as the basis for appropriate 
Federal legislation.
                               References
    1. U.S. Department of Labor, Occupational Safety and Health 
Administration, ``Combustible Dust National Emphasis Program'' [re-
issued], CPL 03-00-008 (March 11, 2008).
    2. J.J. Keller & Associates, Inc., ``OSHA Compliance Manual'', page 
OSHA-25 (June 2006).

    Senator Murray. Thank you.
    Mr. Graham.

 STATEMENT OF GRAHAM H. GRAHAM, VICE PRESIDENT FOR OPERATIONS, 
             IMPERIAL SUGAR COMPANY, SUGARLAND, TX

    Mr. Graham. Good morning. Madam Chair, Senator Chambliss, 
Senator Isakson, Senator Brown, my name is Graham Harris 
Graham. My counsel with me today is Philip Hilder.
    At the committee's request, I will address my experience as 
Vice President of Operations at Imperial Sugar Company. I will 
focus on the conditions I witnessed at the Port Wentworth and 
Gramercy Imperial Sugar facilities.
    I will further address actions that I took and recommended 
to abate unsafe working conditions, and for the record, I am 
still employed as Vice President of Operations for the company.
    If I can just give you a few moments of my background. In 
1987, I graduated with a degree in electrical and electronics 
engineering at the University of Strathclyde in Glasgow, 
Scotland. I have multinational experience in civil industries, 
including steel, pulp and paper, packaging, automation, and 
food and drink. In recent years, I have helped turn around 
distressed companies by improving their operations, efficiency, 
and financial performance.
    I began my current position in November 2007. As Vice 
President of Operations, I am responsible for many areas in the 
company, not limited to manufacturing, logistics, quality, and 
customer service. Within a few weeks of joining the company, I 
began to tour its facilities in Georgia and Louisiana. I spent 
5 days walking through the 300-acre Port Wentworth, GA, 
refinery in early December 2007.
    The conditions were shocking. It was, without doubt, the 
dirtiest and most dangerous manufacturing plant I had ever come 
to. The refinery was littered with discarded materials, piles 
of sugar dust, puddles of liquid sugar, airborne sugar dust. 
Electric motors and controls were encrusted with solidified 
sugar. Electrical safety covers and doors were missing from 
live electrical switch gear panels, and a combustible 
environment certainly existed.
    Fire protection equipment was sheathed in dust so thick it 
was impossible to determine if it was operable. Fire huts, 
faded in the sun, stored rotting fire hoses. Fire hoses, fire 
extinguishers had not been checked in recent years, and 
employees could not remember the last time they participated in 
a fire drill or had hands-on fire fighting experience.
    Due to these dangerous conditions, I recommended firing the 
plant manager. Mr. Sheptor, the Chief Operating Officer at the 
time, and Ms. Hastings, Senior Vice President of HR, agreed 
with my recommendation.
    After firing the plant manager, I instructed the operations 
manager at Port Wentworth to identify all known safety 
violations, initiate a housekeeping blitz, and begin a site-
wide cleanup. I sent Mr. Sheptor and Mr. Robert Peiser, 
Imperial Sugar's Chief Executive Officer at the time, a 
bulleted list of my observations, recommendations, and actions.
    The following week, I spent 5 days at the Gramercy, LA, 
refinery. I found the same problems--accumulations of sugar, 
sugar dust, airborne sugar dust, unlocked electrical rooms, 
missing safety apparatus, to name but a few. At the end of the 
week, I sent another bulleted list to Mr. Sheptor and Mr. 
Peiser regarding my findings there.
    In mid-January, I was called to a formal meeting with Mr. 
Sheptor and Ms. Hastings. During that meeting, I was told I was 
too passionate. An employee had complained about language I had 
used caused by a near slip and fall caused by the disgraceful 
conditions on the ground floor of the refinery. I was accused 
of ruining the Chief Operating Officer's relationship with the 
plant. I was instructed to make a peace offering to the 
management teams at Port Wentworth and Gramercy.
    I departed that meeting disappointed and confused. I went 
back to Port Wentworth 2 weeks later or 2 weeks--I am sorry--
before the explosion. Housekeeping efforts had certainly 
improved. They couldn't get any worse. Port Wentworth safety 
coordinators had, under my direction, identified over 400 
safety violations since my previous visit.
    During a meeting with the management team there, I 
congratulated them on the progress. However, the job was not 
done. I reminded the management team of the November 2007 
Domino Sugar explosion, which was caused by accumulated sugar 
dust. I also used the Texas City BP explosion, where workers 
were killed, to stress the consequences of a fatal explosion to 
Imperial, the workers, and their families. Safety and 
housekeeping had to be the No. 1 priority.
    The next day I went to the Gramercy facility. Gramercy's 
management team achieved similar improvements. There were still 
many, many issues to address, especially those related to 
accumulated sugar, sugar dust, and other critical safety-
related matters.
    As with my previous visits, I sent Mr. Sheptor and Mr. 
Peiser summaries of my observations, actions, and my expressed 
concern for the employees' safety, especially those at Port 
Wentworth. I said that I believed a fatal disaster would befall 
the refinery if a fundamental change in the way the plant was 
being operated did not take place.
    On the evening of Thursday, February 7, I took a phone call 
and was informed that the refinery at Port Wentworth had 
exploded. I flew to Georgia the next day and spent a week 
observing the fires being put out, watching bodies being 
recovered from the charred remains.
    Tony Thomas, one of the managers I had met previously 2 
weeks earlier, was the last body to be recovered from the site. 
Over the next few weeks, I attended funerals for those that 
died in the explosion.
    Since the explosion, I have not participated in senior 
management teams or discussions regarding the disaster, the 
recovery, the investigation, or the reconstruction. Rather, Mr. 
Sheptor tasked me with addressing Gramercy deficiencies and 
maximizing productivity.
    At Gramercy, I overhauled the safety culture, systems, 
processes, and procedures, led a massive housekeeping blitz, 
corrected hundreds of safety defects, initiated monthly fire 
drills, and developed and practiced an emergency evacuation 
plan. In March, I assisted OSHA during its inspection of the 
refinery and promptly corrected more violations and infractions 
as they came to light.
    I intend to fully cooperate with this committee. I welcome 
the opportunity to answer any questions the Senators may have.
    [The prepared statement of Mr. Graham follows:]
               Prepared Statement of Graham Harris Graham
    Good morning, Mr. Chairman and committee members. I am Graham 
Harris Graham. My counsel, with me today, is Philip Hilder. At the 
committee's request, I will address my experiences as Vice President of 
Operations at Imperial Sugar Company and focus on the conditions that I 
witnessed at the Port Wentworth and Gramercy Imperial Sugar facilities. 
I will further address description of any actions that I recommended to 
abate unsafe work conditions. I am still employed as the Vice President 
of Operations for the Imperial Sugar Company.
    By way of background, in 1987 I graduated with a degree in 
electrical and electronics engineering from, University of Strathclyde, 
in Glasgow, Scotland. I have multi-national experience in several 
different industries, including steel, pulp & paper, packaging, 
automation and food & drink. In more recent years, I have helped turn 
around distressed companies by improving their operations, efficiency, 
and financial performance.
    I began my current position in November 2007. As Vice President of 
Operations, I am responsible for many areas within the company, 
including manufacturing, logistics, quality and customer service. 
Within a few weeks of joining Imperial's upper management team, I began 
touring its facilities in Georgia and Louisiana.
    I spent five (5) days walking through the 300 acre Port Wentworth, 
Georgia refinery in early December 2007; the conditions were shocking. 
Port Wentworth was a dirty and dangerous facility. The refinery was 
littered with discarded materials, piles of sugar dust, puddles of 
liquid sugar and airborne sugar dust. Electrical motors and controls 
were encrusted with solidified sugar, while safety covers and doors 
were missing from live electrical switchgear and panels. A combustible 
environment existed.
    Fire protection equipment was sheathed in dust so thick it was 
impossible to determine if it was operable. Fire fighting huts, in 
faded, red paint, stored rotting hoses, fire extinguishers had not been 
checked in recent years, and employees could not remember the last time 
they participated in a fire drill or fire fighting training.
    Due to the dangerous conditions, customs and practices, I 
recommended firing the plant manager. Mr. John Sheptor, the Chief 
Operating Officer at the time, and Ms. Kay Hastings, the Senior Vice 
President of Human Resources, agreed with my recommendation. After 
firing the plant manager, I instructed the Operations Manager to 
identify safety violations, initiate a housekeeping blitz and begin a 
site-wide clean up. I sent Mr. Sheptor and Mr. Robert Peiser, 
Imperial's Chief Executive Officer, a bulleted list of my observations 
and recommendations.
    The following week I spent five (5) days at the Gramercy, Louisiana 
refinery. I found similar problems; accumulations of sugar, sugar dust, 
airborne sugar, unlocked electrical rooms and missing safety apparatus, 
to name a few. I sent another bulleted list to Mr. Sheptor and Mr. 
Peiser regarding my findings at Gramercy.
    In mid-January, I was called to a formal meeting with Mr. Sheptor 
and Ms. Hastings. During that meeting, I was told an employee 
complained about language I used after a near slip and fall that I had 
while walking through Port Wentworth's basement. I was also informed 
that I was excessively eager in addressing the refinery's problems. Mr. 
Sheptor accused me of ruining his 11-month relationship with Port 
Wentworth's management team, which he supposedly developed after two 
site visits. I was further instructed to make a peace offering to 
management at Port Wentworth and Gramercy.
    I visited Port Wentworth approximately 2 weeks before the 
explosion. Housekeeping efforts were much improved. Port Wentworth's 
Safety Coordinators had identified over 400 safety violations since 
December. During a meeting I congratulated the management team on their 
efforts; however, there was still a long way to go. I reminded the 
management team of the November 2007 Domino Sugar explosion, which was 
caused by accumulated sugar dust. I also used the Texas City BP 
explosion where several workers were killed to stress the consequences 
of a fatal explosion to Imperial, the workers, and their families. 
Safety and housekeeping had to be a priority.
    The next day I went to the Gramercy Plant. Gramercy's management 
team achieved similar improvements, but there were still issues to 
address, especially those related to accumulated sugar, sugar dust, and 
other critical safety-related matters. As with my prior visits, I sent 
Mr. Sheptor and Mr. Peiser summaries of my observations and expressed 
concerns for the employees' safety, especially those at Port Wentworth.
    On the evening of Thursday, February 7, I was informed of the Port 
Wentworth explosion. I flew to Georgia the next day and spent a week 
observing the fires being put out and watching bodies being recovered 
from Port Wentworth's charred remains. Tony Thomas, one of the managers 
I met with 2 weeks earlier, was the last body recovered from the site. 
Over the next few weeks, I attended funerals for those that died in the 
explosion.
    Since Port Wentworth's explosion, I have not participated in senior 
management team meetings and/or discussions regarding the disaster, the 
recovery, the investigation or the reconstruction. Rather, Mr. Sheptor 
tasked me with addressing Gramercy's deficiencies. At Gramercy, I 
overhauled the safety culture, systems, processes and procedures; led a 
massive housekeeping blitz; corrected hundreds of safety defects, 
initiated monthly fire drills; and developed and practiced an emergency 
evacuation plan. In March, I assisted OSHA during it's inspection of 
the refinery, promptly correcting violations and infractions.
    I intend to fully cooperate with this committee and welcome the 
opportunity to answer any questions that the Senators may have.

    Senator Murray. Thank you very much to all of you for your 
testimony.
    Mr. Graham, let me talk to you first. During Mr. Bresland's 
testimony, we saw pictures of dust accumulation at the Imperial 
Sugar plant at Port Wentworth. They are still in front of us. I 
don't know if you can see them here, but it looks like several 
feet of dust. Is this representative of the conditions that you 
saw prior to the explosion?
    Mr. Graham. Sugar and sugar dust, depending on which area I 
visited, was either ankle, knee, or waist deep.
    Senator Murray. Say that again. Ankle?
    Mr. Graham. Ankle, waist--ankle, knee, and waist deep.
    Senator Murray. You saw sugar up to waist deep?
    Mr. Graham. Yes, ma'am.
    Senator Murray. How do you think the quantity of 
accumulated sugar and airborne dust contributed then to Port 
Wentworth's explosion, in your opinion?
    Mr. Graham. Well, the more fuel in the environment and the 
more fuel that had the potential to become airborne, clearly 
contributed significantly to the detonation when the dust 
ignited.
    Senator Murray. I assume it would take a while for waist 
deep dust to accumulate?
    Mr. Graham. That would be the intuitive thought. In actual 
fact, due to the quantities of sugar being manufactured and due 
to the deficiencies in the apparatus, it would surprise one how 
quickly several thousand pounds of sugar and sugar dust could 
accumulate inside the refineries.
    Senator Murray. If there is, as you say, deficiencies in 
apparatus, then something is blowing it out the wrong way, and 
it is accumulating fairly quickly?
    Mr. Graham. Well, there is about six key areas or systems 
that need to be in place in order to protect the building, the 
apparatus, and the people working inside. You need to have a 
regular, frequent, and thorough housekeeping policy in place so 
that the dust, if it accumulates, is removed.
    You need effective plant maintenance schedules to make sure 
the apparatus is dust tight and prevent sugar dust from getting 
into the general work environment.
    The electrical and mechanical apparatus needs to be 
installed in compliance with the NFPA codes of which there are 
many that accurately describe the standard the apparatus needs 
to be not only designed, but installed to minimize or eliminate 
the risk of an ignition source and the potentially hazardous 
environment.
    You need sufficient ventilation in the unlikely event, 
after doing all of that, should dust get into the environment, 
ventilation will take that out of the environment and push it 
into the general outside atmosphere.
    You need fire and explosion suppression systems installed 
in those hazardous environments, should all of those safety 
measures fail, to prevent an ignition source from propagating 
and causing further destruction.
    Last, but not least, the employees, managers, and operators 
of the refinery need to have an effective evacuation plan, 
should all of the five previous systems fail.
    Senator Murray. Well, we have seen references that you 
warned other Imperial managers about the conditions at the 
plants. What you just listed out, many of those were not being 
done. My understanding is you warned other Imperial managers 
about the conditions. We have seen the e-mails released between 
you and the Imperial Sugar CEO Mr. Sheptor about your concerns 
prior to the explosion on February 7.
    Do you think the plant managers properly addressed the 
concerns you identified about the conditions that you observed?
    Mr. Graham. You have to remember, I had just started in 
November. My first visit to the plants was in early December. 
That is 8 weeks before the explosion. Such was the quantity and 
severity of the problems that I uncovered on each subsequent 
visit, I don't think it was possible in 8 weeks to solve all of 
these problems.
    Senator Murray. During any of the meetings or 
correspondence that you had with Imperial Sugar, did you warn 
them about the dangers in the amount of dust that you saw at 
this facility?
    Mr. Graham. Absolutely.
    Senator Murray. What type of reception did you get to those 
warnings?
    Mr. Graham. I had a collective meeting with the management 
team at Port Wentworth in the middle of January. I had 
approximately 18 people in the room, and I told them quite 
categorically that some of them would probably not be coming 
home soon because they would be at the city morgue due to the 
potential explosive properties that we all found ourselves 
working amongst, due to the excessive volume of dust and, 
indeed, other hazards that I had identified during my visit 
there.
    Senator Murray. You believe that they understood the 
magnitude of what you were explaining to them?
    Mr. Graham. I suspect that some of them had never been told 
that before. Some of them have been told but have become so 
accustomed to working in such conditions, they have become 
normalized to it.
    Senator Murray. Do you believe they were taking your 
warnings seriously at that time?
    Mr. Graham. After I fired the plant manager, I appointed an 
interim plant manager, and that individual had started also in 
November 2007. And he clearly got it.
    They did, indeed, remove thousands of pounds of sugar in 
the environment. Unfortunately, due to the very short time 
constraint, it was clearly not possible to put in all of the 
systems that I previously described in such a way that it would 
have mitigated this disaster in just the short space of 8 
weeks.
    Senator Murray. Well, thank you very much.
    Senator Isakson.
    Senator Isakson. Thank you, Chair Murray.
    Mr. Prugh, as a professional trained in this science, how 
long has it been your knowledge that sugar dust would explode? 
How long have you known that?
    Mr. Prugh. This goes back to the original statement that 
all combustible materials can explode if they are divided 
sufficiently, all combustible materials.
    Senator Isakson. Following up on that question, Ms. 
Spencer, you said you don't have to reinvent the wheel here to 
test for properties, and then you went to refer to NFPA 654, 
which is your comprehensive series of rules, regulations, and 
findings and, I guess, test results on combustible particulate 
solids. Is that correct?
    Ms. Spencer. It is our fundamentals of dust document. Yes, 
Senator Isakson.
    Senator Isakson. Your reference to not re-creating the 
wheel, I mean, I think you were referring to OSHA and Mr. 
Foulke's statement is that if 654 were incorporated as the 
combustible dust standard, it would be sufficient on its own. 
Was that a fair understanding?
    Ms. Spencer. Senator Isakson, the NFPA 654 addressed the 
fundamentals of dust, and there has been a lot of talk today 
about there are so many different types of dust that could be a 
problem. It isn't just sugar dust, and I think we all have an 
understanding of that now. NFPA 654 provides all the 
fundamental basic requirements that you would need to prevent a 
dust explosion.
    Then we have other documents that if you have a specialized 
kind of dust, like a combustible metal, we have additional 
requirements on top of the fundamental requirements. Where 
there are special needs of a different type of particulate, we 
have other documents to address that--sulfur, coal, combustible 
metals, agricultural dust, and wood dust.
    Senator Isakson. Do you have a commodity-specific dust 
document with regard to sugar?
    Ms. Spencer. Sugar would be covered under NFPA 61, which 
covers all agricultural dust, and specifically sugar is noted 
in the document.
    Senator Isakson. Agricultural dust is common enough to 
where the properties would be about the same for all of them?
    Ms. Spencer. Absolutely. There are different properties, as 
Mr. Bresland alluded to earlier, that would make one dust more 
hazardous than another, and that is discussed quite a bit in 
NFPA documents.
    Senator Isakson. Mr. Graham, how long have you known that 
sugar dust was explosive?
    Mr. Graham. From the age of 16. It was common in Scottish 
schools to conduct sugar and starch dust experiments to 
demonstrate the energy contained within that carbohydrate and 
to show the explosive properties of such materials. I have 
worked in other industries, such as the paper industry, and 
have seen it firsthand the consequences of fires caused by 
excessive accumulations of paper dust.
    Senator Isakson. You were hired in November 2007?
    Mr. Graham. Yes, sir.
    Senator Isakson. Is that correct? And the explosion in 
Baltimore was 2007?
    Mr. Graham. About 2 weeks before I started.
    Senator Isakson. Two weeks before. In your resume, you have 
done extensive turnaround work in other industries. Is that 
correct?
    Mr. Graham. Yes. Yes.
    Senator Isakson. Out of curiosity, did you respond to an 
advertisement, or were you sought out when you were employed? 
How did you come to this job?
    Mr. Graham. I was living in Las Vegas at the time and had 
spent nearly 4 years doing turnaround work. The travel is quite 
extensive. I had flown 300,000 miles last year.
    Senator Isakson. Did you seek the job out, or did they seek 
you out?
    Mr. Graham. No, I sought out this company. I had multiple 
different opportunities I was exploring, and I de-selected all 
of those to arrive at this one.
    Senator Isakson. OK. When you were trained in Scotland in 
electrical engineering, do you recall any--during that training 
talking about the explosive properties of dust in manufacturing 
and the cause that electricity could be to an accelerant?
    Mr. Graham. No, the education for electrical engineering at 
university level is purely on the mathematics and the 
philosophy of electricity and the control of it and how it is 
distributed. The environmental impact of dusts coming into 
contact with potential sources of combustion is an experience 
learned through work.
    Senator Isakson. Based on your knowledge, yourself and the 
job responsibility that you had, when you did the inspections, 
the standards that you applied to make the recommendations for 
what needed to be done to improve the safety were standards 
based on your own knowledge. Is that correct?
    Mr. Graham. Based upon my knowledge and references to 
existing code that currently resides in NFPA 654, the National 
Electrical Code, which none of them are rocket science. They 
have been around for decades, and those are standard--commonly 
referred to standards for any installer or designer of 
electrical apparatus.
    Senator Isakson. Which I guess takes us all the way back to 
the general duty standard that OSHA applied in the citations 
they made at Port Wentworth and at Gramercy?
    Mr. Graham. Yes, I have still to read the whole citation 
because of its enormity, but I will be spending the rest of 
this week at Gramercy, for example, getting to grips exactly 
what the inferences are there.
    Senator Isakson. We thank all of you for testifying.
    Mr. Graham. Thank you.
    Senator Murray. Senator Chambliss.
    Senator Chambliss. Mr. Prugh, is there anyway to 
manufacture sugar the way it was being manufactured at Port 
Wentworth without creating dust?
    Mr. Prugh. A principle of dust explosion prevention is 
containment. If you can design equipment to contain sugar 
powder, sugar dust, then there wouldn't be that kind of a 
hazard.
    Senator Chambliss. Well, my question is in the manufacture 
of certain products, you are going to have dust?
    Mr. Prugh. Yes.
    Senator Chambliss. The issue is how do you control it? Can 
you design an exhaust system or a ventilation system of some 
sort that should remove dust from a facility like a sugar 
manufacturing plant that will get it below that minimum 
standard you referred to for making it combustible?
    Mr. Prugh. If containment is difficult for some reason, 
then you can provide what is called local exhaust ventilation, 
some sort of an elephant trunk or other device that will suck 
dust away from the point where it is being released.
    Senator Chambliss. OK. Mr. Graham, when you were hired by 
Imperial Sugar, what was your job description as was given to 
you?
    Mr. Graham. My job description was primarily to run the 
operations of the two refineries at Gramercy and Port 
Wentworth, a sugar re-melt station in Ludlow, KY, to oversee 
production, efficiency, output, as well as customer service, 
quality, distribution, logistics, and also keep track of normal 
manufacturing costs--labor, overhead, etc.
    Senator Chambliss. Well, I am looking at your statement 
here, on page 1, you say, ``As Vice President of Operations, I 
am responsible for many areas within the company, including 
safety and quality control.'' Were you the chief safety 
operator or, excuse me, chief safety official of Imperial Sugar 
Company, in your opinion?
    Mr. Graham. No, sir. The company appointed or had appointed 
for some time a corporate safety manager, who has a staff of 
people at both plants. That function did not report to me when 
I joined the company.
    Senator Chambliss. Well, why do you say you were 
responsible for safety? I am reading your statement here.
    Mr. Graham. Every employee, every manager, every supervisor 
in any company I have ever worked for all contribute to the 
safety of the work environment. The corporate safety function 
is typically a function that provides policies and procedures 
with which the managers, supervisors, and employees execute. My 
job was to execute, where possible, to the best of my ability 
those policies and procedures.
    Senator Chambliss. You went into the Port Wentworth plant 
in December, found any number of egregious violations, which 
you referred to as ``shocking. The facility was dirty and 
dangerous.'' You then made certain recommendations to 
management, recommendations including firing the plant manager, 
correct?
    Mr. Graham. Yes, sir.
    Senator Chambliss. What action was taken?
    Mr. Graham. He was fired.
    Senator Chambliss. You made recommendations for any number 
of safety violation corrections. What action was taken based 
upon that?
    Mr. Graham. Even though the safety function did not report 
to me, I superseded the authority of the people in that 
department and instructed them to work with every functional 
manager at the refinery and immediately that day--starting that 
very day--to go into the refinery in every area, identify every 
known hazard due to electrical covers being exposed, insulation 
missing from steam pipes, safety barriers missing, guardrails 
missing, including obviously the housekeeping, and instructed 
those people to identify what they were, take immediate 
responsive action to either eliminate the risk or mitigate 
until such time they had the resources to fix it.
    Senator Chambliss. Did they act on your recommendation 
there?
    Mr. Graham. Yes, sir, because when I came back----
    Senator Chambliss. Now I hear you. I think you have already 
answered that.
    Now, you had this meeting with employees at the Port 
Wentworth plant in which you, Mr. Graham, having gone into this 
facility, having identified a shocking and dangerous facility 
at Port Wentworth, you made recommendations to the company 
which they followed. You told these folks that if they didn't 
take some corrective action immediately, according to your 
words, some of these folks wouldn't be back, they would be in a 
morgue.
    Why didn't you, Mr. Graham, go to the management of 
Imperial Sugar Company and say, ``By golly, if you don't shut 
this plant down now and clean this up, you are going to have a 
dangerous situation to occur,'' which did occur 2 weeks after 
you said you made that statement? Why didn't you do that?
    Mr. Graham. I did do that. I told Mr. Sheptor that I was 
surprised that we hadn't killed anybody already because the 
plants were so dangerous. I was told that my passion was 
extreme and I had to temper it. I was told to prepare a board 
presentation for the end of January, during which I was going 
to recommend asking for a significant change in the way we 
operated the plant, and I was prevented from doing so.
    Senator Chambliss. Well, Mr. Graham, here we are 6 months 
almost after the incident occurred, and you are still working 
for the same company that you said you gave that kind of 
mandate to? It gives me cause to question your sincerity in 
what you have had to say about this.
    This has been a very emotional, tragic situation that 
occurred in south Georgia and is one in which we want to get to 
the bottom of, obviously, from the standpoint of what happened. 
The ultimate result needs to be safety measures put in.
    I respect what you say about the fact that you made 
recommendations to them, but I really have cause to question 
your sincerity in that. Because if you were, I can't imagine 
after what did happen and you say you made the statements you 
did, why are you still working for this company?
    Thank you, Madam Chairman.
    Senator Murray. Well, Senator Chambliss, I appreciate your 
comments.
    Mr. Graham, I do appreciate your coming and speaking today, 
and I think it is fair for you to be able to respond to those 
questions, and I would give you that opportunity.
    Mr. Graham. Well, thank you. All of the conditions I 
described pre-existed my appointment. My objective today was to 
bring forth the facts laid out before me so that we can 
collectively decide what needs to be done to prevent this sort 
of tragedy happening again.
    The employees of both refineries and, indeed, in the 
industry deserve a safe working environment. The reason I am 
still there is because I believe I can continue to contribute 
to achieving that goal, and I will be taking OSHA's findings 
and moving forward to continue fixing the deficiencies so that 
we can put these people into an environment which they know is 
safe and clean. I will continue to work on that over the next 
several months.
    Senator Murray. Thank you very much.
    Mr. Prugh, can I go back to you? You said that OSHA's 
housekeeping standards are insufficient to address the dust 
standard and that the general duty standard is not specific. 
Doesn't that mean that we need a dust specific OSHA standard, 
in your opinion, to ensure employees know what they need to do 
to prevent explosions?
    Mr. Prugh. Yes, some additional standard is needed. The 
process safety management standard is a good standard, and it 
could be a good model for a dust explosion prevention standard.
    Senator Murray. Ms. Spencer, the pile of paper on the end 
of the desk here was referred to several times as, if we 
adopted a standard, we would have to review all of that. You 
referenced it in your testimony. If OSHA were to adopt a 
standard, would you or would NFPA provide assistance to non-
NFPA adopting States to work their way through all that paper?
    Ms. Spencer. NFPA's record on code assistance is incredibly 
well established, and the assistance that we would provide, as 
I see it, are in three general areas. First, for the enforcers, 
and that would include authorities having jurisdiction, State 
fire marshals, and others.
    And specifically, with respect to dust--I am not even 
talking about all the other hundreds of assistance courses or 
meetings that we have had with enforcers. Just regarding dust, 
we have met with enforcers in Kentucky after the CTA Acoustics 
explosion to educate them about the hazards of dust. We have 
met with authorities having jurisdiction in Massachusetts, and 
that was a proactive. They wanted to learn about the 
combustible dust hazards.
    Most recently, we did a 2-day training seminar at the 
request of the Georgia State fire marshal at the Georgia Fire 
Safety Symposium, where we taught about 100 State fire marshals 
about the hazards of dust. Would we assist with non-NFPA 
States? Georgia is a non-NFPA-1 adopting State. I think our 
record on that is clear.
    Additionally, NFPA committee members are training OSHA 
compliance officers. NFPA has worked extensively with OSHA on 
numerous projects, including dust. We have OSHA members on many 
of our committees, and we assisted with reviewing their Safety 
and Health Information Bulletin. We have trained OSHA 
compliance officers on electrical issues relating to 70(e).
    With respect to industry, a lot of these places where we go 
to talk to enforcers, they invite the local industries in to 
come and learn about dust as well, and that was the case in 
Georgia. We also have seminars, as well as contract seminars 
where NFPA----
    Senator Murray. So you do provide that training?
    Ms. Spencer. We do.
    Senator Murray. Yes, and let me ask you one other quick 
question that I want to understand myself. We have heard some 
concerns that the OSHA dust standards won't work because a 
single rule can't cover all the different materials. Is that 
concern that the NFPA standard is a one-size-fits-all, or does 
NFPA have the capability to look at this in terms of the 
different levels of concern?
    Ms. Spencer. Senator Murray, I believe that with the 
adoption of NFPA 654, it does reference the other special 
hazards with the other special commodities that I mentioned, 
such as dust and combustible metals.
    Senator Murray. So you can deal with a variety of 
materials?
    Ms. Spencer. It absolutely will cover a variety of 
materials.
    Senator Murray. OK. Mr. Graham, let me ask you, in your 
time at Imperial, are you aware of any training provided to 
management or workers about potential dust dangers? Was there 
any training?
    Mr. Graham. Currently, right now, in fact, in a few days, 
we should have completed a training program on the OSHA 
National Emphasis Program for the employees at Gramercy in 
particular. That should be completed by----
    Senator Murray. Was there any training prior to that 
explosion, was there any training being done on dust standards?
    Mr. Graham. I can only speak from the moment that I 
started, which was in the middle of November. I am not aware 
that any specific training programs were in place at that time. 
There may have been before I joined, and I can't say that is 
the case or not.
    Senator Murray. But, you are now putting together a 
training program?
    Mr. Graham. We have already educated the employees at 
Gramercy actually several months ago on a very short refresher 
course. We took Mr. Foulke's advice and retrained the people 
using his National Emphasis Program on combustible dust. Every 
employee at that refinery should be re-educated by the end of 
this month.
    Senator Murray. OK. One final question for you. Were you 
aware of anyone else who expressed concerns to management about 
the conditions at the plant?
    Mr. Graham. I can't obviously speak for the actions of 
other people. It was certainly expressed to me by my operations 
manager at Port Wentworth because he was a new employee 
himself, and he was certainly alarmed, which is why he was 
effective at getting rid of a lot of the housekeeping problems. 
Unfortunately, not enough to prevent this disaster.
    Senator Murray. OK. Senator Isakson.
    Senator Isakson. Ms. Spencer, did I hear you say Georgia 
wasn't an NFPA State?
    Ms. Spencer. It does not adopt NFPA-1. That is correct. It 
adopts the International Fire Code.
    Senator Isakson. Mr. Prugh, in your written testimony, you 
cite Georgia's adoption of the NFPA standards.
    Mr. Prugh. May I add to my previous comment?
    Senator Isakson. Yes, you can.
    Mr. Prugh. The Georgia rules and regulations of the safety 
fire commissioner list 76 NFPA codes and standards, many with 
the statement, concerning these recommendations of the NFPA, 
``Facilities shall comply with the standards as a mandatory 
requirement.'' They have said this about several of the NFPA 
codes.
    Senator Isakson. They have incorporated those 76 in their 
standards within the Georgia law?
    Mr. Prugh. Yes.
    Senator Isakson. Is one of those 654?
    Mr. Prugh. It is. Yes.
    Senator Isakson. So Georgia has responded within the State 
with regard to the explosive properties of dust?
    Mr. Prugh. They have.
    Senator Isakson. In so doing, they did so by adopting 
NFPA's 76 different opines or rules?
    Mr. Prugh. Yes.
    Senator Isakson. OK. I have no further questions, Madam 
Chair.
    Senator Murray. Thank you very much, Senator Isakson.
    I want to thank all of our witnesses for being here today. 
Mr. Graham, I want you to know that your future employment is 
of great interest to Senator Kennedy, who could not be here 
today, as well as Senator Isakson and myself.
    With that, I want everyone to know that the record for this 
hearing will be open for 10 business days. We may have 
additional questions that we would ask people to respond to. 
Those will be submitted to you in writing.
    And with that, this hearing of the subcommittee is 
adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                  Prepared Statement of Senator Harkin

    I thank our dedicated subcommittee Chair, Senator Murray, 
for holding this critically important hearing today. It is 
simply unacceptable that almost 2 years after receiving the 
U.S. Chemical Safety and Hazard Investigation Board's (``CSB'') 
eye-opening combustible dust hazard study, we still have no 
standard for dust levels or remediation. Despite the fact that 
this report describes hundreds of preventable injuries and 
deaths every year, and the fact that the National Fire 
Protection Association has already developed implementable 
standards that would save lives and property in explosions, the 
Occupational Safety and Health Administration (OSHA) has yet to 
issue a proposed rule to specifically address these dust 
hazards.
    At the time this report came out in 2006, I was shocked to 
learn that my home State of Iowa was on the list of a handful 
of States with 15 dust explosions during the period of the 
report. I come from a State with a lot of agriculture. We saw a 
steady increase in grain dust explosions in the 1970s and 
1980s, so OSHA issued a standard for grain handling facilities. 
As a result of something as simple as spraying water or mineral 
oil on the grain to keep the dust down, fatalities from grain 
dust explosions have decreased by 60 percent.
    Unfortunately, as the CSB's report indicates, most workers 
and their employers are not aware of the serious danger posed 
by something as seemingly innocuous as dust. Anyone who has 
tried to start a campfire in the woods knows, however, that big 
logs are difficult to ignite, while smaller brambles are much 
easier to burn, and can be used to light a larger fire. As 
particles of any combustible or explosive substance get smaller 
and smaller, the easier it is for them to catch fire. That 
means small enough particles of almost anything can be 
combustible under the right circumstances. And sometimes, the 
explosion can start somewhere else, and ignite accumulated 
dust.
    Work place safety is an issue that I take very seriously. 
My father worked for many years as a coal miner in one of the 
dozens of coal mines that were located in south-central Iowa. 
They knew all about coal dust, which is highly explosive. Of 
course; it is a fuel source. We have come a long way since 
those days, with the creation of OSHA and MSHA. But we have a 
long way to go. In 2006 there were 5,700 workers killed on the 
job in the United States. And every single day, 12,000 workers 
become sick or are seriously injured at work. It's 
heartbreaking to realize that often these tragedies were 
completely preventable, but weren't in the name of higher 
productivity and increased profits. Today's workers face longer 
hours, intensification of work due to downsizing, increased 
work pace and other changes in work technologies and work 
processes. It's about time that we put that technology to work 
to increase worker safety.
    I thank our guests for coming to testify about this 
critical issue today. I know that workers want a safe 
environment, and employers could use a comprehensive standard 
to clarify their obligations to keep their workers and their 
facilities safe from these preventable fires and explosions.

                 Prepared Statement of Senator Clinton

    It has been nearly four decades since the Occupational 
Safety and Health Act was enacted into law. And while we have 
made great strides in improving the safety of the working 
environment for the Nation's workers, there is still a great 
deal of improvement to be made. One area in particular where 
there is an urgent need for action is the issue of combustible 
dust.
    Catastrophic explosions of dust have become all too common 
in our Nation's factories. When materials in a factory are 
ground into small enough particles and allowed to collect on 
the floor in high concentrations and then dispersed into the 
air, even a small spark can lead to devastating results. There 
have been more than 300 combustible dust explosions in American 
factories since 1980. More than 120 workers have been killed 
and 800 workers injured due to combustible dust in factories 
across the country.
    The Occupational Safety and Health Administration (OSHA) 
has failed to take the steps necessary to protect these 
workers. According to one report, there were 67 dust explosions 
in the last 2 years, and OSHA missed the problem in almost 
every case, citing only a single factory for a dust hazard 
prior to a blast. One retired OSHA inspector told 60 Minutes 
that he had never received training on industrial dust, and 
that he routinely ignored dust problems at factories in his 
inspections.
    And even though the U.S. Chemical Safety and Hazard 
Investigation Board issued a report almost 2 years ago finding 
that combustible dust explosions are a ``serious hazard'' and 
strongly recommending that OSHA issue safety standards that 
would track the voluntary standards developed by the National 
Fire Protection Association. However, OSHA has failed to issue 
any such regulations. Decades ago, when grain elevators were 
exploding at an alarming rate, OSHA issued safety standards 
confined to the handling of grain dust. As a result, dust 
explosions decreased by more than 40 percent, and fatalities 
dropped by 60 percent.
    Unfortunately, the reluctance of OSHA to act in this area 
is only all too typical of the Department of Labor in this 
Administration. The Administration has dragged its heels for 
years on regulations not only for combustible dust, but also 
cranes and derricks, personal protective gear, diacetyl, and 
mine safety, to name just a few. OSHA has also consistently 
failed to enforce the laws and regulations that are on the 
books. And yet, in the closing months of the Administration, 
political appointees have rushed to issue a secret rule sought 
by the business community to make it more difficult to regulate 
workers' exposure to chemicals and toxins.
    Too many workers are dying unnecessarily. And yet we can 
take concrete steps to address this problem. Earlier this year, 
the House passed legislation that would require OSHA to act in 
90 days to implement the recommendation that OSHA issue a dust 
standard. The legislation awaits action in the Senate. An ever 
growing chorus of experts, industry leaders, and newspapers are 
urging OSHA to act to provide guidance on the hazards of 
combustible dust. I pledge to work with my colleagues to add 
Congress's voice to this chorus.

                  Prepared Statement of Senator Obama

    I thank the Chair for holding this hearing and continuing 
to demand that the Administration enforce the laws that protect 
workers. In 2006, the U.S. Chemical Safety and Hazard 
Investigation Board (CSB) issued an investigative report 
recommending that the Occupational Safety and Health 
Administration (OSHA) quickly issue a combustible dust standard 
to prevent and mitigate the seriousness of dust explosions in 
the workplace. CSB had found that from 1980 to 2005, 281 dust 
explosions in the United States had killed 119 workers and 
injured 718. Despite this mounting death toll, OSHA rejected 
the recommendation. Since that time, there have been 82 more 
serious combustible dust explosions.
    The most serious of these explosions happened on February 
7, 2008, when there was a massive explosion at the Imperial 
Sugar refinery in Port Wenworth, GA. Thirteen workers were 
killed and several are still in the hospital burn unit. The CSB 
and OSHA have confirmed that combustible dust caused the 
disaster.
    It is past time to issue a standard to prevent these kinds 
of accidents and if the agency will not do so, then Congress 
must legislate one.
    As I have said before, this Department of Labor has used 
its regulatory authority as if its mandate were to err on the 
side of corporations over the public interest--even when its 
decisions undermine the spirit of the law and puts workers' 
lives at risk. And the evidence that this Department is failing 
to fulfill its mission continues to grow.
    Earlier this year, the majority staff prepared a report 
titled, ``Discounting Death: OSHA's Failure to Punish Safety 
Violations That Kill Workers,'' showing that OSHA 
systematically imposes small fines on employers, even in cases 
where safety violations led to a worker's death. And it almost 
immediately discounts a fine if the employer contests it.
    Unfortunately, this record of lapsed or absentee 
enforcement efforts appears to be systemic, as two recent 
Government Accountability Office (GAO) reports shed light on 
serious problems at the Wage and Hour Division (WHD). One 
report addressed the overall effectiveness of the Division's 
enforcement procedures, finding that WHD is not adequately 
assuring employer compliance. It found that the WHD did not 
effectively take advantage of available information and tools 
in planning and conducting its compliance activities; WHD 
failed to use key data on complaints and input from external 
groups--such as employer and worker advocacy organizations--to 
inform its planning process. This report also found that WHD 
focused on the same four industries from 1997 to 2007, despite 
information from its own commissioned studies that there were 
other low-wage industries that had equally high rates of 
potential wage and hour violations. Finally, GAO concluded that 
the agency does not sufficiently leverage its existing tools 
and partnerships to encourage employers to comply with the law.
    Another GAO report found alarming lapses in the 
Department's handling of individual worker complaints. GAO 
found frequent instances where WHD: (1) inappropriately 
rejected complaints based on incorrect information provided by 
employers; (2) failed to make adequate attempts to locate 
employers; (3) did not thoroughly investigate and resolve 
complaints, and (4) delayed initiating investigations for 
excessive periods of time.
    By some estimates, more than 50,000 Americans lose their 
lives every year due to workplace accidents or job-related 
diseases. For American workers, that's about one work-related 
fatality every 10 minutes--or 150 working families every single 
day that suffer a terrible tragedy, losing a father or mother, 
a husband or wife, a son or a daughter. In the report issued by 
this committee, a few of those husbands and wives and fathers 
and mothers expressed their pain of loss and deep distress that 
OSHA has refused to penalize firms to a level necessary to lead 
to safer workplaces and discourage additional deaths.
    And occasional large fines in isolated cases like Imperial 
Sugar will not solve the problem. Fines and penalties have to 
be applied systemically when violations occur to encourage 
compliance by other employers, and the agency needs to issue 
standards in a timely and effective manner. In this case it did 
not.
    The Department of Labor is suffering from a dangerous lack 
of leadership and focus, and workers are paying the price. This 
hearing is only the latest in a series of events that make it 
clear that the Secretary and her team need to re-double their 
efforts to enforce the protections workers are due under the 
law.
    Thank you.
 Prepared Statement of the American Society of Safety Engineers (ASSE)
    On behalf of its 32,000 member safety, health and environmental 
(SH&E) professionals, the American Society of Safety Engineers (ASSE) 
commends Congress for its efforts to address the occupational risks 
posed by combustible dust. On job sites in various industries across 
the country, our members work with their employers to manage hazards 
associated with combustible dust from the wide variety of sources it is 
derived. Based on their front-line experience and training, ASSE urges 
caution in moving ahead to address this issue legislatively without 
developing a deeper understanding of current Occupational Safety and 
Health Administration (OSHA) standards, their enforcement by OSHA and 
State occupational safety and health plans, and the approach taken to 
manage combustible dust risks through national consensus standards.
    The risks to workers and employer property and communities posed by 
combustible dust are significant. The 2006 study by the U.S. Chemical 
and Safety Hazard Investigation Board (CSB) identified 281 dust fires 
and explosions that occurred at U.S. businesses between 1980 and 2005--
not including primary grain handling or underground coal dust 
explosions. (The CSB study can be found at http://www.csb.gov/
index.cfm?folder=completed_investigations&page=info&INV_ID=53.) These 
incidents killed 119 workers, injured 718, and extensively damaged 
industrial facilities. Injuries or fatalities occurred in 71 percent of 
these incidents. Now, given recent news accounts of the Georgia dust 
explosion that killed 13 workers and injured 40 and threatened the 
economic well-being of a community, ASSE understands the urge to find a 
legislative solution, as reflected in the ``Combustible Dust Explosion 
and Fire Prevention Act of 2008'' (H.R. 5522) introduced by House 
Committee on Education and Labor Committee Chairman George Miller. If, 
after thoughtful deliberation, Congress determines legislation is 
needed to address failures in regulating combustible dust, there is 
much in Chairman Miller's approach that ASSE can support.
    Most importantly, ASSE supports the assurance contained in H.R. 
5522 that any new OSHA rule concerning combustible dust will not be 
less effective than the National Fire Protection Association (NFPA) 
voluntary consensus standards. This requirement is consistent with the 
duty established under Public Law 104-113, ``The National Technology 
Transfer and Advancement Act of 1995,'' and OMB Circular A119. In 
Public Law 104-113, Congress ordered that:

          (A)ll Federal agencies and departments shall use technical 
        standards that are developed or adopted by voluntary consensus 
        standards bodies, using such technical standards as a means to 
        carry out policy objectives or activities determined by the 
        agencies and departments.

    H.R. 5522 appropriately identifies NFPA's Standard on Prevention of 
Fire and Dust Explosions from the Manufacturing, Processing and 
Handling of Combustible Particulate Solids (NFPA 654) and its Standard 
for Combustible Metals (NFPA 484). To be consistent and thorough, the 
bill needs likewise to reference NFPA's Standard on Prevention of Fires 
and Explosions in Wood Processing and Woodworking Facilities (NFPA 
664), its Standard on Prevention of Fires and Dust Explosions in 
Agriculture and Food Processing Facilities, (NFPA 61) and other widely 
adopted NFPA consensus standards addressing deflagration venting (NFPA 
68), electrical classification (NFPA 70 and 499), static electricity 
(NFPA 77) and explosion prevention/protection systems (NFPA 69).
    Where ASSE has difficulty in any approach by Congress to address 
regulatory issues is setting unrealistic dates for action by Federal 
agencies. H.R. 5522 would require an interim final standard to be 
promulgated by OSHA within 90 days of enactment followed by a final 
standard with 18 months. No doubt, the feeling that Congress needs to 
compel action in this case is fueled by the lack of standard-setting 
activity by occupational safety and health agencies under the current 
Administration. However, ASSE's own assessment of the complexities of 
this issue coupled with the complexities unfortunately posed by the 
current statutory obligations under the Administrative Procedure Act, 
the Small Business Regulatory Fairness Act (SBRFA) and the regulatory 
and economic impact analyses required under Executive Order 12866 lead 
ASSE to conclude that completion of a final rule within 24 months is a 
more realistic goal. Further, ASSE advises that the technical and 
policy issues involved here are so complex that Congress would be well 
advised to mandate that OSHA approach the issue in a way that mirrors 
the successful voluntary consensus-building process successfully used 
by industry and the occupational safety and health community to address 
combustible dust, which is available to OSHA through negotiated 
rulemaking.
    If this were an issue not already addressed by OSHA, industry and 
the safety and health community in a largely adequate way, ASSE could 
understand the need for immediate action by Congress. But, from all 
reports of our members working to address combustible dust hazards, 
there is no simple glaring failure that quick action by Congress would 
easily fix. In fact, our members report largely adequate action on 
OSHA's part, given the limits of its resources.
    Currently, 17 different OSHA regulations address combustible dust 
hazards. In addition to Section 5(a)(1) of the OSH Act (General Duty 
Clause), OSHA lists the following standards as applicable to regulating 
different aspects of the combustible dust issue: 1910.22, Housekeeping; 
1910.38, Emergency action plans; 1910.94, Ventilation; 1910.119, 
Process Safety Management; 1910.132, Personal Protective Equipment; 
1910.146, Permit-required confined spaces; 1910.157, Portable fire 
extinguishers; 1910.165, Employee alarm systems; 1910.176, Handling 
materials--general; 1910.178, Powered industrial trucks; 1910.263, 
Bakery Equipment; 1910.265, Sawmill Operations; 1910.269, Electric 
power generation, transmission, and distribution; 1910.272, Grain 
handling facilities; 1910.307, Hazardous (classified) locations; and 
1910.1200, Hazard communication. Further, the National Special Emphasis 
program for combustible dust that OSHA re-issued in 2008 is a 
commendable resource for bringing notice and attention to this issue 
among employers and the occupational safety and health community.
    In ASSE's own informal discussion with its members who are experts 
managing combustible dust risks, we have not been able to identify any 
recent incident whose hazards were not already addressed by these 
standards and the outreach information that OSHA already has in place. 
In addition, workplaces' protections from dust hazards are enhanced 
through NFPA's widely adopted and understood voluntary consensus 
standards, which are enforced not only by employers working with SH&E 
professionals but often also by fire departments that take an interest 
in working with employers to avoid hazards with the assistance of the 
NFPA standards. Also, design engineers and architects working on new 
production facilities look to the NFPA standards if such facilities are 
not covered by local or State fire prevention and building codes.
    These resources should give Congress some assurance that a 
reasonable amount of time can be taken to ensure that a legislative 
approach not only takes into account the measures proposed by H.R. 
5522, but also several other issues not addressed by the current 
legislative proposal.
    Perhaps the most important issue not addressed by current 
legislation is the adequacy of OSHA's resources to conduct inspections. 
OSHA's ability to inspect this Nation's workplaces with the limited 
number of inspectors it is able to employ is a long-standing issue of 
concern. Inadequate inspection resources not only causes OSHA to miss 
dangerous workplaces, but inspections that are hurried or done without 
an adequate basis in training can also result. With regard to dust, if 
only 50 of OSHA's 1029 inspectors have had ``extensive dust training,'' 
as Assistant Secretary Edwin Foulke, Jr., told 60 Minutes recently 
(http://www.cbsnews.com/stories/2008/06/05/60minutes/
main4157170_page3.shtml), then a bill that does not address OSHA's 
resources to inspect workplaces competently where combustible dust can 
be a hazard will not address any current failure to prevent future 
explosions. It is critical that OSHA's compliance officers receive 
adequate training in order to identify and address combustible dust 
risks. More standards, no matter how effective, without the adequate 
capability to enforce them will not be adequate to address this hazard 
when workers' lives are at stake.
    Reasonably adequate time also would allow Congress working with 
OSHA and the occupational safety and health community to address what 
may be the key underlying difficulty with the current regulatory 
approach to combustible dust. Given 17 different regulations impacting 
combustible dust risks, it is reasonable to expect difficulties in 
employers' efforts to establish a cohesive and effective combustible 
dust hazard management program in a workplace. A cooperative effort 
driven by congressional commitment to this issue should ideally look 
for a way to examine OSHA's regulations and outreach resources 
addressing combustible dust in light of the NFPA consensus standards 
and CSB's recommendations on this issue. While no simple answer to the 
complexities involved in managing combustible dust exists, a more 
organized, comprehensive approach by OSHA is needed to facilitate 
compliance.
    Whether the ultimate answer is expansion of the process safety 
management standard, utilization of applicable sections of the grain 
dust standard for other industry sectors, or development of a stand-
alone combustible dust standard is not clear at this point. ASSE's 
primary concern is that an answer to the current difficulties involving 
combustible dust risk management be based on sound science and done in 
a way that affords all stakeholders due process, without any undue 
delay.
    As always, ASSE stands ready to offer the expertise and front-line 
experience of our members in managing worksite hazards as this 
subcommittee grapples with the best way to help ensure all workers are 
adequately protected from risk factors associated with combustible 
dust.
               Prepared Statement of William J. Hargraves
    My name is William J. Hargraves. I am providing this statement 
voluntarily for consideration by the U.S. Senate Health, Education, 
Labor, and Pension Subcommittee on Employment and Workplace Safety. 
This statement is based on my personal knowledge of the facts stated 
herein.
    Until my retirement in January 2008, I was employed by the U.S. 
Occupational Safety and Health Administration (OSHA). During the past 
28 years, I worked as an OSHA inspector, assigned to the Springfield, 
MA OSHA Area Office. My job classification and concentration was in the 
field of Industrial Hygiene.
    As an OSHA inspector, I received extensive training on OSHA's 
general and specific industry standards. I also received training on 
inspection methods and procedures. In my 28 years as an inspector, 
however, I never received training on the potential hazards of 
combustible dust in the workplace. I was never provided an opportunity 
to attend or provide training on the hazards of combustible dust. As 
described below, my knowledge of combustible dust hazards was achieved 
only as a result of my experience in personally investigating a 
multiple fatality accident caused by a combustible dust explosion.
    It was my experience as an OSHA inspector that any knowledge of the 
hazards of combustible dusts was retained locally within OSHA Area 
Offices and Regions. The local knowledge and expertise developed from 
investigations often remained only within the area offices and it was 
not routinely shared with other offices. For example, OSHA Regions 
where agricultural activities were more concentrated may have had wider 
knowledge of combustible dust hazards due to the long history of grain 
dust explosions. OSHA responded to grain dust hazards in 1987 by 
issuing a health and safety standard, 29 CFR 1910.272--Grain Handling.
    On February 25, 1999, an explosion and fire occurred in the Shell 
Molding Department of Jahn (pronounced ``yon'' ) Foundry in 
Springfield, MA. Three employees died and nine were severely burned. A 
joint foundry investigation team, led by OSHA compliance officers of 
the Springfield Area Office, determined that the most likely cause was 
a machine malfunction that provided a source of ignition for the 
eventual dust explosion of a phenol-formaldehyde resin dust used in the 
molding process. I served as the co-lead investigator for OSHA. The 
OSHA lead investigators wrote the final report of the events.
    Jahn Foundry had been inspected by OSHA compliance officers 
repeatedly during my time in the Springfield Area Office. I was one of 
the compliance officers who went to the foundry within 3 years of the 
tragic dust explosion. The inspection I conducted (approximately 1996) 
was generated by an employee complaint of oil mist in the machine shop. 
Other plant areas were visited, including the Shell Molding Department, 
and my memory of the housekeeping was unremarkable given that the 
nature of the foundry business is dust-producing and visibly dirty. 
However, the conditions were not excessively so obvious that it caught 
my attention. I did not give any regard to the nature of the dust and 
its potential hazards because it was unknown to me as dangerous. At the 
conclusion of my inspection, Jahn Foundry received no citation for any 
violation of OSHA standards.
    Returning to Jahn Foundry after the 1999 explosion and fire, the 
role of dust in the events leading up to the conflagration was clearly 
obvious. Our investigation found that shell molding stations were 
inches-deep in sand and resin; horizontal surfaces were covered in 
similar accumulations; and internal ducts of the ventilation system had 
several inches of resin and fine dust accumulation. The initiating 
event was either an ignition of resin dust particles by the open flame 
of a shell molding machine, or a failure of natural gas valves in the 
machine, which provided another source of ignition. The flame front 
entered the ducts, causing an internal explosion inside the ducts, 
which caused the combustible resin dust on horizontal surfaces of the 
steel framework (where the ducts were attached) to become suspended in 
the air. The blow back of the duct work explosion ignited the suspended 
resin dust, causing the roof to lift and the walls to fail, resulting 
in severe injuries to 12 workers. The shell mold operator at the 
station that was identified as the most likely to be the source of 
ignition died of burns within hours of the event.
    The resin dust remained easily observable after the explosion. The 
resin dust was explosive as a finely divided powder. It could not 
sustain a fire. After exploding, the settled resin dust simply charred 
and extinguished itself. Breaking of the charred surface revealed the 
distinguishing yellow color of the resin underneath.
    Following the Jahn Foundry explosion, the company received a 
citation with 22 violations and a total penalty of $115,000. For the 
conditions related to the resin dust and fatalities, OSHA cited a 
``Willful'' violation of 29 CFR 1910.22(a)(1): ``All places of 
employment, passageways, storerooms, and service rooms shall be kept 
clean and orderly and in a sanitary condition.'' In issuing this 
``housekeeping'' violation, we relied on the National Fire Protection 
Association (NFPA) Standard 654--Standard for the Prevention of Fire 
and Dust Explosions from the Manufacturing, Processing and Handling of 
Combustible Particulate Solids. OSHA did not have, nor does it 
currently have, a comprehensive standard directly relating to 
combustible dusts.
    In my opinion, the lack of a comprehensive standard that directly 
addresses the hazards of combustible dust in General Industry leaves a 
significant number of employers and employees without knowledge of how 
to identify, evaluate and resolve potential combustible dust 
explosions. Having a comprehensive standard for combustible dust would 
aid OSHA Compliance Officers as much as it would employers. During the 
rulemaking process, employers, manufacturers, scientists, and other 
regulators would have an opportunity to review and comment on the 
proposed standard. The rulemaking process and final comprehensive 
standard would eliminate the problems with OSHA's use of general and 
vague standards, such as the General Duty Clause (Section (5)(a)(1) of 
the OSH Act of 1970) and references to nongovernmental entity consensus 
standards (like NFPA) to cite employers for dust hazards. Moreover, a 
peer-reviewed standard for combustible dust would mean: (1) everyone 
starts from the same point; (2) OSHA will publish clear notification to 
employers; (3) OSHA will publish an inspection directive for compliance 
officers to follow and for employers to reference on the OSHA Web site; 
and (4) OSHA would include with the standard a ``Combustible Dust 
Compliance Program,'' with guidance as to how employers could manage 
and control the hazards of combustible dust.
    In my opinion, I also believe OSHA should address potential 
deficiencies in manufacturer's Material Safety Data Sheets (MSDS) under 
29 CFR 1910.1200--Hazard Communication. The MSD sheet has been a part 
of OSHA regulation for almost 20 years. I determined during the 
inspection following the Jahn Foundry explosion that the MSD sheet for 
the phenolformaldehyde resin did not adequately address the explosion 
potential. The MSD sheet provides the first source of knowledge of 
hazards. Manufacturers use the MSD sheet to provide minimum information 
with product liability the most obvious reason. Because the extent of 
the combustible dust hazard is so wide, it would be appropriate for 
OSHA to begin revised rulemaking to update 29 CFR 1910.1200.
    I have reviewed OSHA's recently published National Emphasis Program 
(NEP) on combustible dust hazards. When OSHA published the NEP in 
October 2007, it was the first time that I and other compliance 
officers witnessed an attempt by OSHA to address a long-standing issue. 
It was acutely apparent to me that seeing this effort 9 years after 
Jahn Foundry that OSHA was under scrutiny. In the review of the NEP, I 
did note that it was a ``re-issuance.'' I could not recall the original 
issuance, so I questioned fellow compliance officers. Indeed, they also 
did not recall an original issuance.
    According to the NEP, OSHA claims to have regulated combustible 
dust hazards through multiple existing standards, such as the 
housekeeping standard, electrical standards, and the general duty 
clause. In my experience as an OSHA inspector, I believe this shot gun 
approach, using general and vague standards that do not directly 
address dust hazards, has been an insufficient means to educate 
employers about how to control these hazards and prevent combustible 
dust explosions.
    From my experience as an OSHA inspector, I know that employers are 
not aware that the General Requirements for Walking-Working Surfaces 
(29 CFR 1910.22) contains a housekeeping regulation that OSHA applies 
to the management of combustible dust hazards. The housekeeping part of 
the General Requirements for Walking-Working Surfaces (29 CFR 1910.22) 
does not even address dust, and certainly does not address the hazards 
of combustible dust. The General Requirements for Walking-Working 
Surfaces (29 CFR 1910.22) is a general and broad standard that does not 
provide specific information for employer compliance. Employers who 
have had dust explosions followed by an OSHA inspection learn only 
after the fact that this standard will be applied by OSHA. For example, 
the Jahn Foundry dust explosion citations were issued under the General 
Requirements for Walking-Working Surfaces (29 CFR 1910.22). To show a 
recognized industry hazard of combustible dusts, OSHA relied on a 
consensus standard, the National Fire Protection Association standard 
654--Standard for the Prevention of Fire and Dust Explosions from the 
Manufacturing, Processing and Handling of Combustible Particulate 
Solids.
    The NEP relies on references to 13 different consensus standards by 
the National Fire Protection Association (NFPA). In my experience as an 
OSHA inspector, employers are not knowledgeable about consensus 
standards unless such standards are specifically adopted as OSHA 
standards. Therefore, I believe OSHA's reference to consensus standards 
is ineffective as a means to educate employers on the hazards of 
combustible dust.
    I have inspected hundreds of workplaces where combustible dust may 
have been present. Only subsequent to my experience with the Jahn 
Foundry explosion did the potential hazards of combustible dusts become 
an integral part of my inspection process. In fact, it became a part of 
my Area Office compliance staff 's knowledge and concern. After 
February 1999 (Jahn Foundry), the Springfield Area Office proposed and 
issued citations using either the General Requirements for Walking-
Working Surfaces (29 CFR 1910.22) (referencing NFPA 654) or the General 
Duty Clause (OSH Act Sec. 5(a)(1)) (referencing NFPA 654). For example, 
in one case, a manufacturer of desktops and seats for school furniture 
utilized a combination of wood flour and melamine-formaldehyde resin. 
Dust in the Blending Area was inches thick on horizontal surfaces. The 
dust migration to the steel support beams throughout the plant created 
a severe combustible dust hazard.
    The presence of combustible dusts in manufacturing is pervasive and 
crosses the spectrum of processes. Jahn Foundry and the school 
furniture manufacturer noted above are just representatives of the 
potential breadth of the problem. The processes are different between 
them, yet the same hazard potential exists for both.
    Based on my experiences when inspecting workplaces over the past 28 
years, I know employers are not knowledgeable about the hazards of 
combustible dusts. In my opinion, this lack of knowledge shows that 
OSHA's current approach is ineffective and inadequate. The scattered 
method of relying on existing vague OSHA standards, combined with a 
failure to provide employers a means to identify, evaluate and control 
combustible dust hazards, is not working.
    I support the efforts of Congress to require a comprehensive 
standard that gives clear guidance to employers regarding dust hazards 
and the methods to control those hazards. I believe employers and 
workers would greatly benefit from the enactment of a comprehensive 
combustible dust standard.
    Thank you for considering this statement in connection with this 
hearing. If I can provide further information or assistance to the 
subcommittee, please let me know.
              Prepared Statement of Imperial Sugar Company
    On February 7, 2008, the employees and contractors of Imperial 
Sugar Company experienced a workplace tragedy at our sugar refinery in 
Port Wentworth, GA, which we now believe was related to combustible 
sugar dust. We lost 13 members of the Imperial Sugar family as a result 
of this tragic event, and many more were severely injured. Many lives 
were saved, however, by the heroic efforts of the first responders, 
emergency services personnel, and medical professionals in Port 
Wentworth and surrounding areas. Words cannot express the Company's 
appreciation to these individuals for their service in our time of 
crisis.
    Imperial Sugar Company is also deeply thankful for all of those who 
have come to the aid of our employees, contractors and their families 
in this time of great suffering and loss. Local, State and Federal 
officials, including our elected representatives in Georgia, and others 
have shown tremendous support for our Company family, and we very much 
appreciate their continued support. We are grateful to everyone who has 
helped us along the long road to recovery.
    Imperial Sugar Company offers its deep appreciation to Chairwoman 
Murray and Ranking Member Isakson for holding this hearing on the need 
for health and safety standards regarding combustible dust in American 
workplaces. Imperial Sugar Company supports Congress's desire for 
combustible dust standards that will make workplaces safer. There is no 
doubt that the sugar industry would benefit from the enactment of 
combustible dust standards. It is our view that a clear standard would 
assist employers in understanding the hazards of combustible dust and 
the means to reduce or prevent such hazards. We believe that prior to 
February 7, there was an insufficient understanding of the hazards of 
combustible dusts both within the sugar industry and within the 
Occupational Safety and Health Administration.
    Prior to the February 7, 2008 tragedy at Port Wentworth, Imperial 
Sugar was working diligently regarding the safety and health of our 
employees and contractors.

    <bullet> At the time of the February 7, 2008 accident, the Port 
Wentworth plant's total rate of recordable injuries had been steadily 
reduced by 33 percent since 2005.
    <bullet> The last time OSHA had inspected the Port Wentworth plant 
was in 2000, when it conducted two inspections during May and June of 
that year. Neither of those inspections resulted in any citations 
against Imperial Sugar.
    <bullet> At the time of the February 7 accident, almost half of the 
Port Wentworth plant managers and supervisors had completed OSHA's 30-
Hour Course for general industry, in addition to plant-specific safety 
training. Developed by OSHA, this 30-hour course trains employees in a 
wide range of safety and health hazard recognition and prevention.
    <bullet> At the time of the February 7 accident, Port Wentworth 
maintained a First Responder Team of 50 employees. These employees 
attend an intensive 40-hour initial course on such topics as incident 
command, emergency response, first aid/CPR, fire prevention and 
protection, incipient fire response, hazardous materials, and high 
angle rescue. They also attend an annual 24-hour refresher course.
    <bullet> In early 2007, the Port Wentworth facility embarked on an 
aggressive plan to develop a written job safety analysis for every job 
function at the Port Wentworth plant.
    <bullet> In 2007, the Port Wentworth facility implemented new 
requirements for personal protective equipment (PPE), including the 
mandatory wearing of hard hats, safety glasses, and steel-toed shoes--
all provided at no cost to employees.
    <bullet> In fiscal year 2007, the Port Wentworth plant spent over 
$1.7 million on safety-related capital improvements to the facility.

    OSHA first published its National Emphasis Program regarding 
combustible dust (NEP) on October 18, 2007. After the publication of 
OSHA's NEP, some of the activities either completed or ongoing at Port 
Wentworth regarding combustible dust included the following:

    <bullet> refocusing our efforts on housekeeping, including 
conducting daily walkthroughs focusing on both safety and quality, with 
a particular emphasis on housekeeping;
    <bullet> focusing on the most critical and dust-prone production 
areas with personnel and resources in the areas of safety, quality, 
operations, maintenance and engineering; and
    <bullet> purchasing industrial vacuums, as recommended by the NEP, 
for use in cleaning dust and to minimize airborne disbursement (as 
potentially caused by blowing and sweeping).

    The efforts described above continued through the end of 2007 and 
were ongoing at the time of the February 2008 accident.
    Imperial Sugar's efforts regarding safety and health, including 
housekeeping, continued after Graham H. Graham joined Imperial Sugar in 
November 2007. Mr. Graham was recruited into Imperial Sugar by then-
Chief Operating Officer and now Chief Executive Officer John Sheptor 
because of Mr. Graham's experience with innovative manufacturing 
principles, including Total Productive Maintenance, Six Sigma, LEAN, 
and others. After Mr. Sheptor brought Mr. Graham on board last 
November, Mr. Graham was immediately dispatched to improve our 
facilities on all fronts, including safety.
    Shortly after joining the Company, Mr. Graham visited the Company's 
Port Wentworth facility in November and December 2007, and identified 
many areas for improvement. Mr. Graham reported to Mr. Sheptor his 
initial impressions and findings regarding our Port Wentworth facility, 
which were lengthy. Mr. Graham concluded this report to Mr. Sheptor 
with ``Here's the good news: it's all fixable.'' (See Attachment A, a 
November 16, 2007 e-mail from Mr. Graham to Mr. Sheptor). In response, 
Mr. Sheptor indicated as follows: ``Thanks Graham--no surprises. You 
have my full support.'' (See Attachment A). Mr. Graham forwarded Mr. 
Sheptor another report of his findings regarding his December 2007 
visit, and Mr. Sheptor continued to offer him his full support.
    Under Mr. Graham's direction, the management and hourly employees 
at Port Wentworth went to work on a variety of projects, including 
focusing on housekeeping efforts, electrical improvements and other 
enhancements. The plant also increased the number and frequency of 
safety inspections conducted by all levels of supervision.
    Mr. Graham returned to the Port Wentworth facility in late January 
2008 and reported that significant progress had been made in many areas 
in the month since his December visit. His communications regarding 
that time period included the following:

    <bullet> In a January 21, 2008 operations report, Mr. Graham noted 
that ``[t]here is already a noticeable and significant improvement in 
housekeeping at both facilities. In particular, exposure to live 
electrical conductors has been eliminated or severely restricted.''
    <bullet> In response to Mr. Sheptor's e-mail inquiry on how Mr. 
Graham's plant visits had been in January 2008, Mr. Graham responded 
with ``Very successful . . . plants have made enormous improvement 
especially in housekeeping. Actually even better than I expected at 
Savannah.'' (See Attachment B, a January 25, 2008 e-mail from Mr. 
Graham to Mr. Sheptor).
    <bullet> On January 31, 2008, seven (7) days prior to the explosion 
at Port Wentworth, Mr. Graham forwarded data regarding injury and 
illness rates to the plant safety personnel, stating ``Please share 
this excellent progress with the managers and associates. Well done to 
everyone.'' (See Attachment C, a January 31, 2008 e-mail from Mr. 
Graham).

    As a result of the tragic accident at Port Wentworth, OSHA also 
began an inspection of Imperial Sugar's facility in Gramercy, LA. In 
connection with OSHA citations that were issued related to that 
inspection, Mr. Graham reported as follows:

          ``Even before OSHA showed up, hundreds of defects have been 
        identified and corrected (too many to mention here) going back 
        to December 07 but inevitably when 8 inspectors spend 
        significant amount of time looking for defects they are bound 
        to come up with some that have not yet been identified or yet 
        corrected.''

(See Attachment D, a March 23, 2008 e-mail from Mr. Graham to Mr. 
Sheptor).

    In short, prior to the February 7, 2008 explosion at the Port 
Wentworth facility, Imperial Sugar was focused on safety and health, 
including housekeeping, and believed that much progress was being made.
    After the February 7, 2008 explosion, contrary to allegations 
recently leveled by OSHA, Imperial Sugar promptly undertook a thorough 
inspection and review of its Gramercy facility to ensure that there 
were no combustible dust or other hazards present there. These efforts 
were initiated at the highest level of Imperial Sugar's management. 
Indeed, Mr. Sheptor directed Mr. Graham, as the Vice-President of all 
of the Company's operations, to temporarily relocate to the Gramercy 
facility and personally oversee the identification and resolution of 
issues found there. (See Attachment E, a February 26, 2008 e-mail from 
Mr. Sheptor to Mr. Graham establishing this as Mr. Graham's top 
priority). Mr. Sheptor also forwarded to Mr. Graham a March 7, 2008 
letter from OSHA advising Imperial Sugar to ensure that its Gramercy 
plant was in compliance with OSHA standards, reiterated to Mr. Graham 
that ensuring the safety of workers at all Imperial Sugar facilities 
remained the Company's top priority, and directed him to periodically 
report to Mr. Sheptor on the status of the work being done at Gramercy. 
In short, the Company took prompt and reasonable actions in response to 
the explosion at Port Wentworth to ensure that its ongoing operations 
were safe.
    Whether or not OSHA promulgates a combustible dust standard, 
Imperial Sugar has taken, and will, on its own initiative, continue to 
take substantial steps in response to our explosion to ensure our 
workplaces are safe and that nothing remotely similar to what happened 
on February 7 ever happens again. For example,

    <bullet> Imperial Sugar has retained consultants from Chilworth 
Technology, who are the world's leading experts on combustible dust 
fire prevention and control, and one of your witnesses today. Chilworth 
is working with our inside and outside designers and engineers to 
ensure that our Port Wentworth facility is designed according to the 
latest U.S. and international guidelines and best engineering practices 
as they relate to dust hazards.
    <bullet> In addition to guiding Imperial Sugar's design process, 
Chilworth has provided training to all of our Port Wentworth employees 
on combustible dust hazards.
    <bullet> Imperial has engaged Chilworth to develop a process safety 
system of internal standards for Imperial at both the Port Wentworth 
and Gramercy plants. This system will (1) ensure compliance with 
applicable safety standards and guidelines; (2) provide guidance on 
equipment selection, maintenance and operating practices; and (3) 
include tools on evaluating and controlling hazards. We intend that 
this process will be above and beyond anything required by applicable 
OSHA standards and will incorporate both the U.S. NFPA standards as 
well as the European Union's ATEX directives.
    <bullet> Imperial Sugar is similarly working with Chilworth with 
respect to its Gramercy, LA facility in connection with improvements 
and training there. Imperial Sugar has already committed $1.8 million 
in capital expenditures related to safety at Gramercy and expects to 
commit even more in expenditures in the coming months.
    <bullet> Imperial Sugar is continuing its internal safety training, 
audits and efforts at its facilities, including relating to emergency 
response and hazard control.

    Thank you again for holding this important hearing on legislation 
that is vital to the safety of American workplaces, and thank you for 
considering this statement in connection with the hearing.
                              Attachment A
From:  Sheptor, John C. (/O=IMPERIAL SUGAR COMPANY/OU=IHC/CN=
RECIPIENTS/CN=SHEPTORJ)

To: Graham, Graham H.

Subject: Re: Initial Impression of Savannah

    Thanks Graham--no surprises. You have my full support.
                                 ______
                                 
From: Graham, Graham H.

To: Sheptor, John C.

Subject: Initial Impression of Savannah

    Here's a summary of my first impressions of the operation at 
Savannah:
                              environment
    <bullet> Initial kerb side visual appeal is poor.
    <bullet> Considering this is a food grade facility, cleanliness & 
contamination control is also poor.
    <bullet> Offices and work areas scruffy, untidy and somewhat 
disorganized.
    <bullet> Lack of signage to indicate use, direction, purpose or 
location.
    <bullet> Poor lighting and demarcation of pedestrian/work/
maintenance areas.
    <bullet> Not easy to identify role of employee (many not wearing 
corporate colors, some due to temp labor of course and some because 
their contracted but they should still wear something).
    <bullet> Road surfaces/working surfaces very rough and uneven.
                          people & management
    <bullet> Stunningly high head count.
    <bullet> Absenteeism not apparently reported/broadcasted.
    <bullet> Excessive overtime >50 percent.
    <bullet> Excessive use of contracted labor.
    <bullet> Lots of supervisors.
    <bullet> Functional heads unsure of specific manufacturing 
direction.
    <bullet> Functional heads lack customer focus/awareness.
    <bullet> QA given responsibility but lack authority and 
accountability.
    <bullet> General sense of lack of strong leadership & 
accountability.
    <bullet> Willingness to recognize deficiencies and learn 
alternative methodology.
    <bullet> Strong technical knowledge.
    <bullet> Way too many attendees at meetings (18 at one of them !).
                          process & machinery
    <bullet> Waste sugar/liquids everywhere.
    <bullet> Leaks, poor containment across the site.
    <bullet> Frequent unplanned downtime.
    <bullet> Hard to see visual effect of significant CAPEX spending.
    <bullet> Packaging/carton lines suffer frequent interruptions/
stoppages.
    <bullet> Inconsistent bag sealing.
    <bullet> Significant use of manual labor in stacking & palletizing 
area.
    <bullet> Control systems may benefit from 3rd party examination 
using sophisticated recipe/stability/control/performance envelope 
analysis.
                          systems & procedures
    <bullet> Confusing, disjointed work schedules; few overlaps making 
communication difficult.
    <bullet> Lack of WAR ROOM to focus/connect bottom line metrics to 
corporate/strategic plan.
    <bullet> Management meetings (CAPEX, P&L, Safety) felt superficial 
and lacking in real accountability for achievements and progress.
    <bullet> Too frequent use of phrases such as ``we hope to get that 
done,'' ``we hope that will happen,'' `` we hope it works out,'' etc.
    <bullet> No headline/banner performance improvement objectives 
visible.
    <bullet> Plant performance metrics displayed but graphs too small, 
hidden in conference room; Metrics not displayed and shared with hourly 
employees (i.e. little use of line of site metrics).

    ,Here's the good news: it's all fixable. Much of it is affecting 
the bottom line. I expect a similar experience at Gramercy. So when 
that's over, I'll be selecting a few topics that both plants will focus 
on which I'll use to contribute to my 90-day review.
            Regards,
                                                    Graham.
                              Attachment B
From:  Graham, Graham H. (/O=IMPERIAL SUGAR COMPANY/OU=IHC/CN=
RECIPIENTS/CN=GRAHAMG)

To: Sheptor, John C.

Subject: Re: Six Sigma and LEAN Training

  John: Very successful . . . plants have made enormous improvement 
especially in housekeeping. Actually even better than I expected at 
Savannah.
    People fired up and eager to move forward with reductions in costs, 
improvements in productivity, etc.
    I'll write up summary when I get back to Houston tonight and pass 
on web links/resource details for six sigma courses.
            Regards,
                                                    Graham.
                                 ______
                                 
From: Sheptor, John C.

To: Graham, Graham H.

Subject: Six Sigma and LEAN Training

    Hi Graham: How have your visits to the refineries been this week? 
What are your observations?
    When you get a chance, please forward to me the Web sites for the 
online six sigma and LEAN training that you are recommending.
            Thanks,
                                                      John.
          Attachment C.--OSHA Recordables 2004 to Q1, 2008.ppt
From:  Pevey, Darren (/O=IMPERIAL SUGAR COMPANY/OU=SFI/CN=
RECIPIENTS/CN=PEVEYD)

To:  # SSR Sugar Refinery; Braddy Electric; Don Ogle; Kerby 
Contractors; P & L Transport; Savannah Bridge; Stokes Contractors; 
Wilder, John

Subject: Safety Numbers--1st Quarter

cc: Graham, Graham H.

    Supervisors please print out the chart and post in break rooms for 
all employees to see.

      Everyone: These are the slides from John's presentation on safety 
in yesterday's Town Hall Meeting. These slides show that the company 
(all sites) has had (6) OSHA Recordables, (4) Restricted Duty Cases, 
(0) LTA's and an OSHA Rate of 2.53. This is close to a 50% reduction 
from our numbers in the first quarter of last year and includes all 
contractor numbers as well. Great job to all the teams on this effort.
    Safety will continue to perform department inspections including 
supervisors and master mechanics performing them as well. JSA training 
will continue each week on the top at risk jobs with help from members 
of each department with the development and implementation. Again, 
great job to everyone, you are making a difference.
                                 ______
                                 
From: Graham, Graham H.

To: Sikes, Doug; Pevey, Darren; Zeringue, Joel

Subject: OSHA Recordables 2004 to Q1, 2008.ppt

    Gents: Please share this excellent progress with the managers and 
associates. Well done to everyone.
            Regards,
                                                    Graham.
                   Attachment D.--Imperial Sugar.pdf
From: Graham, Graham H.

To: Sheptor, John C.

Subject: FW: Imperial Sugar Citation and Notification of Penalty

cc: Sikes, Doug; Brannen, Oscar

    You've probably already been copied by the lawyer but this 
attachment is a list of citations issued Friday.
    All of them will be fixed by Monday or Tuesday next week except for 
the two dust management systems which OSHA expects us to modify to move 
the residual air outside of the work area. This will require 
engineering and some civil work if we are to proceed without contesting 
the citations.
    Even before OSHA showed up, hundreds of defects have been 
identified and corrected (too many to mention here) going back to 
December 2007 but inevitably when 8 inspectors spend significant amount 
of time looking for defects they are bound to come up with some that 
have not yet been identified or yet corrected.
            Regards,
                                                    Graham.
                                 ______
                                 
From: Boyd, Stephen--OSHA [mailto: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="74361b0d105a270011041c111a34101b185a131b02">[email&#160;protected]</a>]

To: Graham, Graham H.; Veters, Pat

Subject: Imperial Sugar Citation and Notification of Penalty

    As discussed, here is a scanned copy of the current Citation and 
Notification of Penalty. Thank you.
                                 Notice
    This e-mail message and any attachments to it may contain 
confidential information. The information contained in this 
transmission is intended solely for the use of the individual(s) or 
entities to which the e-mail is addressed. If you are not the intended 
recipient, or an employee or agent responsible for delivering this 
message to the intended recipient, you are hereby notified that you are 
prohibited from reviewing, retransmitting, converting to hard copy, 
copying, disseminating, or otherwise using in any manner this e-mail or 
any attachments to it. If you have received this message in error, 
please notify the sender by replying to this message and delete it from 
your computer.
                              Attachment E
From:  Sheptor, John C. (/O=IMPERIAL SUGAR COMPANY/OU=IHC/CN=
RECIPIENTS/CN=SHEPTORJ)

To: Graham, Graham H.

Subject: Gramercy Observations

    Graham: I have re-read your Gramercy observations and accordingly, 
I request that you make an extended visit to the site for you 
personally to oversee the resolution of these concerns. I will make a 
visit to the site myself as soon as possible to review your progress. 
Your response needs to take priority over your other activities to 
bring urgent attention to these issues. You can reach alignment with 
Brian on an organization recommendation via teleconference.
    Please schedule a call with me next week to update me regarding the 
site.
    I also encourage you to continue to work with the site towards a 
shared vision and joint collaboration with your objectives as we have 
previously discussed. Performance standards will become more 
sustainable if you work together with your team to make the 
improvements. Critique alone is not adequate leadership. You will make 
faster and more significant progress if you join your team at the site 
to effectualize these improvements.
            Thank you,
                                                      John.
                                    USMWF.ORG, INC.
                                             Lexington, KY,
                                                     June 17, 2008.
Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC 20510.
    Dear Senators: USMWF and many family members have been involved in 
the Combustible Dust Explosion and Fire Prevention Act (H.R. 5522). We 
have gained over 500 signatures of friends and families that support 
H.R. 5522. Many have told us that this is considered a political issue 
but we are hopeful that this will not be used for political gains as it 
is a matter of life or death. Behind each one of these workers killed 
and injured is a family in mourning--a family in need of answers, 
resources and support. These families and the ones still left in the 
30,000 facilities need your support.
    Since 1980, there have been over 350 dust explosions resulting in 
the deaths of more than 130 people. Despite the tragedies that have 
occurred, OSHA refuses to implement a standard for controlling 
combustible dust. At this point, getting safety standards passed to 
help prevent future accidents is of paramount importance.
    In the late 1970s and early 1980s, the U.S. grain industry 
experienced a rise in explosions due to grain dust. In response to 
this, OSHA issued a grain dust safety standard. After the standard was 
introduced, injuries and fatalities as a result of dust explosions fell 
60 percent. Unfortunately the standard applies only to grain dust, 
while there are many other materials that create equally dangerous 
dusts such as aluminum, coal, sawdust, etc. American workers need a 
standard that applies to all types of combustible dust in various work 
environments.
    The House has already voted and passed the Combustible Dust 
Explosion and Fire Prevention Act (H.R. 5522). It now awaits approval 
by the Senate. This legislation would require OSHA to set a standard on 
combustible dust, which would mitigate the probability of accidental 
explosions. We respectfully ask that you sign the bill if it passes in 
the House and Senate. Please sign this bill for the sake of the workers 
and their families who are currently employed by more than 30,000 U.S. 
factories vulnerable to dust explosions. We look forward to hearing 
from you on this matter.
            Sincerely,
                                               Tammy Miser,
                                      Founder and President, USMWF 
                          and the undersigned Families and Friends.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [Whereupon, at 12:07 p.m., the hearing was adjourned.]

                                   

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
